           REPORT ON THE
FEDERAL COMMUNICATIONS COMMISSION
          FISCAL YEAR 2005
       FINANCIAL STATEMENTS

   05-AUD-04-03       November 15, 2005




        Office of Inspector General

                  *******

    Federal Communications Commission
This page intentionally left blank
                                        OFFICE OF INSPECTOR GENERAL
                                                                   MEMORANDUM




DATE:         November 15, 2005

TO:           Chairman
              Managing Director
              Chief Financial Officer

FROM:         Inspector General

SUBJECT:      Audit of the Federal Communications Commission’s
              Fiscal Year (FY) 2005 Financial Statements


This letter transmits Clifton Gunderson LLP’s report on its FY 2005 financial statement
audit of the Federal Communications Commission (FCC) and the results of the Office of
Inspector General’s (OIG) review thereon.

In accordance with the Accountability of Tax Dollars Act of 2002, FCC prepared
consolidated financial statements in accordance with Office of Management and Budget
(OMB) Bulletin No. 01-09, Form and Content of Agency Financial Statements, amended,
and OMB Circular No. A-136, Financial Reporting Requirements, and subjected them to
audit. The Chief Financial Officers Act of 1990 (Public Law 101-576 referred to as the
“CFO Act”), amended, requires the FCC OIG, or an independent external auditor as
determined by the Inspector General, to audit agency financial statements in accordance
with Government Auditing Standards issued by the Comptroller General of the United
States. Under a contract monitored by the OIG, Clifton Gunderson LLP, an independent
certified public accounting firm, performed the audit of FCC’s FY 2005 consolidated
financial statements in accordance with the aforementioned standards; OMB Bulletin
No. 01-02, Audit Requirements for Federal Financial Statements, amended; and
applicable sections of the U.S. Government Accounting Office (GAO)/President’s
Council on Integrity & Efficiency (PCIE) Financial Audit Manual.


Opinion on the Financial Statements

In its report dated November 1, 2005, Clifton Gunderson LLP issued a disclaimer of
opinion on FCC’s financial statements as of September 30, 2005. Clifton Gunderson
LLP, was unable to apply all necessary auditing procedures to conduct an audit in
accordance with the standards and OMB Bulletin No. 01-02, the scope of work was not
sufficient to enable them to express an opinion.



Matters Pertaining to Effectiveness of Internal Control Identified During the Audit

In performing its internal control testing of controls necessary to achieve the objectives in
OMB Bulletin No. 01-02, Clifton Gunderson LLP identified matters relating to
significant deficiencies in the design or operation of FCC’s internal control that, in its
judgment, could aversely affect FCC’s ability to record, process, summarize, and report
financial data consistent with the assertions by management in the financial statements.
Specifically, these matters were categorized as material weaknesses and reportable
conditions per definitions of the American Institute of Certified Public Accountants.

Material weaknesses are reportable conditions in which the design or operation of one or
more of the internal control components does not reduce to a relatively low level the risk
that misstatements in amounts that would be material in relating to the financial
statements may occur and not be detected within a timely period by the employees in the
normal course of performing their assigned functions. Clifton Gunderson LLP identified
material weaknesses in the areas of:

       •       Control Environment Changes
       •       Component Entities’ Financial Reporting Controls
       •       Auction Transactions
       •       FCC’s Contingency Plans

Clifton Gunderson LLP identified additional reportable conditions not considered to be
material weaknesses, which include:

       •       Financial Reporting
       •       Cost Accounting
       •       Reconciliation of Intragovernmental Transaction Balances
       •       Payroll and Personnel Activities
       •       Debt Collection Improvement Act
       •       Electronic Data Processing Controls
       •       Federal Managers’ Financial Integrity Act Compliance and Reporting



Results of Tests of Compliance with Laws and Regulations

FCC management is responsible for complying with laws and regulations applicable to
the agency. To obtain reasonable assurance about whether FCC’s financial statements
are free of material misstatements, Clifton Gunderson LLP performed tests of compliance
with certain provisions of laws and regulations, noncompliance with which could have a


                                             2
direct and material effect on the determination of financial statement amounts and certain
other laws and regulations specified in OMB Bulletin No. 01-02, including the
requirements referred to in the Federal Financial Management Improvement Act of 1996.
As appropriate, Clifton Gunderson LLP limited its tests of compliance to these provisions
and it did not test compliance with all laws and regulations applicable to FCC.

Clifton Gunderson LLP’s tests disclosed instances of noncompliance with specific laws
and regulations required to be reported under Government Auditing Standards and OMB
Bulletin No. 01-02 as follows:

       •      Chief Financial Officers Act of 1990
       •      Antideficiency Act
       •      OMB Circular No. A-129, Polices for Federal Credit Programs and Non-
              Tax Receivables
       •      Debt Collection Improvement Act of 1996
       •      Federal Financial Management Improvement Act of 1996


OIG Evaluation of Clifton Gunderson LLP’s Audit Performance

In connection with the contract, the OIG reviewed Clifton Gunderson LLP’s reports and
related documentation and inquired of its representatives. Specifically, we:

       •      reviewed Clifton Gunderson LLP’s approach and planning of the audit,
       •      evaluated the qualifications and independence of its auditors,
       •      monitored progress of the audit at key points,
       •      examined working papers and audit documents to evaluate compliance
              with Government Auditing Standards,
       •      reviewed Clifton Gunderson LLP’s audit reports to ensure compliance
              with Government Auditing Standards and OMB Bulletin No. 01-02, and
       •      performed other procedures we deemed necessary.

This review, as differentiated from an audit in accordance with Government Auditing
Standards issued by the Comptroller General of the United States, was not intended to
enable us to express, and the OIG does not express, an opinion on FCC’s consolidated
financial statements; conclusions about the effectiveness of internal control; conclusions
on whether FCC’s financial management substantially complied with the Federal
Financial Management Improvement Act of 1996; or conclusions on compliance with
laws and regulations. Clifton Gunderson LLP is responsible for the attached reports
dated November 1, 2005 and the conclusions expressed therein. However, the OIG
review disclosed no instances where Clifton Gunderson LLP did not comply, in all
material respects, with Government Auditing Standards issued by the Comptroller
General of the United States.




                                            3
TABLE OF CONTENTS


TRANSMITTAL MEMORANDUM


SECTION I             FEDERAL COMMUNICATIONS COMMISSION’S
                      SERIOUS MANAGEMENT CHALLENGES

      Inspector General Statement on the Federal Communications
      Commission’s Serious Management Challenges

      The Managing Director’s Response to Inspector General Statement on the
      Federal Communications Commission’s Serious Management Challenges


SECTION II            INDEPENDENT AUDITOR’S REPORT

      Independent Auditor’s Report                                                      1


SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      INTERNAL CONTROL OVER FINANCIAL REPORTING

      Material Weaknesses:

      I.       Control Environment Changes                                              2

      II.      Component Entities’ Financial Reporting Controls

               A. Control Over Budgetary Transactions                                   7

               B. Universal Service Fund (USF) Commitments                              9

               C. Timeliness of Transaction Entry and Reconciliation                    10

               D. Control Over USF Investment Transactions                              11

               E. Controls Over Compliance with Laws and Regulations                    12

       III.    Auctions Transactions

               A. Auction Revenue and Receivables                                       13

               B. Spreadsheet Subsidiary Ledger System                                  14

       IV.     FCC’s Contingency Plans                                                  15




05-AUD-04-03          REPORT ON THE FEDERAL COMMUNICATIONS                     Page i
                      COMMISSION’S FY 2005 FINANCIAL STATEMENTS
TABLE OF CONTENTS


      Reportable Conditions:

      V.       Financial Reporting

               A. Integrated Financial Management Systems                                     16

               B. Federal Financial System Setup and Posting Model Definitions                18

               C. Financial Statement and Federal Agencies’ Centralized
                  Trial-Balance System II Differences                                         18

      VI.      Cost Accounting

               A. Minimum Level of Cost Accounting                                            19

               B. Matching Revenue to Cost                                                    20

      VII.     Reconciliation of Intragovernmental Transaction Balances                       20

      VIII.    Payroll and Personnel Activities

               A. Payroll Activities                                                          21

               B. Personnel Activities                                                        23

      IX.      Debt Collection Improvement Act                                                24

      X.       Electronic Data Processing Controls

               A. OMB Circular No. A-130 Requirement for a
                  Comprehensive Security Plan                                                 25

               B. Revenue Accounting and Management Information
                  System Application                                                          28

               C. Security Training and Education                                             29

               D. Employee Duties and Position Risk Designation                               29

               E. OMB Circular No. A-130 Requirements for USF                                 30

               F. USF Password Controls                                                       30

      XI.      Federal Managers’ Financial Integrity Act Compliance and Reporting             31




05-AUD-04-03           REPORT ON THE FEDERAL COMMUNICATIONS                         Page ii
                       COMMISSION’S FY 2005 FINANCIAL STATEMENTS
TABLE OF CONTENTS


           Status of Prior Year Comments:

                        •    Condition – Cost Logic                                                               32

                        •    Condition – Collateral for Deposits Held Outside of Treasury                         32

                        •    Condition – OMB Circular Nos. A-127 and A-130 Reviews                                32



SECTION IV                   INDEPENDENT AUDITOR’S REPORT ON
                             COMPLIANCE AND OTHER MATTERS

           Chief Financial Officers Act of 1990                                                                   2

           Antideficiency Act                                                                                     3

           OMB Circular No. A-129, Policies for Federal Credit Programs and
           Non-tax Receivables                                                                                    3

           Debt Collection Improvement Act of 1996                                                                4

           Federal Financial Management Improvement Act of 1996                                                   4

           Federal Financial Management Systems                                                                   4

           Federal Accounting Standards                                                                           5

           U.S. Standard General Ledger at the Transaction Level                                                  6


SECTION V                    FEDERAL COMMUNICATIONS COMMISSION
                             FISCAL YEAR 2005 PERFORMANCE AND
                             ACCOUNTABILITY REPORT*

           Message from the Chairman                                                                              1

           1. Management’s Discussion and Analysis                                                                3

           2. Program Performance                                                                                 27

           3. Financial Statements*                                                                               75

                    Unaudited Consolidated Balance Sheet                                                          79

*
    This report has been abridged by removing pages 119 to 172, which contain the auditor’s reports.



05-AUD-04-03                 REPORT ON THE FEDERAL COMMUNICATIONS                                      Page iii
                             COMMISSION’S FY 2005 FINANCIAL STATEMENTS
TABLE OF CONTENTS



               Unaudited Consolidated Statement of Net Cost                            80

               Unaudited Consolidated Statement of Changes in Net Position             81

               Unaudited Combined Statement of Budgetary Resources                     82

               Unaudited Consolidated Statement of Financing                           83

               Unaudited Consolidated Statement of Custodial Activity                  84

               Unaudited Notes to Consolidated Financial Statements                    85

               Unaudited Required Supplementary Information                            109

               Appendix A: Glossary of Acronyms                                        173


SECTION VI            ACRONYMS & ABBREVIATIONS




05-AUD-04-03          REPORT ON THE FEDERAL COMMUNICATIONS                   Page iv
                      COMMISSION’S FY 2005 FINANCIAL STATEMENTS
             SECTION I

FEDERAL COMMUNICATIONS COMMISSION’S
   MAJOR MANAGEMENT CHALLENGES
This page intentionally left blank
                       Inspector General’s Statement:
   Serious Management Challenges of the Federal Communications Commission


Reporting Component Investigations and Fraud
Universal Service Fund

The Telecommunications Act of 1996 codified and modified the Federal
Communications Commission’s (FCC) longstanding policy of promoting universal
telecommunications service throughout the nation. Per FCC direction, the Universal
Service Administrative Company administers the four universal service support
mechanisms of the Universal Service Fund (USF). The four universal service support
mechanisms include: high cost, low income, rural health care, and schools and libraries.
These support mechanisms are funded through mandatory payments from U.S.
telecommunications providers, including local and long distance phone companies,
wireless and paging companies, and payphone providers. USAC provides money directly
to service providers to defray the cost of serving customers who use the
telecommunications services.

Fraud is an inherent risk in the USF core business process: collection, certification, and
disbursement of funds for telecommunications services. As of fiscal year-end 2005, 71
investigations have been initiated. This represents a six percent increase to initiated
investigations since the previous reporting period. Of those investigations, 39 are on-
going and 32 are closed. Investigations have led to indictments as well as subsequent
sentencing relating to fraudulent actions. To date, nine individuals and three corporations
have been indicted and accepted plea agreements in four separate investigations.
Additionally, six corporations and five individuals have been indicted in another case that
is currently scheduled for trial. FCC has taken action to address fraud in the USF
business process; however, additional efforts are needed.

In addition to law enforcement activities, audits conducted of the schools and libraries
support mechanism, commonly referred to as E-rate, disclosed significant potential
recoveries. Currently, these recoveries are in excess of $40 million. Although lesser in
amounts, additional auditor recommended recoveries exist for funds disbursed in the high
cost and low income support mechanisms. FCC has taken action to improve oversight of
the USF program; however, additional efforts are needed. Generally, controls over
management oversight and accountability for receipt of USF funds by beneficiaries have
been materially weak because of inadequate management controls, lack of a sufficient
independent audit program to deter future fraudulent activity, and weaknesses in the
structure of the program.

Furthermore, the Office of Inspector General is aware of enforcement and audit activities
pertaining to the revenue contributed to the USF from the telecommunications industry.
Although FCC’s focus has been to address the disbursement and use of received funds, it
has not fully considered or developed an approach to ensure compliance with contributor
revenue requirements.




                                            1
                       Inspector General’s Statement:
   Serious Management Challenges of the Federal Communications Commission


The Office of Inspector General has been unable to implement effective independent
audit oversight of the USF program because of inadequate resources. In the summer of
2004, the Office of Inspector General and the USF administrator worked to establish a
contract under which these organizations could obtain resources to conduct USF audits
and support USF investigations. As part of this process, a request for proposal was
released in November 2004 and contractor selection was finalized in March 2005. In
April 2005, the USF administrator board of directors approved the selection of
contractors presented by the review team and the USF administrator referred the matter to
the FCC for approval. Subsequent to fiscal year-end, FCC communicated to the USF
administrator that the procurement would need to be re-competed per Federal Acquisition
Regulations. As a result of the subsequent decision by the Commission, the Office of
Inspector General has reinstated planning for USF audits. However, the lack of access to
resources anticipated under the agreement have impeded the ability of the Office of
Inspector General to provide support to Federal investigations.

Telecommunications Relay Service Fund

Similar to the USF, fraud is an inherent risk in the Telecommunications Relay Service
(TRS) fund. The TRS fund compensates providers for the reasonable cost of providing
interstate telephone transmission services that enable a person with a hearing or speech
disability to use such services to communicate with a person without disabilities.

To date, one corporation and one individual have been indicted and accepted settlement
agreements. The agreement includes the return of $2 million disbursed funds and the
forfeiture of related financial assets.


Financial Reporting
Financial Management Weaknesses

FCC does not maintain current and accurate financial data during the course of the year.
As a result, FCC undertakes a massive, manually intensive effort to compile, analyze, and
correct its financial data to prepare accurate financial statements quarterly and at fiscal
year-end. FCC can enhance both its processes and timing of financial reporting practices,
improve its policies and procedures to ensure consistent accounting practices, and
continue its endeavor for an updated, integrated financial management system entity-
wide.

FCC has made progress in correcting financial management weaknesses given the
resources available. However, requests by financial managers for additional resources to
address expanding financial requirements, oversight functions, and Office of Inspector
General recommendations remain outstanding and resources are still required.




                                            2
                       Inspector General’s Statement:
   Serious Management Challenges of the Federal Communications Commission


Recent improvements include the implementation and enhancement of FCC’s cost
accounting system and certain modules of its revenue management system. To address
this challenge, currently FCC is reviewing potential replacements for its core accounting
and general ledger system. Despite these actions, FCC needs to take additional steps to
ensure proper financial management reporting. Specifically, it has not made the major
changes needed to address a long-standing condition in financial reporting. Significant
elements of this condition include the need for:

               •   integrated financial management system(s) within FCC as well as its
                   reporting components;
               •   a cost accounting system that accounts for unit costs per generally
                   accepted accounting principles, provides information for performance
                   measurement, and routinely provides this information to program
                   managers;
               •   complete budgetary accounting for consolidating reporting
                   components;
               •   timely recording and analysis of financial activities for certain
                   accounts;
               •   a complete and thorough process for compiling the entity consolidated
                   statements with minimum errors; and
               •   expanded oversight of component accounting activities.

Financial Management Relationships with Consolidating Component Entities

FCC lacks clear, comprehensive, and accountable relationships with its financial
reporting consolidating component entities, which include the administrators of the
Universal Service Fund, the Telecommunications Relay Services fund, and the North
American Numbering Plan (NANP), as well as their respective service organizations. As
a result, FCC’s consolidated financial reporting process experiences delays, errors, and
recently, attestation impacts.

Primarily, FCC relies on periodic financial and data reporting to compile its consolidated
financial reporting products. To date, FCC accountants and financial managers are not
involved in the financial operations of these entities nor do they possess a comprehensive
understanding of component entity financial or business processes. Specifically, FCC
staff lack complete understanding of each component entity’s: functions, internal
control, information technology aspects, contracted service vendor operations, and other
business applications that derive the component’s periodic reporting. FCC has not
invested resources to obtain this understanding. For many of the component entities and
contracted service organizations, FCC staff only make on-site visits at component
locations if a decision if made to accompany the financial auditors.

FCC’s financial compilation process requires FCC accountants and staff to prepare most
component entity submissions for Federal financial reporting requirements. This is in
direct contrast to a process where the component entity is responsible for the preparation


                                             3
                       Inspector General’s Statement:
   Serious Management Challenges of the Federal Communications Commission


of its financial reporting and FCC accountants act as reviewers and consolidators, a
relationship expected for an organization of FCC’s size and financial balance. The
current FCC relationship is weakened and inefficient, by not placing accountability on
the component entities, thereby diverting needed resources from consolidating reporting
efforts.

The June 30, 2005 interim consolidated financial statements are a current year example of
the effects of this challenge. These statements were submitted late to required Federal
agencies as well as the FCC’s auditors. Additionally, they contained material
unsupported adjustments to balances, as well numerous material adjustments to make
them consistent with other Federal financial reporting and normal account relationships.

Disclaimers of Opinion on FCC Consolidated Financial Statements

FCC senior management has been slow to address, mitigate, and remedy financial issues
which resulted in disclaimers of opinion on FCC’s Fiscal Years 2004 and 2003
Combined Statement of Budgetary Resources and Consolidated Statement of Financing.
Although FCC responded effectively in fiscal year 2004 when a determination, in
concurrence with the Office of Management and Budget, was made regarding material
matters to these statements; management made minimal efforts to address its inability to
make representations concerning the accuracy or completeness of these matters until mid-
August 2005. Additionally, during the interim, between fiscal year opening to August
2005, FCC program and financial management staff were not empowered to address
existing conditions. As stated in the fiscal year 2005 management representation letter,
unfortunately “[FCC] again this year [makes] no representations concerning the accuracy
or completeness of the information…reported as an opening balance on September 30,
2004 or the activity associated with this account[s] during [fiscal year] 2005.”

Relatedly, senior agency management responded untimely and incompletely to formal
inquiries from the Office of Inspector General regarding fundamental audit and
accounting issues pertaining to these material matters. At the close of fieldwork, formal
audit requests and further inquiries for these matters await an informative and effective
response.

Moreover , senior management’s reluctance to sign a management representation letter,
which resulted in disclaimers of opinion for all principal financial statements for fiscal
year 2005, overshadows the continuing issues related to the fiscal years 2004 and 2003
disclaimers of opinion. The President’s Management Agenda (PMA) defines success or
“green” for financial performance as:

   •   an unqualified audit opinion,
   •   with no auditor reported material weaknesses,
   •   no material noncompliance with laws and regulations,
   •   no chronic or significant Antideficiency Act violations,
   •   which is Federal Financial Management Improvement Act of 1996 compliant,


                                             4
                       Inspector General’s Statement:
   Serious Management Challenges of the Federal Communications Commission


   •   no material weaknesses for Federal Managers’ Financial Integrity Act of 1982
       Section 2 and 4, and
   •   submitted to meet reporting deadlines.

For the audit period of fiscal years 2004 and 2005, FCC fails all required elements to be
categorized as “green” in the PMA.


Financial Reporting Components
Throughout its history, FCC created subsidiary organizations and administrative
components, subject to various levels of FCC oversight, to conduct Commission business
and meet the agency mission. Presently, there are three financial reporting components
of the FCC: the Universal Service Fund, the Telecommunications Relay Services Fund,
and the North American Numbering Plan. Fundamentally, these organizations were
created without a complete assessment or determination of how component functions or
responsibilities would comply with Federal laws and regulations, policies, or concepts.
This creates considerable confusion between FCC and its components.

In fiscal year 2003, FCC adopted Commission Order FCC 03-232, the first of what was
expected to be a series of orders defining the applicability of certain laws and regulations
to these organizations and components. Although the order defined the applicability of
certain requirements for two of three current financial reporting components, it did not
address the North American Numbering Plan. Additionally, the scope of the new
requirements was fairly ambiguous as to which relevant provisions of Federal financial
management and reporting statutes and laws it applied. To date, FCC has not issued
similar orders to address this issue, nor clarified the relevancy of the other existing
provisions. Thus, the applicability of key provisions of Federal financial management
and reporting statutes, as well as some in their entirety, remains undecided.

This challenge has existed for multiple reporting periods and continues to exists to date.
During fiscal year 2005, the reporting components addressed by Commission Order FCC
03-232 progressed toward meeting requirements, but much remains to be completed.
Recently, the depth of this challenge was compounded when original subsidiary
organizations contracted with third party service organizations to perform their functions.
An understanding of the applicability of certain laws and regulations addressed in FCC
Order 03-232 is not shared by the service organizations.

Near fiscal year-end 2004, one component’s management informed FCC it would not
meet the implementation date for key elements of Commission Order 03-232. At the
close of fiscal year 2005, key elements noted in 2004 remain to be implemented.
Specifically, the component entity does not satisfy FCC Order 03-232’s requirement for
Federal budgetary accounting. To the best of our knowledge, no temporary, interim, or
corrective actions to mitigate this challenge have been provided to or by FCC
management.


                                             5
                       Inspector General’s Statement:
   Serious Management Challenges of the Federal Communications Commission



Furthermore, bureaus and offices which facilitate reporting component oversight are slow
to address known problem areas and fundamental questions. This observation is not
limited to those directly responsible for component oversight, but to other relative areas
including: legal, planning, financial management, information technology, and senior
and general management. Identified issues and problem areas languish for multiple fiscal
years with limited or no resolution. This fact was evident during fiscal year 2005 as FCC
failed to or significantly delayed responding to inquiries on fundamental matters.
Specifically, fundamental questions from component entities and the Office of Inspector
General remain unanswered or were responded to ambiguously. During fiscal year 2005,
FCC’s actions are still categorized as reactive versus proactive oversight, albeit a slower
approach.


Information Technology and Information Systems Security
As technology advances and our reliance on technology increases, the need for a strong
information technology infrastructure becomes more important. FCC’s operations have
become increasingly more reliant on automated systems and further integration of FCC
data and services with external users via the internet is escalating. Along with explosive
growth in computer connectivity comes the ability to disrupt or sabotage critical
operations, read or copy sensitive data, and tamper with critical processes.

FCC’s information technology control environment and systems security need to be
enhanced. FCC is noncompliant with a number of Federal statutes and policies.
Commission systems have been susceptible to malicious attacks via viruses and worms,
and unauthorized access. Inadequacies and inconsistencies exist in outsourced systems
and network access request process and efforts to develop and test FCC’s contingency
plans have been slow. Additionally, FCC lacks a comprehensive capital asset plan, needs
to further enhance its audit trail facility utilization and review, and strengthen its
password access controls.

FCC has taken steps to address its information technology and information systems
security vulnerabilities. FCC developed an agency-wide security plan and is working
toward compliance with required Federal policies and statutes; however, completion
dates for key items to address this challenge have repeatedly been revised due to budget
constraints. In the area of information system security, FCC successfully tested its
continuity of operations plan during the “Pinnacle 2005” interagency test. Furthermore,
the Commission has begun implementing its capital investment program. The most
visible element of this program is the Information Technology Steering Committee.




                                             6
                       Inspector General’s Statement:
   Serious Management Challenges of the Federal Communications Commission


Revenue Gap
Although FCC collects approximately $280 million in regulatory fees each year, FCC
cannot determine if all required fees are collected. The difference between what is
collected, an amount subject to Congressional determination, and what should have been
collected if all regulated parties fully paid their fees, is deemed a revenue gap.

FCC’s ability to bill regulatory fee payees is significant progress relating to collection of
known payees. During fiscal year 2005, FCC expanded on its capability to bill regulatory
fee payees. In fiscal year 2005, FCC billed 3,164 payees comprising $145.8 million in
regulatory fees. As of fiscal year-end, FCC received $139.6 million of the billed
regulatory fees. Furthermore, FCC purports its billing and assessment represents in
excess of 94% of all regulatory fees owed. However, since FCC does not have a
complete universe of potential regulatory fee payees, it cannot determine the total
regulatory fee subject to collection. FCC’s inability to determine total fee for collection
creates an incomplete universe for facilitating regulatory fee rate assessment in future
years.


Physical Security and Protection of Personnel
This challenge is not unique to FCC. Since September 11, 2001, physical security and
protection of personnel are critical issues in the Federal Government and the United
States in general. As the world experienced the devastating effect of the tsunami,
Hurricane Katrina, and Pakistani earthquake, it reminded us that threats are not limited to
actions of man.

The FCC has taken steps to identify and implement security measures to protect FCC
personnel and its physical infrastructure. Specifically, FCC created a program to inform
personnel regarding potential threats and threat management, prepared measures to
address potential catastrophic events, and made security enhancements to FCC facilities.
In the area of physical security, the Commission significantly upgraded the security of its
Gettysburg facility and has enhanced physical access security to the Portals II building by
installing concrete street barriers. Despite these efforts, the Commission has personnel
and physical infrastructure issues to complete. For example, FCC has not completed its
Business Continuity Plans for key bureaus and offices. Additionally, although most were
completed, some facility security and protection enhancements have not been completed
to date.




                                             7
This page intentionally left blank
This page intentionally left blank
This page intentionally left blank
         SECTION II

INDEPENDENT AUDITOR’S REPORT
This page intentionally left blank
SECTION II            INDEPENDENT AUDITOR’S REPORT




A1
                                 Independent Auditor’s Report

To the Inspector General of the
Federal Communications Commission


We were engaged to audit the consolidated balance sheets of the Federal Communications
Commission (FCC) as of September 30, 2005 and 2004, and the related consolidated statements
of net cost, changes in net position, financing, custodial activity and combined statements of
budgetary resources for the years then ended (collectively the financial statements). These
financial statements are the responsibility of the FCC’s management.

As part of our audit, we requested management’s written representations as required by
professional standards. The chairman of the FCC (head of the agency) would not sign the
management representation letter. In addition, we requested, but were unable to interview the
chairman regarding his knowledge, awareness and understanding of fraud and fraud risks of the
organization. Thus, we were unable to complete our inquiries of management about the risks of
fraud, as required by professional standards. As a result, we did not obtain sufficient, competent
evidential matter for applying audit procedures necessary to conduct an audit in accordance with
auditing standards generally accepted in the United States of America and the standards
applicable to financial audits contained in Government Auditing Standards and Office of
Management and Budget (OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial
Statements, as amended.

Because we were unable to apply all necessary auditing procedures to conduct an audit in
accordance with the standards and OMB Bulletin No. 01-02, the scope of our work was not
sufficient to enable us to express, and we do not express an opinion on the FCC’s financial
statements for the fiscal year ended September 30, 2005.

The financial statements for the year ended September 30, 2004 were audited by us and we
expressed an unqualified opinion on the balance sheet, statement of changes in net position, and
statement of custodial activity; a qualified opinion on the statement of net cost; and a disclaimer
of opinion on the statements of budgetary resources and financing in our report dated
November 1, 2004.

In accordance with Government Auditing Standards, we have also issued our reports dated
November 1, 2005 on our consideration of the FCC’s internal control over financial reporting,




05-AUD-04-03          REPORT ON THE FEDERAL COMMUNICATIONS                                  Page 1
                      COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S REPORT



and on our tests of the FCC’s compliance with certain provisions of laws and regulations. Those
reports are an integral part of our audits performed in accordance with Government Auditing
Standards and should be read in conjunction with this report in considering the results of our
audits.

Our audits were made for the purpose of forming an opinion on the basic financial statements
taken as a whole. The Management Discussion and Analysis, required supplementary
information, and other accompanying information contain a wide range of data, some of which is
not directly related to the financial statements. We do not express an opinion on this
information.


A1
Calverton, Maryland
November 1, 2005




05-AUD-04-03          REPORT ON THE FEDERAL COMMUNICATIONS                              Page 2
                      COMMISSION’S FY 2005 FINANCIAL STATEMENTS
         SECTION III

INDEPENDENT AUDITOR’S REPORT
    ON INTERNAL CONTROL
  OVER FINANCIAL REPORTING
This page intentionally left blank
SECTION III            INDEPENDENT AUDITOR’S REPORT ON
                       INTERNAL CONTROL OVER FINANCIAL REPORTING



A1
        Independent Auditor’s Report on Internal Control over Financial Reporting


To the Inspector General of the
Federal Communications Commission


We were engaged to audit the consolidated balance sheets of the Federal Communications
Commission (FCC) as of September 30, 2005 and 2004, and the related consolidated statements
of net cost, changes in net position, financing, custodial activity and combined statements of
budgetary resources for the years then ended (collectively the financial statements) and have
issued our report thereon dated November 1, 2005. In that report we disclaimed our opinion on
FCC’s financial statements because we were unable to apply all necessary auditing procedures to
conduct an audit in accordance with the auditing standards generally accepted in the United
States of America and standards applicable to financial audits contained in Government Auditing
Standards (GAS) and Office of Management and Budget (OMB) Bulletin No. 01-02, Audit
Requirements for Federal Financial Statement, as amended. The chairman of the FCC (head of
the agency) would not sign the management representation letter. In addition, we requested, but
were unable to interview the chairman regarding his knowledge, awareness and understanding of
fraud and fraud risks of the organization.

In planning and performing our engagement, we considered FCC’s internal control over financial
reporting by obtaining an understanding of FCC’s internal control, determining whether internal
controls had been placed in operation, assessing control risk, and performing tests of control in
order to determine our auditing procedures for the purpose of expressing our opinion on the
financial statements. We limited our internal control testing to those controls necessary to
achieve the objectives described in GAS and OMB Bulletin No. 01-02. We did not test all
internal controls relevant to operating objectives as broadly defined by the Federal Managers’
Financial Integrity Act (FMFIA) (31 U.S.C. 3512), such as those controls relevant to ensuring
efficient operations. The objective of our engagement was not to provide assurance on internal
control. Consequently, we do not provide an opinion on internal control.

Our consideration of the internal control over financial reporting would not necessarily disclose
all matters in the internal control over financial reporting that might be reportable conditions.
Under standards issued by the American Institute of Certified Public Accountants, reportable
conditions are matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control that, in our judgment, could adversely affect the FCC’s ability to
record, process, summarize, and report financial data consistent with the assertions by
management in the financial statements. Material weaknesses are reportable conditions in which




05-AUD-04-03           REPORT ON THE FEDERAL COMMUNICATIONS                                  Page 1
                       COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      INTERNAL CONTROL OVER FINANCIAL REPORTING


 the design or operation of one or more of the internal control components does not reduce to a
relatively low level the risk that misstatements caused by error or fraud in amounts that would be
material in relation to the financial statements being audited may occur and not be detected
within a timely period by employees in the normal course of performing their assigned functions.

Because of inherent limitations in internal controls, misstatements, losses, or noncompliance may
nevertheless occur and not be detected.

We noted certain matters discussed in the following paragraphs involving the internal control
over financial reporting and its operation that we consider to be reportable conditions and
material weaknesses. As discussed in our Independent Auditor’s Report, the scope of our work
was not sufficient to express an opinion on the financial statements of FCC as of and the year
ended September 30, 2005, and accordingly, other matters involving internal control over
financial reporting may have been identified and reported had we been able to perform all
procedures necessary to express an opinion.

Finally, with respect to internal control related to performance measures reported in FCC’s
Performance and Accountability Report, as of September 30, 2005, we obtained an
understanding of the design of significant internal controls relating to the existence and
completeness assertions, as required by OMB Bulletin No. 01-02. Our procedures were not
designed to provide assurance on internal control over reported performance measures, and,
accordingly, we do not provide an opinion on such controls. Moreover, other matters involving
internal control over reported performance measures may have been identified and reported had
we been able to perform all procedures necessary to express an opinion on the financial
statements of FCC as of and for the year ended September 30, 2005.

                            ********************************

MATERIAL WEAKNESSES


I.   Control Environment Changes

     During the fiscal year 2005 financial statement audit, the control environment changed to a
     less positive one, impacting the financial activities associated with the reporting
     components, the audit of FCC’s financial statements, and potentially compromising the
     independence of the Office of Inspector General (OIG).

     FCC has the overall responsibility for the financial accounting of its component entities,
     the Universal Service Fund (USF), the Telecommunications Relay Services Fund (TRS),
     and the North American Numbering Plan (NANP). In many instances, the component
     entities consult with FCC or obtain FCC’s written approval, concurrence, or direction
     before implementing critical accounting issues; wherein some of these issues may impact
     program policies. Our prior year recommendations for strengthening FCC’s oversight
     responsibilities, by clearly defining and establishing key lines of authority and


05-AUD-04-03         REPORT ON THE FEDERAL COMMUNICATIONS                                  Page 2
                    COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      INTERNAL CONTROL OVER FINANCIAL REPORTING


     responsibility for financial reporting, and formally communicating those official
     responsibilities throughout the FCC and directly with the administrators of the component
     entities, were not fully implemented, despite the January 2005 issuance of an order
     amending Commission rules to clarify the responsibilities of the Managing Director with
     respect to financial management matters.

     This order, FCC 04-163, was intended to provide the Managing Director with the
     responsibility and authority for accounting for all financial transactions of the Commission
     and preparation of the financial statements, codifying Commission practice. The order
     authorizes the Managing Director to determine the programs and accounts included in the
     Commission’s financial statements after seeking the opinion of the General Counsel, and
     delegates specific authority to the Managing Director to direct all organizations, funds, and
     accounts accounted for in the financial statements of the Commission to comply with all
     relevant and applicable Federal financial management and reporting statutes. The order
     was effective immediately upon publication in the Federal Register. However, despite the
     formally issued order clarifying the Managing Director’s financial management role, the
     control environment changed becoming less effective and creating inefficient processes.

     Mid-fiscal year 2005 after the installation of a new head of the agency, an unofficial
     change in financial authority essentially nullified the January FCC order. Certain
     individuals presented themselves as representing the Chairman’s office for all externally-
     related financial activities, without the benefit of either being organizationally from the
     Chairman’s office, nor the benefit of formal communication delegating or authorizing this
     new financial management oversight role. Furthermore, the Managing Director was
     directed to obtain approval from the assumed representative and/or from the Office of the
     Chairman (OCM) for all financial-related activities and communications with external
     parties, including OMB. This requirement was in direct conflict with the order,
     unofficially eroding the stated responsibilities of the Managing Director, and undermining
     the auditors understanding of the FCC internal control environment. This has resulted in
     following conditions:

     o During the audit, multiple requests from numerous FCC parties, not typically associated
       with financial management, were made of the auditors to explain the purpose and intent
       of key audit requirements. The following are two examples of how this resulted in
       inefficient and ineffective use of audit resources and impacted the audit in general:

        • One topic included at least 3 separate meetings on the purpose for conducting
          interviews with senior management, including the Chairman, as part of the
          Statement of Auditing Standards (SAS) No 99. Consideration of Fraud in a
          Financial Statement Audit. The Chairman would not agree to participate in the
          SAS 99 meeting, as requested, and it was not clear if the individuals, ‘representing’
          the Chairman during those meetings communicated the purpose and/or intent of this
          common audit procedure. In addition, prior to meeting with the auditors, several




05-AUD-04-03         REPORT ON THE FEDERAL COMMUNICATIONS                                  Page 3
                    COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III            INDEPENDENT AUDITOR’S REPORT ON
                       INTERNAL CONTROL OVER FINANCIAL REPORTING


               senior managers informed us that they needed to obtain approval from the OCM
               first; this has not occurred in prior year audits.

        • Another topic requiring multiple meetings and other communications to satisfy the
          needs of various OCM ‘representatives’ was to discuss the purpose, expectations,
          and impact of who signs FCC’s management representation letter for the financial
          statement audit. During fiscal year 2005, our audit work concluded that the internal
          control environment especially that over the reporting components, had changed
          significantly, requiring the head of the agency to sign the management
          representation letter. The Chairman would not agree to sign the representations,
          and it was not clear if the individuals, ‘representing’ the Chairman during those
          communications shared the purpose and/or intent of this common audit requirement
          to the Chairman.

     o Although the participation of a delegated representative, openly authorized by the
       Chairman to act in this capacity, would normally strengthen communications between
       all parties during an audit, this was not the case. There was little two-way
       communication and on several occasions when the auditors and/or the Chief Financial
       Officer (CFO) asked for feedback on particular issues that were to have been
       communicated to the Chairman, the ‘representatives’ refused to share any information,
       including confirming whether the information had been communicated or not. This,
       combined with the number of different ‘Chairman representatives’ who were not
       explicitly delegated that authority created a level of uncertainty as to the
       appropriateness of auditor communication in general.

     o Furthermore, this new environment with its additional oversight process compounded
       routine financial activities. Two examples are described below:

        • The mandated issuance of quarterly financial statements to OMB was delayed one
          time during fiscal year 2005, because of a new requirement by the unofficial
          representative of OCM to review the statements prior to release. This new review
          step had not been planned for by the CFO’s office and took longer than expected.

        • Draft management comments to a preliminary draft auditor’s report on internal
          control were scheduled to be provided within a two-week period as previously
          agreed. However, these were delayed for more than two weeks beyond the initially
          agreed upon period. This delay was caused by a new requirement for the OCM to
          review the comments prior to sharing them with the auditors on a partially complete
          product. This was an unplanned step that would normally be conducted closer to
          the finalized report, rather than on a working draft that typically circulates between
          the CFO and auditors.

     o The new control environment extended beyond financial activities to the degree that it
       potentially compromised the independence of the Office of Inspector General during


05-AUD-04-03          REPORT ON THE FEDERAL COMMUNICATIONS                               Page 4
                     COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      INTERNAL CONTROL OVER FINANCIAL REPORTING


        the audit period. Rather than communicate with the Inspector General (IG) to obtain a
        comprehensive understanding of the office needs, requirements, and restrictions on
        personnel, the OCM directed the Managing Director to transfer FCC programmatic
        staff into the OIG without the IG’s approval and in one case without the IG’s
        knowledge. Neither the OCM nor Managing Director was cognizant of requirements in
        the Inspector General Act regarding independence. The transfers were reversed shortly
        after the IG communicated to the OCM that the agency is legislatively required to assist
        in maintaining the independence of the office.

     Two of the five standards for internal control as stated in the Government Accountability
     Office (GAO) Standards for Internal Control in the Federal Government are (a) control
     environment, and (b) information and communications:

     (a) “A positive control environment is the foundation for all other standards for internal
         control. It provides discipline and structure as well as the climate which influences the
         quality of internal control. ”One factor affecting the environment is the agency’s
         organizational structure. “It provides management’s framework for planning, directing,
         and controlling operations to achieve agency objectives. A good internal control
         environment requires that the agency’s organizational structure clearly define key areas
         of authority and responsibility and establish appropriate lines of reporting.”

     (b) The environment is also affected by the manner in which the agency delegates authority
         and responsibility throughout the organization. This delegation covers authority and
         responsibility for operating activities, reporting relationships, and authorization
         protocols.

     (c) Information should be recorded and communicated to management and others within
         the entity who need it and in a form and within a timeframe that enables them to carry
         out their internal control and other responsibilities.

     Recommendations:

     1. FCC Order 04-163 was intended to publicly clarify the office responsible for all of
        FCC’s financial activities, including those of the component entities. The Chairman, as
        the Chief Executive Officer of the FCC should assess the need and role of his office to
        participate in the day-to-day financial activities of the agency rather than the Managing
        Director, and determine if the order should be rescinded and replaced with one that fits
        the results of his assessment, clarifying any future confusion and strengthening the
        control environment by aligning the roles, functions with the appropriate activities.

     2. To clarify and strengthen Office of the Chairman-delegated roles, the Chairman should
        issue explicit and agency-wide (or publicly available) delegations of authority for
        individuals instructed, or asked to represent his office, even if that delegation is one of a
        temporary nature.



05-AUD-04-03         REPORT ON THE FEDERAL COMMUNICATIONS                                     Page 5
                    COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      INTERNAL CONTROL OVER FINANCIAL REPORTING



      3. Because financial reporting is mandated and must be complete at a time-definite,
         management should ensure that it meets all delivery timeframes external and internal to
         ensure effective and efficient use of agency resources, and to achieve more positive
         results.

      4. To protect the agency from compromising its requirement to support the independence
         of the Office of Inspector General, senior management, including OCM, should become
         acquainted with the Inspectors General Act, its purpose, and become more familiar with
         the Inspector General’s role and responsibilities to the agency, that is, if not already
         done so.

      Management Comment:

      Management concurs with the recommendations. While management does not agree with
      the description of all of the facts and findings, management agrees to assess the need to
      supervise the activities of the Office of Managing Director (OMD), ensure that delegations
      are appropriate, and that delivery timeframes are met. Management also agrees to support
      the independence of the Inspector General.


II.   Component Entities’ Financial Reporting Controls

      GAO Standards for Internal Control in the Federal Government state, “Internal controls
      activities help ensure that management’s directives are carried out. The control activities
      should be effective and efficient in accomplishing the agency’s control objectives.”
      Examples of control activities include proper execution of transactions and events, accurate
      and timely recording of transactions and events, and appropriate documentation of
      transactions and internal control. In addition, “Internal controls should generally be
      designed to assure that ongoing monitoring occurs in the course of normal operations. It is
      performed continually and is ingrained in the agency’s operations. It includes regular
      management and supervisory activities, comparison, reconciliation, and other actions
      people take in performing their duties.”

      OMB Bulletin No. 01-09, Form and Content of Agency Financial Statements, which was
      updated in OMB Circular No. A-136, Financial Reporting Requirements, states “When the
      reporting entities of which these components are a part, issue consolidated or consolidating
      statements that included such components, generally accepted accounting principles
      (GAAP) for Federal entities shall be applied to these components.”

      FCC relies heavily on its reporting component entities’ financial reporting controls and
      processes to obtain specific financial information on a monthly basis for external reporting
      and quarterly financial statement consolidating purposes. Our audit disclosed the following
      financial reporting weaknesses, which collectively resulted in material weakness:



05-AUD-04-03         REPORT ON THE FEDERAL COMMUNICATIONS                                  Page 6
                    COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT ON
                     INTERNAL CONTROL OVER FINANCIAL REPORTING



     A.   Control Over Budgetary Transactions

          FCC Order 03-232 required the administrators of USF and TRS to prepare financial
          statements consistent with generally accepted accounting principles for Federal
          entities and to account for the funds in accordance with United States Standard
          General Ledger (USSGL). This order became effective October 1, 2004. We
          identified the following two areas, policies and procedures, and recording activities,
          needing improvement:

     Policies and Procedures

       • Policies and procedures, that would provide consistency in treating different types of
         budgetary transactions, were either not complete or have not been finalized;

       • Appropriate control procedures were not in place to perform monthly reconciliation
         of budgetary and proprietary accounts and to ensure identified variances were
         investigated and corrected timely and prior to submission of the financial information
         to FCC for consolidation; and

       • Policies and procedures for following up on weaknesses noted in other reports, such
         as the SAS No. 70, Reports on the Processing of Transactions by Service
         Organizations, were not in place.

          Lack of policies and procedures for key activities could create confusion and
          misunderstanding resulting in transactions not being recorded promptly and properly,
          and subsequently affecting the reliability of financial information.

     Recommendation:

     5. Ensure that the financial policies and procedures are finalized and include, among
        others, monthly reconciliation of budgetary and proprietary accounts, consistent
        application of budgetary transactions, and follow-up procedures on weaknesses
        identified in reports issued by its service organizations.

     Management Comment:

     Management concurs with the recommendation. The FCC will continue to work with the
     administrator of the USF to ensure that policies and procedures are completed and finalized
     for: a) financial transactions used to account for budgetary transactions; b) performing
     monthly reconciliations of budgetary and proprietary accounts and to ensure identified
     variances are investigated and corrected timely, prior to submission of the financial
     information to the FCC for consolidation; and c) following up on weaknesses noted in audit
     reports.


05-AUD-04-03        REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 7
                   COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      INTERNAL CONTROL OVER FINANCIAL REPORTING



     Recording Activity

       • The posting model for posting budgetary and investment transactions were not
         consistent with the USSGL.

       • The component entities did not record year-end adjustments prepared by FCC which
         resulted in many auditing inquiries due to different beginning balances reported by
         the component entities and the prior year audited balances.

       • Multiple amounts for a single Filer ID in Pre-Petition Bankruptcy were maintained in
         the USF accounts receivable sub ledger. As a result, the sub-ledger balances do not
         represent the actual accounts receivable amounts on an aggregate basis for each filer
         ID.

       • The component entities did not record year-end adjustments prepared by FCC which
         resulted in many auditing inquiries due to different beginning balances reported by
         the component entities versus what should have been the same audited balances
         reported in the prior year.

       • Inconsistent timing in recording USF receivables increases the risk of duplication,
         thereby overstating the receivables balance. This practice results in additional steps at
         reporting time to identify and correct duplicate entries.

       • FCC prepared and identified all the adjusting entries posted to the TRS trial balance
         because the administrator did not have personnel with budgetary accounting
         experience.

       • The USF administrator does not maintain an accounts payable (AP) subsidiary ledger
         for USF transactions. As of June 30, 2005, the recorded AP balance in the financial
         statements totaled $ 52.1 million.

     Recommendations:

     6. Ensure the component entities’ full implementation of the USSGL posting model at the
        transaction level.

     7. Design the Pre-Petition Bankruptcy accounts receivable sub ledger to report the net
        receivable amount from each Filer ID.

     8. Finalize and consistently implement the FCC policies and procedures related to the
        reporting components’ financial reporting, compilation, and review process to include
        review procedures that will assess and assure data integrity, completeness, existence,
        quality and reliability of the financial data.


05-AUD-04-03         REPORT ON THE FEDERAL COMMUNICATIONS                                  Page 8
                    COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      INTERNAL CONTROL OVER FINANCIAL REPORTING



     9. Institute a methodology to record the correct receivable amount at the time of
        recognition instead of recording duplicate receivables and correcting the entry at a later
        time.

     10. Develop a subsidiary ledger for USF account payable details to support the reported
         balances.

     Management Comment:

     Management concurs with the recommendations. The FCC will work with component
     entities to ensure that revised procedures and processes and other recommendations listed
     above are properly implemented to improve recording activity.

     Recommendation:

     11. Require the administrator of TRS to obtain an accountant with related experience to
         take responsibility for TRS accounts and compile consolidating TRS financial data into
         GAAP financial statements.

     Management Comment:

     Management concurs with the recommendation. The FCC will work with component
     entities to address this recommendation to ensure the financial accounts and data are
     compiled in compliance with GAAP financial statements.

     B.   Universal Service Fund Commitments

          FCC management could not provide assurance on the accuracy and completeness of
          the fiscal year 2005 and 2004 combined statement of budgetary resources and the
          consolidated statement of financing due to inadequate internal control and incomplete
          verification of transactions related to the USF commitment letters. USF issues
          “commitment letters” to beneficiaries for two of its support mechanisms, initiating the
          accounting basis for recording budgetary obligations. The FCC was not able to apply
          adequate quality control reviews to ensure that obligation-related transactions were
          properly recorded and presented in the financial statements. The unaudited
          outstanding obligations related to commitment letters of $ 3.2 billion and $ 3.0 billion
          at September 30, 2005 and 2004 presented in the consolidated financial statements
          are material to the statements.

          During the fiscal year 2005 audit, our attempt to audit the commitment letter
          transactions and activity could not be completed due to many deficiencies identified
          with the documentation and schedules provided, including significant variances




05-AUD-04-03         REPORT ON THE FEDERAL COMMUNICATIONS                                  Page 9
                    COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT ON
                     INTERNAL CONTROL OVER FINANCIAL REPORTING


          between subsidiary and control balances. We were not able to apply audit procedures
          to the USF commitment transactions and balances for fiscal years 2005 and 2004.

     Recommendations:

     12. The USF administrator should establish written policies and procedures, and implement
         internal controls to ensure completeness, existence, and proper valuation of the
         commitment letter amounts.

     13. To support future [audit] representations, the FCC in coordination with USF
         administrator should verify and validate commitment letter balances, activity, and
         transactions as of September 30, 2005, no later than the second quarter of fiscal year
         2006 to determine if the balances are fairly materially stated in accordance with
         generally accepted accounting principles.

     14. Establish a cross-bureau and cross-entity task force to address the USF commitment
         and obligations issue. The task force should be similar in scope and approach as the
         Spectrum Auction Loan Servicing Activity task force that was used to address the
         material issues related to FCC spectrum auction loans.

     Management Comment:

     Management concurs with the recommendations. In July 2005, the FCC initiated a
     comprehensive review of the management, administration, and oversight of the USF. FCC
     is considering a range of options to address concerns raised by the GAO, the Inspector
     General, and others. In addition, management will consider additional steps to ensure that
     sufficient staff are working to address these issues.

     C.   Timeliness of Transaction Entry and Reconciliation

          The USF administrator did not consistently record financial transactions timely.
          Transactions are captured on spreadsheets and recorded monthly or quarterly as
          adjustments to the general ledger. Also, reconciliation of the general ledger balances
          to the subsidiary ledger was not performed timely and schedules provided for audit
          contained significant errors. For example:

          • The trial balance prepared for USF and provided to FCC for consolidation did not
            have the correct budgetary account balances. This resulted in FCC making
            adjustments to the data for use in consolidation. Aggregate adjustments made to
            the USF financial statement as of June 30, 2005 totaled approximately
            $ 994 million.




05-AUD-04-03        REPORT ON THE FEDERAL COMMUNICATIONS                                Page 10
                   COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT ON
                     INTERNAL CONTROL OVER FINANCIAL REPORTING


          • The USF revenue roll-forward schedules showed a difference of $ 81 million
            when compared to the financial statement balances, resulting in the revision of the
            supporting schedules.

          • Monthly Statement of Accounts sent to three carriers in June 2005 were incorrect.
            During the audit, we noted that the combined subsidiary ledger balances of the
            three carriers totaled $ 43 million, while the balances for each respective
            statement were zero.

     Recommendations:

     15. Implement procedures to ensure that the reporting components’ unadjusted balances are
         reconciled and supported with appropriate roll-forward analysis.

     16. Ensure that the reporting components received and understood the year-end adjusting
         entries which should be promptly recorded on their books.

     17. Improve quality control reviews of audit schedules to ensure material differences are
         identified and resolved timely.

     Management Comment:

     Management concurs with the recommendations. The FCC will work with the reporting
     components to ensure that the unadjusted balances are reconciled and supported with
     appropriate roll-forward analysis, that the reporting components received and understood
     the year-end adjusting entries and that such entries are properly recorded on their books of
     account, and to improve the quality control reviews of audit schedules to ensure material
     differences are identified and resolved in a timely manner. The FCC has made significant
     progress with the USF administrator over the past fiscal year concerning financial reporting
     capabilities. During fiscal year 2006, FCC will ensure that year-end adjusting entries are
     promptly recorded on the administrator’s books and will improve quality control review
     procedures over audit schedules. The FCC will continue its efforts to work with the
     administrator to improve its financial reporting capabilities, including timely recording of
     transactions and reconciliations between the general ledger and subsidiary ledgers.

     D.   Control Over USF Investment Transactions

          USF investment activities with several banks are recorded by the USF administrator
          via a journal entry based on the monthly bank report of the status of the investments.
          We found that the reports received from the bank do not receive adequate review
          prior to recording the transactions on the reports. Moreover, during the audit we were
          not provided with satisfactory explanation for the basis of the calculation of the
          discount portion on the investment. Also, although not material in amount, cash




05-AUD-04-03        REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 11
                   COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      INTERNAL CONTROL OVER FINANCIAL REPORTING


          balances were misclassified as investments in the interim financial statement
          presentation.

     Recommendations:

     18. Review the reasonableness and accuracy of the bank investment reports before
         recording them in the books and submitting the financial information to FCC.

     19. Modify existing template used for calculating unamortized discounts and premiums to
         ensure correctness of the calculations.

     20. Ensure all accounts are properly classified in the financial statements.

     Management Comment:

     Management concurs with the recommendations. The FCC will work with the USF
     administrator to: a) implement new procedures to re-calculate and validate the data
     presented in the individual bank statement reports before the data is recorded in the general
     ledger; b) ensure proper calculation of the unamortized discounts and premiums; and c)
     ensure proper classification of accounts in the financial statements.

     E.   Controls Over Compliance with Laws and Regulations

          The report on Evaluation of Federal Financial Requirement prepared by an
          independent accountant confirmed applicability of certain federal laws and
          regulations to USF relating to financial management and identified several non-
          compliances with such laws and regulations. The non-compliances consistent with
          the results of our audit require appropriate corrective actions.

     Recommendation:

     21. Implement appropriate corrective action plan to address the recommendations
         contained in the report.

     Management Comment:

     Management concurs with the recommendation. The FCC will work with the USF
     administrator over the next fiscal year to implement a timely corrective action plan to
     correct all non-compliance identified by the independent accountant.




05-AUD-04-03         REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 12
                    COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT ON
                     INTERNAL CONTROL OVER FINANCIAL REPORTING


III. Auction Transactions (Modified Repeat Condition)

     A.   Auction Revenue and Receivables

          FCC did not have a directive to address the flow of communication and
          documentation between Wireless Telecommunications Bureau (WTB) and the
          Financial Operations Center (FOC) when an auction transaction occurs. WTB is the
          primary source of substantial activities on auctions and licensing that trigger
          accounting transactions to be acted upon by the FOC. These activities include: loan
          information, licensing decisions, assignments and assumptions, results of an auction,
          winning bid, bidding credits, upfront payments, first and second down payments,
          negotiations, waivers, penalties, auction rules and regulations, and many more. When
          auctions and licensing activities have a financial impact, the operating procedure is
          for WTB to notify and provide FOC with the necessary information and supporting
          documentation

          Our audit identified instances where FCC did not record auction revenue originating
          from auction activities when a Prepared to Grant Public Notice and/or Grant Public
          Notice were issued by WTB. Further, we noted that no procedures have been issued
          by WTB to ensure that appropriate communication is forwarded to FOC when an
          auction event occurs. Although FOC has incorporated a written procedure whereby
          they ensure that all financial related activities of auction and licensing operations are
          timely recorded, it was not finalized until August 31, 2005.

          Also, license information from the original auction to subsequent re-auction is not
          maintained in a database or system that could facilitate tracking the details of each
          license. Rather the information is maintained in multiple spreadsheets and other
          supporting documents from various sources. Because auctioning licenses is a
          significant FCC operation, it is essential that information about the current status of a
          license and its history be easily accessible, providing bureaus and offices with the
          ability to update and share both financial and non-financial information.

     Recommendations:

     22. Issue a directive for WTB to ensure that all auction and licensing activities with
         financial impact are reported to FOC for timely and proper recording.

     23. Establish a database for WTB that is capable of being linked or interfaced with the core
         financial system to create an audit trail and record of delinquent winning bidders whose
         licenses were cancelled and then re-auctioned, including the amounts collected or
         received from the re-auction. Until this database becomes operational, FCC should
         create and maintain a comprehensive schedule that will provide this information. The
         comprehensive schedule should be periodically reviewed and reconciled.




05-AUD-04-03        REPORT ON THE FEDERAL COMMUNICATIONS                                   Page 13
                   COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT ON
                     INTERNAL CONTROL OVER FINANCIAL REPORTING


     Management Comment:

     Management concurs with the recommendations. The FCC will coordinate efforts between
     bureaus and offices that impact the auctions and licensing activities. FCC will review the
     recommendations, update any existing procedures to improve the flow of information, and,
     where feasible and possible, make modifications to systems.

     B.   Spreadsheet Subsidiary Ledger System (Modified Repeat Condition)

          In fiscal year 2005, FCC management decided not to implement the Revenue
          Accounting and Management Information System (RAMIS) Auction Accounting
          module because the module was deemed unusable and unreliable. The spreadsheet
          subsidiary ledger system therefore continued to support auctions activity in fiscal year
          2005 and will remain in place until a new core financial system is selected and
          implemented. These spreadsheets support the flow of transactions throughout the
          year.

          As noted in prior years, licensing events, such as the issuance of a Prepared to Grant
          Public Notice and/or Grant Public Notice, were not recorded in the general ledger
          when the accounting event occurred; instead, these accounting events were
          journalized at the end of every month.

          The inherent risks and limitations associated with a spreadsheet-based application are
          as follows:

          • Substantial manual intervention, thereby increasing the risks of human errors;
          • Formulas can be changed easily, affecting the flow through the rest of the
            spreadsheets;
          • Difficulty in tracking changes made to spreadsheets, including formula changes;
          • Difficulty in verifying change controls and that error correction changes were
            made;
          • Unique transactions are difficult to incorporate;
          • Difficulty in performing automatic checks and balances on the transactions in the
            spreadsheets;
          • Delay in recording transactions in the general ledger; and
          • Increase in the use of journal vouchers as a means of posting transactions to the
            general ledger.

     Recommendation:

     24. Implement change control procedures over spreadsheet applications to ensure that
         changes are reviewed and authorized, and formula cells are protected.




05-AUD-04-03        REPORT ON THE FEDERAL COMMUNICATIONS                                  Page 14
                   COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT ON
                     INTERNAL CONTROL OVER FINANCIAL REPORTING


     Management Comment:

     Management concurs with the recommendation. Since the auctions module was not
     implemented in fiscal year 2005, and has been rescheduled for fiscal year 2006, the FCC
     will continue to limit the spreadsheet access to a select few people and review the control
     procedures to limit the possibility of errors until the automated system is in place.


IV. FCC’s Contingency Plans (Modified Repeat Condition)

     Losing the capability to process and protect information maintained on FCC’s computer
     systems can significantly impact FCC’s ability to accomplish its mission. The purpose of
     service continuity controls is to ensure that, when unexpected events occur, critical
     operations continue without interruption or are promptly resumed.

     The Chief Information Officer and his staff are in the process of developing a
     comprehensive disaster recovery plan to support the recovery of information technology
     (IT) systems if an incident disrupts services. In addition, the FCC has developed
     significant elements of a full continuity of operations plan (COOP); however there are still
     some issues to be resolved such as: contingency plans for bureau and office major
     applications, and a contingency plan for certain FCC system assets.

     Recommendations:

     25. Complete the development and implementation of a comprehensive contingency plan
         that integrates the individual plans of FCC’s data centers, networks, and
         telecommunications facilities.

     26. Ensure that the COOP includes the recovery of FCC’s major applications in accordance
         with recovery times deemed critical to mission and operations of the bureaus and
         offices.

     27. Develop a contingency plan for certain FCC system assets.

     Management Comment:

     Management concurs with the recommendations.             The FCC has developed and
     implemented agency-wide continuity of operations plans and procedures. Based on the
     experience of Hurricane Katrina and other natural disasters, as well as the lessons learned
     from training exercises during fiscal year 2005, the FCC will revise and update its
     emergency response procedures, including those pertaining to its COOP.




05-AUD-04-03        REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 15
                   COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      INTERNAL CONTROL OVER FINANCIAL REPORTING


REPORTABLE CONDITIONS

V.   Financial Reporting (Repeat Condition)

     FCC’s financial reporting process continues to improve when compared with prior years.
     However, in fiscal year 2005, the following conditions continue to exist:

     A.   Integrated Financial Management Systems (Repeat Condition)

          OMB Circular No. A-127, Financial Management Systems, requires that each agency
          establish and maintain a single integrated financial management system. Without a
          single integrated financial management system to ensure timely and accurate financial
          data, poor policy decisions may occur due to inaccurate or untimely information.
          Managers are less likely to be able to report accurately to the President, Congress, and
          the public on Government operations in a timely manner. In addition, scarce
          resources are more likely to be directed toward the collection of information rather
          than to delivery of the intended programs.

          • FCC’s Core Financial System
            FCC utilizes Federal Financial System (FFS) as its general ledger and core
            financial management system.         Software applications such as property
            management system, license databases, and various spreadsheets [for
            International Telecommunication Services (ITS) transactions and auction
            transactions] were independent systems, not integrated with the FFS.

               In addition, FCC’s consolidated financial statements were compiled and prepared
               from four separate core financial systems administered by four separate reporting
               components. At financial statement preparation time, FCC goes through the
               exercise of compiling financial data in separate spreadsheets in a complex and
               time-consuming process. The financial data included in the spreadsheets is
               consolidated for financial statement preparation.

          • Contractor Loan Servicing Database
            The design of FCC’s contractor loan servicing database did not include certain
            functional requirements for direct loan systems as required by the Joint Financial
            Management Improvement Program (JFMIP). Therefore, the loan-servicing
            database is not fully JFMIP compliant.

          • USF Standard General Ledger (Modified Repeat Condition)
            During fiscal year 2005, USF is accounted for with a non government general
            ledger system. Our audit disclosed that the account numbers did not fully comply
            with the USSGL accounts structure. During the compilation of the interim
            financial statements as of June 30, 2005, FCC had to map USF accounts numbers




05-AUD-04-03         REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 16
                    COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      INTERNAL CONTROL OVER FINANCIAL REPORTING


               to specified USSGL accounts. Further the investment activities are not integrated
               into the general ledger system. Entries are posted manually every month.

     Recommendation:

     28. Ensure the integration of the overall financial management systems. These integrations
         should include all receivable transactions to be recorded in RAMIS, the fee billing
         system, the auction subsidiary systems, and various stand-alone systems such as the
         property management system, databases, spreadsheets and reporting components’
         financial reporting.

     Management Comment:

     Management concurs with the recommendations. The FCC Core Financial System
     Requirements Analysis was completed in December 2004. The analysis reflected that the
     FCC would be best served with a new enterprise system. The FCC has begun the
     procurement cycle for a new core financial system and plans to award the contract in 2006
     and “go live” with the new system in fiscal year 2007 January (pending funding
     availability). The anticipated system would include all the applicable subsidiary systems,
     in addition to the components.

     Recommendation:

     29. Authorize the loan service provider to implement the necessary functional requirements
         to meet JFMIP’s loan servicing system standards.

     Management Comment:

     Management concurs with the recommendation. The FCC continues to work with the loan
     service provider to enhance their system to incorporate any applicable JFMIP standards
     which would be applicable to the FCC and cost efficient.

     Recommendation:

     30. Ensure that the USF general ledger system is in full compliance with the Financial
         Management System requirements and the USSGL.

     Management Comment:

     Management concurs with the recommendation. The FCC continues to work with the
     reporting components on the implementation of USSGL. Currently the systems utilized by
     all the components are not JFMIP compliant, however, they have modified their coding
     structure to incorporate USSGL. On a quarterly basis, the FCC discusses with the entities



05-AUD-04-03         REPORT ON THE FEDERAL COMMUNICATIONS                               Page 17
                    COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT ON
                     INTERNAL CONTROL OVER FINANCIAL REPORTING


     any corrective action necessary to further implement USSGL until compliant systems are
     implemented.

     B.   Federal Financial System Setup and Posting Model Definitions (Repeat
          Condition)

          In fiscal year 2005, FCC continued to use FFS system setup and posting model
          definitions that were not completely updated. While the incorrect posting models
          were now limited to auction and ITS transactions, the outdated definitions continued
          to require corrections to the transaction postings through monthly journal vouchers.
          The incorrect posting model definitions resulted in non-compliance with the
          transaction posting models consistent with USSGL guidance and policies when
          recording and classifying some transactions. This system deficiency may continue to
          impair the quality and reliability of the auction financial management information.

     Recommendation:

     31. Perform a periodic or quarterly update of FFS system setup and posting model
         definitions to ensure timely correction of outdated models and compliance with the
         latest transaction posting models consistent with USSGL guidance and policies for
         recording and classifying transactions.

     Management Comment:

     Management concurs with the recommendation. The FCC completed a review for fiscal
     year 2005 and has finalized the USSGL changes which will be made during the first quarter
     of fiscal year 2006. Reviews will be performed yearly to ensure compliance with USSGL.

     C.   Financial Statement and Federal Agencies’ Centralized Trial-Balance System II
          (FACTS II) Differences (Repeat Condition)

          The FACTS II is a computer program for agencies to submit mostly budgetary
          information required for the Report on Budget Execution and Budgetary Resources,
          the Year-end Closing Statement, and much of the data that will appear in the prior
          year column of the Program and Financing Schedule of the President’s budget.

          In fiscal year 2005, as in prior years, our audit identified significant differences
          between third quarter FACTS II account balances and the balances reported on the
          FCC’s third quarter financial statements.

          GAO’s Standards for Internal Control in the Federal Government states that,
          “Internal control should provide reasonable assurance that the objectives of the
          agency are being achieved in the reliability of financial reporting, including reports




05-AUD-04-03        REPORT ON THE FEDERAL COMMUNICATIONS                                Page 18
                   COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT ON
                     INTERNAL CONTROL OVER FINANCIAL REPORTING


          on budget execution, financial statements and other reports for internal or external
          use.”

     Recommendation:

     32. Ensure timely communications of adjusting entries and reconciliations between all
         groups within FCC with financial reporting responsibilities.

     Management Comment:

     Management concurs with the recommendation. Procedures will be modified to ensure that
     reconciliations between the groups are performed.


VI. Cost Accounting (Modified Repeat Condition)

     A.   Minimum Level of Cost Accounting (Modified Repeat Condition)

          FCC has defined its responsibility segments for financial reporting purposes, but has
          not determined the outputs associated with its responsibility segments, nor has it
          calculated the related output costs for its responsibility segments as part of its cost
          allocation methodology. The Budget Execution and Management System (BEAMS),
          the system FCC is currently using for cost accounting, does not provide the minimum
          level of cost reporting identified in Statement of Federal Financial Accounting
          Standards (SFFAS) No. 4, Managerial Cost Accounting Concepts and Standards for
          the Federal Government.

          SFFAS No. 4 requires a minimum level for cost accounting to provide basic
          information to accomplish the many objectives associated with planning, decision-
          making, and reporting. This minimum level includes, among others, measuring full
          cost of outputs, providing information for performance measurement, and providing
          useful information, and accommodating any or management’s special cost
          information needs that may arise due to unusual or special situations or
          circumstances.

     Recommendations:

     33. Enhance BEAMS functionality to satisfy the minimum level of cost accounting
         required in a managerial cost accounting system by SFFAS No. 4.

     34. Define outputs produced by the responsibility segments and incorporate the definition
         into the Statement of Net Costs allocation methodology.




05-AUD-04-03        REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 19
                   COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      INTERNAL CONTROL OVER FINANCIAL REPORTING


     Management Comment:

     Management concurs with the recommendations. FCC has defined its responsibility
     segments for financial reporting purposes and accumulates costs by responsibility segment.
     In addition the FCC defined and accumulates outputs, assigns costs to outputs (both
     directly and indirectly) based on its definition of an output, and calculates the cost per unit
     of each type of output for items defined as units, as part of its cost allocation methodology.
     Finally, the performance measures information is directly associated with program cost of
     each responsibility segment. Management continues to refine both the process and the
     agency’s definition of an output.

     B.   Matching Revenue to Cost (Repeat Condition)

          FCC continued to allocate earned revenues in the same proportion as allocated costs
          instead of matching related revenues to costs. SFFAS No.7, Accounting for Revenue
          and Other Financing Sources and Concepts for Reconciling Budgetary and Financial
          Accounting, states, “Related revenue should be matched with the cost.”

     Recommendation:

     35. Review the propriety of the costing methodology and the matching of earned revenue
         against costs. Include a review of different program activities that generate revenue
         and apply the revenue to those activities that produce the earned revenue.

     Management Comment:

     Management concurs with the recommendation. The FCC is aware of the requirement to
     assign revenues to their related costs and will address this issue as a possible enhancement
     to the cost accounting system. The FCC will assess the priority of this requirement in
     relation to other systems requirements in fiscal year 2006 to determine future actions.


VII. Reconciliation of Intragovernmental Transaction Balances

     FCC is required to reconcile transactions and balances with other Federal entities every
     quarter in accordance with OMB Bulletin No. 01-09, Form and Content of Agency
     Financial Statements and the Department of the Treasury’s Federal Intragovernmental
     Transaction Accounting and Policies Guide. Although OMB guidance did not specify the
     dollar threshold for performing reconciliation, FCC reconciles only the intragovernmental
     transactions and balances using the Treasury materiality amount of $ 10 million. As a
     result, using this threshold eliminated most of the transactions that would have been within
     FCC’s materiality and scope for reconciliation.




05-AUD-04-03         REPORT ON THE FEDERAL COMMUNICATIONS                                   Page 20
                    COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT ON
                     INTERNAL CONTROL OVER FINANCIAL REPORTING


     Recommendation:

     36. Perform quarterly reconciliation of intragovernmental transactions and balances with
         other Federal agencies. The reconciliation process should be completed quarterly and
         include procedures to resolve any differences identified in a timely manner. The
         procedure should also include confirming amounts with trading partners and meeting
         trading partners to resolve differences identified.

     Management Comment:

     Management concurs with the recommendation. The majority of the intragovernmental
     transactions are balanced and reconciled with other Federal agencies. However, there
     remain some minor issues to resolve between other Federal agencies required to report who
     do not provide adequate, timely or accurate information. FCC will work with the
     Department of the Treasury and other Federal agencies to address and resolve these issues.


VIII. Payroll and Personnel Activities (Modified Repeat Condition)

     A.   Payroll Activities

          Weaknesses identified in the prior year audits on payroll activities have not been
          corrected.

          • Leave error reports received from the National Finance Center (NFC), showing
            differences between NFC’s leave record for each employee and FCC’s leave and
            earnings (LES) statements were not reconciled. Although management performed
            several audits reconciling the LES reports and NFC system, our audit continues to
            identify multiple instances where significant differences were not reconciled for
            all categories of leave balances such as, annual leave, sick leave, compensatory
            time, and credit hour categories.

          • Invalid project codes identified in FFS remain uncorrected for a long period of
            time. The existing procedures are to facilitate payment of salaries and wages
            rather than correct invalid project codes. Financial Systems Operation Group
            (FSOG) generates an invalid project code report from FFS and posts corrections
            to a single project code, E0200, regardless of what the employee should have
            charged time against.

     Recommendation:

     37. Increase the NFC and FCC system reconciliation procedures to include all leave
         categories.




05-AUD-04-03        REPORT ON THE FEDERAL COMMUNICATIONS                               Page 21
                   COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT ON
                     INTERNAL CONTROL OVER FINANCIAL REPORTING


     Management Comment:

     Management concurs with the recommendation. NFC does not provide the functionality to
     provide all leave categories on the Leave and Error Report. Employees are reminded
     periodically to review their leave and earnings statement each pay period to ensure that the
     leave reported on their statement matches their Time and Attendance (T&A) Report.
     Training has been given on conducting T&A audits and the bureaus and offices are
     responsible for reviewing and reconciling any discrepancies. In addition, the error reports
     and progress by bureaus and offices is often a discussion item at the monthly Assistant
     Bureau Chief for Management (ABC) meetings that are hosted by the Human Resource
     Director. The FCC will continue to work with the appropriate staff to ensure reconciliation
     is completed in a timely manner.

     Recommendation:

     38. Ensure that timekeepers reconcile time and attendance report errors generated from the
         FCC’s desktop payroll reconciliation system.

     Management Comment:

     Management concurs with the recommendation. The FCC will continue to work with
     appropriate staff to ensure the Leave and Error Report is reconciled. This bi-weekly report
     is shared with each bureau and office ABC for appropriate action. Each bureau and office
     has received training on conducting T&A audits and they are responsible for reviewing and
     reconciling any discrepancies. In addition, Human Resource Management (HRM) Payroll
     Specialists are continuing to work with timekeepers to resolve discrepancies each pay
     period.

     Timekeepers, employees and supervisors are aware of the discrepancies between leave
     balances on the Earnings and Leave Statement (ELS) and the timecards. Due to
     timekeepers making corrections and NFC not being able to process all corrections within
     the same pay period, there will continue to be a number of leave discrepancies on the
     report.

     Notices are also sent out periodically to timekeepers, employees and supervisors of their
     responsibility of reviewing the accuracy of timecards. HRM Payroll and Benefits Service
     Center has contacted the NFC service office to discuss how they can better ensure that the
     T&A corrections are processed timely.

     Recommendation:

     39. Enhance the LES system capabilities to reject incorrect project codes from being
         entered in the system in the first place.




05-AUD-04-03        REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 22
                   COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT ON
                     INTERNAL CONTROL OVER FINANCIAL REPORTING


     Management Comment:

     Management concurs with the recommendation. The NFC LES system does not reject
     incorrect project codes. Project codes are entered in the Time and Attendance System. In
     fiscal year 2006, NFC will roll out StarWeb 5.0, which will allow timekeepers to enter
     valid project codes only; invalid project codes will be rejected. FCC plans to use StarWeb
     5.0 when available in 2006.

     Recommendations:

     40. Issue guidance to establish timeframes for employees to correct invalid project code
         errors.

     41. Provide FCC contact person at NFC a listing of uncorrected project codes monthly.

     Management Comment:

     Management concurs with the recommendations. The FCC negotiated with NFC to
     have NFC correct invalid project codes; however, Hurricane Katrina delayed the correction
     of the codes. Consequently, NFC's priorities have shifted, to the restoration of basic
     services, so the project codes were not corrected, and no timeframe for correction has been
     provided for the future.

     Timekeepers have been notified to stress the need for accurate coding and timely
     correction of errors. FCC will continue to work with the bureaus and offices to ensure
     invalid project codes are corrected on a timely basis.

     B.   Personnel Activities

          Several Official Personnel Folders (OPF) examined did not contain certain personnel
          documents that should have been included, or had outdated documents in the folder.

     Recommendation:

     42. Ensure documentation related to personnel actions or employee benefits are promptly
         updated and filed in the OPF.

     Management Comment:

     Management concurs with the recommendation. The FCC recognizes the importance of
     accurate record keeping and this will be reinforced with staff responsible for handling and
     filing these forms so the information can be filed in a timely and accurate manner.




05-AUD-04-03        REPORT ON THE FEDERAL COMMUNICATIONS                                Page 23
                   COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      INTERNAL CONTROL OVER FINANCIAL REPORTING


     In addition, Office of Personnel Management (OPM) is strongly encouraging agencies to
     move away from paper OPFs and paper personnel documents. The time intensive nature of
     paper filing, coupled with the ongoing issue experienced by all agencies to have accurate
     paper records has resulted in OPM initiating and endorsing the sole use of electronic OPFs
     and electronic personnel documentation. OPM’s system, Enterprise Human Resources
     Integration (EHRI), will replace the current OPF with an electronic employee record for all
     Executive Branch employees, resulting in a comprehensive electronic personnel data
     repository covering the entire life cycle of Federal employment.

     FCC requested funding for EHRI in the fiscal year 2006 and 2007 budgets. We were
     unsuccessful in fiscal year 2006 to get the funding. We believe the ideal recommended
     action should be the implementation of EHRI and the subsequent electronic OPF.

        • Network accounts of separated employees were not disabled on a timely basis. Our
          examination of the separated employee’s report showing dates when their
          respective network accounts were disabled indicate that it took between two to
          seven weeks to complete disabling the accounts of six separated employees.

     Recommendation:

     43. Implement procedures to ensure that network accounts of separating employees are
         terminated at the effective date of separation.

     Management Comment:

     Management concurs with the recommendation. The FCC has processes in place that
     initiate actions to be taken upon notification of personnel departure when the “SignOut”
     group is used in a timely manner. Minor differences in the timely use of the “SignOut”
     group between the different bureaus and offices contribute to delays in disabling/removing
     accounts. The FCC will reinforce the proper use of the “SignOut” group through current
     user security awareness and training mediums being used by the FCC.


IX. Debt Collection Improvement Act (Repeat Condition)

     The Debt Collection Improvement Act of 1996 (DCIA) requires agencies to: (1) notify the
     Department of the Treasury of all debt delinquent by more than 180 days for offset, and (2)
     refer to the Department of the Treasury, with some exclusions, all debts delinquent more
     than 180 days for cross-servicing debt collection.

     Our review of the Treasury Report on Receivables (TROR) as of June 30, 2005, disclosed
     that no amounts of administrative receivables had been referred to Treasury for offset, and
     only $ 15.8 million of eligible administrative receivables out of a total of $ 74.5 million had




05-AUD-04-03         REPORT ON THE FEDERAL COMMUNICATIONS                                   Page 24
                    COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT ON
                     INTERNAL CONTROL OVER FINANCIAL REPORTING


     been referred for cross-servicing. FCC’s condition of limited referrals for cross servicing
     has been noted in prior year audit reports and continues to exist.

     Our audit also noted that management had not implemented controls to ensure that debts
     that were delinquent were assessed interest, penalties, or administrative fees as allowed by
     the DCIA and FCC’s rules, 47 CFR Part 1.1940 Interest, Penalties, Administrative Costs
     and Other Sanctions Assessment.

     Further, existing controls did not detect a difference of $ 33 million between the amount
     reported as ending balance of $ 1.412 billion on the TROR and the summary supporting
     schedule of $ 1.378 billion for the quarter ending as of June 30, 2005. This error was only
     identified as a result of our audit.

     Recommendations:

     44. Refer all eligible delinquent debt more than 180 days old to the Department of the
         Treasury for offset or timely cross servicing.

     45. Perform a review of the delinquency debt letter procedures to ensure that all delinquent
         debtors receive dunning letters and interest, penalties, and administrative fees are
         assessed in conjunction with the submission of the letters to the debtors.

     46. Strengthen quality controls surrounding preparation and submission of reports to
         external government agencies, including independent review and reconciliation.

     Management Comment:

     Management concurs with the recommendations. The FCC will revise and update its
     internal policies and procedures (including its quality control procedures) to ensure all
     eligible delinquent debt more than 180 days old is referred to the Department of the
     Treasury in a timely manner. During fiscal year 2006, the FCC plans to formulate a Debt
     Collection Policy and Procedures manual which will consolidate the requirements under
     the Debt Collection Improvement Act of 1996 for all debt at the FCC. Also, in the review
     of a new automated financial accounting system special attention will be given to ensure
     system capabilities are present to comply with the requirements of DCIA.


X.   Electronic Data Processing (EDP) Controls (Modified Repeat Condition)

     A.   OMB Circular No. A-130 Requirement for a Comprehensive Security Plan
          (Modified Repeat Condition)

          OMB Circular No. A-130, Management of Federal Information Resources, Appendix
          III, Security of Federal Automated Information Resources, as revised in



05-AUD-04-03        REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 25
                   COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      INTERNAL CONTROL OVER FINANCIAL REPORTING


          November 2000, established a minimum set of controls for Federal agencies,
          including risk assessments, assigning responsibility for security, security planning,
          periodic review of security controls, and management authorization of systems to
          process information.

          Deficiencies in security controls that significantly impact FCC’s ability to protect its
          sensitive or critical resources include:

          • FCC directive 1131.1 “Information Security Manual” has expired. FCC has not
            issued a new directive to replace the expired information security directive;

          • FCC has not determined whether the contractor loan servicing database is a major
            application. Given FCC identified RAMIS and the loan servicing spreadsheets as
            major applications, it can be reasonably assumed that the contractor loan servicing
            database which replaced the other processes should similarly be considered as a
            major application now that it has become the loan servicing system of record;

          • FCC has not established policies and procedures to ensure that all sensitive data to
            and from its contractors are protected; remains private and that critical business
            transactions remain trusted and secure;

          • We noted that one of FCC’s major financial applications had control weaknesses
            associated with the enforcement of the “principle of least privilege”, which
            allowed some users inappropriate access to “override” privileges;

          • FCC has not enforced a program for the periodic recertification of users’ access to
            its major applications; and

          • FCC’s re-certification of the contractor loan servicing system was incomplete and
            did not uncover certain weaknesses that the contractor knew about.

     Recommendation:

     47. Issue a new directive to replace the expired information security directive 1131.1

     Management Comment:

     Management concurs with the recommendation. The FCC has generated a document and
     changes are being incorporated into the Information Security Manual. Once approved, by
     external parties and returned to FCC, the document will be re-routed to management for
     review and approval. The expected completion date is by the close of the first quarter
     fiscal year 2006.




05-AUD-04-03         REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 26
                    COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      INTERNAL CONTROL OVER FINANCIAL REPORTING


     Recommendation:

     48. Make a determination on whether the contractor loan servicing system application
         should be a major application given that FCC identified RAMIS and the loan servicing
         spread sheets as major applications.

     Management Comment:

     Management concurs with the recommendation. The FCC Computer Security Officer
     (CSO) assists FCC system owners and management in classifying major applications based
     on OMB policies and National Institute of Standards and Technology (NIST) standards.
     We noted that the loan servicing system became a system of record in fiscal year 2004 and
     has been slated for a review of its status to determine its status as either a minor or major
     application. In addition, during fiscal year 2005, NIST provided additional guidance in
     evaluating and categorizing Federal systems. Based on the new guidance, the CSO has
     scheduled a review in fiscal year 2006 of the classification of the loan servicing system
     along with other FCC systems.

     Recommendation:

     49. Ensure that transmission of all sensitive data to and from FCC’s contractors and
         business partners is protected and encrypted.

     Management Comment:

     Management concurs with the recommendation. All loan data and other financial
     management information should be encrypted during transmission. New encryption
     software has been purchased by the FCC and is currently being tested. When testing is
     completed, the new encryption software will be distributed to the loan service provider for
     implementation in the first quarter of fiscal year 2006.

     Recommendation:

     50. Ensure that the “principle of least privilege” is adequately enforced across all major
         applications and general support systems.

     Management Comment:

     Management concurs with the recommendation. Recertification will be accomplished in
     fiscal year 2006. This effort will concentrate on updating user files with proper access
     approval forms and related access documentation.




05-AUD-04-03         REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 27
                    COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT ON
                     INTERNAL CONTROL OVER FINANCIAL REPORTING


     Recommendation:

     51. Ensure that periodic recertification of users’ access to its major applications is
         adequately enforced and operating effectively to ensure the “principle of least
         privilege” is in place and that incompatible duties are properly segregated.

     Management Comment:

     Management concurs with the recommendation. During fiscal year 2006, the FCC will be
     re-certifying FFS user access. User role and access needs will be reviewed and modified as
     needed during this re-certification process, and re-evaluating User ID Groups for
     modification and/or deletion.

     Recommendation:

     52. Ensure that the recertification process for all systems (including contractors) is
         thorough and complete.

     Management Comment:

     Management concurs with the recommendation. The FCC will ensure that all systems will
     be included in the recertification process.

     B.   RAMIS Application

          FCC’s OIG engaged a firm to review the RAMIS application’s EDP controls. The
          report identified several weaknesses in internal EDP controls that collectively are
          considered a reportable condition. The weaknesses are explained in more detail in a
          separate report dated November 24, 2003, and titled, Report on Audit of the Revenue
          Accounting and Management Information System (RAMIS) released by the OIG.
          FCC has closed 19 out of 22 weaknesses identified in the report.

     Recommendation:

     53. Complete the implementation of recommendations made in the report on RAMIS.

     Management Comment:

     Management concurs with the recommendation. The FCC continues to implement the
     recommendation. Efforts are ongoing to complete the 3 remaining recommendations.




05-AUD-04-03        REPORT ON THE FEDERAL COMMUNICATIONS                               Page 28
                   COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT ON
                     INTERNAL CONTROL OVER FINANCIAL REPORTING


     C.   Security Training and Education (Modified Repeat Condition)

          For our fiscal year 2005 audit of FCC, we were not provided with a total number of
          individuals who have signed the Rules of Behavior Tracking Sheet. Signatures
          document that the FCC employee has read and agrees to follow the rules for
          appropriate use of FCC network system.

          We also obtained a tracking sheet for key IT staff and the type and date of the
          security training they received. This sheet shows that many of the staff received
          specialized training to assist them in their job task. However, there are still many
          employees who have not received training to support their job’s roles and
          responsibilities.

     Recommendations:

     54. Require that upon an acceptance of an FCC position, the new employee receive a
         packet with IT security training courses and dates, and a copy of FCC’s Rules of
         Behavior.

     55. Ensure and require that on the first day of work each employee reads and signs the
         Rules of Behavior as part of the orientation process.

     56. Require each employee to accomplish a certain amount of security training per year to
         continue in his or her position.

     Management Comment:

     Management concurs with the recommendations. FCC’s CSO currently provides the FCC
     Rules of Behavior during the new employee computer security orientation briefings and the
     other security related events. The CSO continues to obtain signed forms during these
     sessions. The CSO is working with ITC staff to include the Rules of Behavior Form as part
     of the new employee orientation package and emphasize the FCC requirement for signing
     the form. The Computer Security Program (CSP) has announced to the Key IT Staff the
     availability of online specialized training related to specific FCC position roles and
     responsibilities. CSP is tracking the completion of online courses by the Key IT Staff.
     CSO is in the process of developing a specialized newsletter geared toward the continued
     security development of Key IT Staff. Tracking both issues are an ongoing effort by CSP
     staff.

     D.   Employee Duties and Position Risk Designation (Modified Repeat Condition)

          FCC has not provided the Personnel and Security Suitability Manual for the fiscal
          year 2005 audit. Although an extension was requested to have the manual approved
          for our review, no documentation was provided during audit field work. FCC has



05-AUD-04-03        REPORT ON THE FEDERAL COMMUNICATIONS                              Page 29
                   COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      INTERNAL CONTROL OVER FINANCIAL REPORTING


          also determined that individual position reviews will only be done if funds are
          available to devote resources to the task. FCC is not in compliance with OMB
          Circular No. A-130, which requires the screening of individuals who are authorized to
          bypass significant technical and operational security controls of the system
          commensurate with the risk and magnitude of harm they could cause.

     Recommendations:

     57. Review and approve the Personnel and Security Suitability Manual.

     58. Prioritize individual position reviews and make the necessary funds available to
         perform the task.

     Management Comment:

     Management concurs with the recommendations. Additional external coordination was
     required for the Personnel Security Manual (PSM). FCC completed coordination of the
     PSM for personnel security clearance concerns. The PSM draft is under a final internal
     review and will be forwarded to management for review and approval.

     E.   OMB Circular No A-130 Requirements for USF (Modified Repeat Condition)

          USF administrator has not certified and accredited its major financial applications and
          general support systems to ensure that controls planned and placed in operation are
          operating as intended in accordance with OMB Circular No. A-130.

     Recommendation:

     59. USF administrator should complete the certification and accreditation of its major
         applications and general support systems.

     Management Comment:

     Management concurs with the recommendations. The FCC will continue to work with the
     USF administrator to ensure that it completes the certification and accreditation of its major
     applications and general support systems in accordance with OMB Circular No A-130.

     F.   USF Password Controls (Modified Repeat Condition)

          The USF administrator contracts its data entry services to an outside company
          (contractor) to support its service provider. The contractor users are granted access to
          the service provider’s internal website. The service provider’s security administrator
          sets up the contractor employee’s user ID and password. The passwords for the
          contractor users are defined by the service provider and do not have expiration date.



05-AUD-04-03         REPORT ON THE FEDERAL COMMUNICATIONS                                  Page 30
                    COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT ON
                     INTERNAL CONTROL OVER FINANCIAL REPORTING



          The security provided by a password depends on its composition, its length, and its
          protection from disclosure and substitution. The risk associated with an undetected
          compromise of a password can be minimized by frequent change. If a password has
          been compromised and if a new password is created that is totally independent of the
          old password, then the continued risk associated with the old password is reduced to
          zero. Thus, passwords should be changed on a periodic basis and must be changed
          whenever a compromise is suspected or confirmed.

     Recommendation:

     60. Strengthen password controls in accordance with USF administrator’s password policy.

     Management Comment:

     Management concurs with the recommendations. The FCC will work with the USF
     administrator to ensure that password controls are strengthened to comply with USF
     administrator’s password policies.


XI. Federal Manager’s Financial Integrity Act (31 U.S.C. 3512) Compliance and

     As required by OMB Bulletin No. 01-02, we compared the material weaknesses and
     material non-conformances in the FMFIA report included in FCC’s fiscal year 2005
     Performance and Accountability Report (PAR) to our report on internal control dated
     November 1, 2005. Material weaknesses relating to the control environment and USF
     commitment letters were not disclosed in the FMFIA report.

     We do not believe that failure to report this material weakness constitutes a separate
     reportable condition or material weakness because different criteria are used in determining
     material weaknesses for both reports, and management has reported some of the material
     weaknesses. However, FCC did not take timely and effective actions to correct material
     internal control deficiencies identified in prior years’ Independent Auditor’s Report on
     Internal Control. Section IV of the OMB Circular No. A-123, Management Accountability
     and Control (Revised June 21, 1995), states, “…management has a responsibility to
     complete action, in a timely manner, on audit recommendations on which agreement with
     the IG has been reached.”

     Management Comment:

     Management submitted its draft PAR on October 21, 2005. The PAR included updates to
     material weaknesses and reportable conditions identified in prior year FMFIA reports.
     Because the complete draft auditor’s internal control report was not received prior to
     October 21, 2005, any new material weaknesses or reportable conditions could not be



05-AUD-04-03        REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 31
                   COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      INTERNAL CONTROL OVER FINANCIAL REPORTING


     included in the fiscal year 2005 PAR. Those new findings will be incorporated in next
     year’s FMFIA input.


STATUS OF PRIOR YEAR COMMENTS

As required by Government Auditing Standards and OMB Bulletin No. 01-02, as amended, we
have reviewed the status of FCC’s corrective actions with respect to the findings and
recommendations from the previous year’s report on internal controls. For those items not
addressed in various sections of our Independent Auditor’s Report on Internal Control,
summarized above, the following discusses the current status of resolutions for matters raised:

• Condition – Cost Logic – In fiscal year 2004, FCC implemented BEAMS to allocate cost
  and revenue to the respective goals reported on the Consolidated Statement of Net Cost. We
  identified that the new cost system’s allocation logic for costs recorded in USSGL 6310 and
  USSGL 6720, amounting to $ 343 million and $ 3 million, respectively were incorrect.

   In fiscal year 2005, FCC corrected the program allocation logic impacting the error identified
   in prior year audit. Our review of the allocation entries as of June 30, 2005 showed that
   USSGL 6310 and 6720 were appropriately no longer allocated. Therefore we have removed
   this reportable condition in fiscal year 2005.

• Condition – Collateral for Deposits Held Outside of Treasury – In fiscal year 2004,
  FCC’s component entities did not have contracts with financial institutions that require
  collateral when funds are temporarily placed on deposit account. In fiscal year 2005, the
  USF administrator entered into a security agreement with one of its five financial institutions
  (the largest in terms of cash and investments) requiring the financial institution to
  collateralize deposits in excess of the $ 100,000 guaranteed by the Federal Insurance Deposit
  Fund. Although the agreement was only with one of the five financial institutions, we
  demoted the weakness from a reportable condition to a management letter comment based on
  the fact that two of the financial institutions with larger investments do not receive deposits
  from the public.

• Condition - OMB Circular Nos. A-127 and A-130 Reviews – FCC has identified its major
  financial applications and general support systems, and established a timetable for meeting
  the requirements of OMB Circular Nos. A-127 and A-130 review of these applications.
  Although FCC had begun conducting some OMB Circular Nos. A-127 and A-130 reviews in
  fiscal year 2002, not all identified systems have been reviewed. FCC has completed the
  OMB Circular Nos.A-127 and A-130 review of all its major applications and general support
  systems. Therefore, we have excluded this reportable condition in fiscal year 2005.


                            ********************************




05-AUD-04-03         REPORT ON THE FEDERAL COMMUNICATIONS                                Page 32
                    COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      INTERNAL CONTROL OVER FINANCIAL REPORTING


In addition to the material weaknesses and reportable conditions described above, we noted
certain matters involving internal control and its operation that we reported to the management of
FCC in a separate letter dated November 1, 2005.

This report is intended solely for the information and use of the management of FCC, FCC
Office of Inspector General, OMB, the Government Accountability Office and Congress, and is
not intended to be and should not be used by anyone other than these specified parties.


A1
Calverton, Maryland
November 1, 2005




05-AUD-04-03         REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 33
                    COMMISSION’S FY 2005 FINANCIAL STATEMENTS
This page intentionally left blank
          SECTION IV

  INDEPENDENT AUDITOR’S REPORT
ON COMPLIANCE AND OTHER MATTERS
This page intentionally left blank
SECTION IV            INDEPENDENT AUDITOR’S REPORT ON
                      COMPLIANCE AND OTHER MATTERS



A1
               Independent Auditor’s Report on Compliance and Other Matters

To the Inspector General of the
Federal Communications Commission


We were engaged to audit the consolidated balance sheets of the Federal Communications
Commission (FCC) as of September 30, 2005 and 2004, and the related consolidated statements
of net cost, changes in net position, financing, custodial activity and combined statements of
budgetary resources for the years then ended (herein collectively referred to as the financial
statements) and have issued our report thereon dated November 1, 2005. In that report, we
disclaimed our opinion on FCC’s financial statements because we were unable to apply all
necessary auditing procedures to conduct an audit in accordance with the auditing standards
generally accepted in the United States of America and standards applicable to financial audits
contained in Government Auditing Standards (GAS) and Office of Management and Budget
(OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial Statements, as amended.
The chairman of the FCC (head of the agency) would not sign the management representation
letter. In addition, we requested, but were unable to interview the chairman regarding his
knowledge, awareness and understanding of fraud and fraud risks of the organization.

The management of FCC is responsible for complying with laws and regulations applicable to
FCC. As part of obtaining reasonable assurance about whether FCC’s financial statements are
free of material misstatements, we performed tests of FCC’s compliance with certain provisions
of laws and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain other laws and regulations specified in
OMB Bulletin No. 01-02, including the requirements referred to in the Federal Financial
Management Improvement Act of 1996 (FFMIA). We limited our tests of compliance to these
provisions and we did not test compliance with all laws and regulations applicable to FCC.
However, providing an opinion on compliance with certain provisions of laws and regulations
was not an objective of our audit, and, accordingly, we do not express such an opinion.

The results of our tests of compliance with laws and regulations described in the preceding
paragraph, exclusive of FFMIA, disclosed instances of noncompliance with the following laws
and regulations that are required to be reported under Government Auditing Standards and OMB
Bulletin No. 01-02, which are described below.




05-AUD-04-03          REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 1
                      COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION IV            INDEPENDENT AUDITOR’S REPORT ON
                      COMPLIANCE AND OTHER MATTERS



Chief Financial Officers Act of 1990 (CFO Act)

The Government Management Reform Act of 1994 (GMRA) amended the requirements of the
CFO Act by requiring, among other things, the preparation and audit of organization-wide
financial statements of 24 executive departments and agencies. The Accountability of Tax
Dollars Act of 2002 extends the requirements of the GMRA to certain other agencies including
FCC.

The government has a responsibility to use timely, reliable, and comprehensive financial
information when making decisions, which have an impact on citizens’ lives and livelihood. To
meet this responsibility, the CFO Act establishes a leadership structure, provides for long-range
planning, requires audited financial statements, and strengthens accountability reporting.
Specifically, the CFO Act establishes the authority, functions and responsibilities of a Chief
Financial Officer (CFO). These include, among others, that the CFO:

• Develop and maintain integrated accounting and financial management systems that comply
  with applicable accounting principles, standards, and requirements; internal control
  standards; and requirements of OMB, Department of the Treasury, and others;

• Direct, manage, and provide policy guidance and oversight of all agency financial
  management personnel, activities, and operations; and

• Implement agency asset management systems, including systems for cash management,
  credit management, debt collection, and property and inventory management and controls.

FCC did not fully meet the above criteria as explained in more detail in our Independent
Auditor’s Report on Internal Control over Financial Reporting (IC Report). The key items we
identified include:

• FCC’s financial management systems do not comply with certain accounting standards and
  requirements, and internal control standards;

• FCC’s financial information system is not fully integrated. Data comes from various
  subsystems and spreadsheet programs for the accounting, preparing, and reporting of
  financial statements; and

• A memorandum for the preparation of fiscal year 2005 financial statements as required by
  OMB Circular No. 01-09, Form and Content of Agency Financial Statements was not issued
  by the CFO.

• Financial reporting oversight controls over the reporting components, and the financial
  reporting controls of the reporting components were not adequate.



05-AUD-04-03          REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 2
                      COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION IV            INDEPENDENT AUDITOR’S REPORT ON
                      COMPLIANCE AND OTHER MATTERS


Antideficiency Act

The Universal Service Fund (USF) is a special receipt fund and a special fund expenditure
account accounted for as non-exchange revenue earmarked dedicated collections. Receipts are
reported as appropriations (through invisible warrant) originally not subject to apportionment
until fiscal year 2004 (see explanation below) in accordance with Treasury Financial Manual
(TFM) 2-1500, Description of Accounts Relating to Financial Operations.

The Antideficiency Act requires that OMB apportion the appropriations. In September 2004,
OMB issued an apportionment for the USF for the first time. OMB’s decision to apportion the
USF was explained to FCC as a correction of a previous error; OMB believed that the USF
should have been apportioned starting with the first time it appeared in the President’s Budget to
Congress in 1997. As a result of this apportionment and in preparation for the implementation of
the FCC released order FCC 03-232 dated October 3, 2003 requiring the administrator of the
USF to prepare financial statements for the funds consistent with generally accepted accounting
principles for Federal entities effective in fiscal year 2005, a determination was made by the FCC
Office of General Counsel that USF’s School and Library and the Rural Health Care Support
Mechanisms’ commitment letters were obligations as defined in OMB Circular No. A-11,
Preparation, Submission and Execution of the Budget. In addition, a change in the budgetary
accounting of each investment purchase in non-federal securities was determined to be an
obligation and outlay in fiscal year 2004 in accordance with TFM 2-3400, Accounting for and
Reporting on Cash and Investments Held Outside of the U.S. Treasury.

The combination of these changes discussed above resulted in an Antideficiency Act violation
for the entire fiscal year 2004 except on September 30, 2004. The total amount of the deficiency
was estimated to be at $3.5 billion on September 24, 2004 as reported in a letter by the then FCC
Chairman to the President, dated February 25, 2005.

In fiscal year 2005, USF was granted temporary exemption under Public Law 108-494,
Universal Service Antideficiency Temporary Suspension Act (Act). The Act states that Section
1342 and subchapter II of Chapter 15 of Title 31, United States Code, do not apply to the
following for the period December 23, 2004 and ending on December 31, 2005:

   • to the amount collected or received as Federal universal service contributions, including
     any interest earned on such contributions; nor

   • to the expenditure or obligations of amounts attributable to such contributions for the
     universal service support programs.

OMB Circular No. A-129 - Policies for Federal Credit Programs and Non-Tax Receivables

In fiscal year 2005, as in the prior year, FCC’s Narrowband licenses did not have installment
payment plan notes stating the loan amounts and terms. In addition, security agreements were not
issued by FCC for this block of loans. These loans, with outstanding balances of $78 million as


05-AUD-04-03          REPORT ON THE FEDERAL COMMUNICATIONS                                  Page 3
                      COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION IV            INDEPENDENT AUDITOR’S REPORT ON
                      COMPLIANCE AND OTHER MATTERS


of June 30, 2005, are direct loans accounted for under the Federal Credit Reform Act of 1990.
Sec. 502 of the Federal Credit Reform Act defines “direct loan” as a disbursement of funds by
the Government to a non-Federal borrower under a contract that requires repayment of such
funds with or without interest.

OMB Circular No. A-129, Section III, Loan Documentation, states “Loan origination files
should contain loan applications, credit bureau reports, credit analyses, loan contracts, and other
documents necessary to conform to private sector standards for that type of loan.” Additionally,
Section IV, Loan Servicing Requirements, states that “Approved loan files (or other systems of
records) shall contain adequate up-to-date information reflecting the terms and conditions of the
loan, payment history, including occurrences of delinquencies and defaults, and any subsequent
loan actions which result in payment deferrals, refinancing or rescheduling.”

Debt Collection Improvement Act of 1996 (DCIA)

FCC’s Treasury Report on Receivables for administrative receivables submitted to the
Department of the Treasury as of June 30, 2005, disclosed that no amounts have been referred
for off-set and only $ 5.8 million of the $ 74.5 million of receivables was referred to the
Department of the Treasury for cross-servicing. See IC Report, Section IX, for a more detailed
explanation. Further, FCC did not perform an annual computer match of their delinquent debts
with records of Federal employees as required by the DCIA.

The results of our tests of compliance disclosed no instances of noncompliance with other laws
and regulations discussed in the preceding paragraphs, exclusive of FFMIA, that are required to
be reported under Government Auditing Standards or OMB Bulletin No. 01-02.

Federal Financial Management Improvement Act of 1996 (FFMIA)

Under FFMIA, we are required to report whether FCC’s financial management systems
substantially comply with the Federal financial management systems requirements, applicable
Federal accounting standards, and the United States Standard General Ledger (USSGL) at the
transaction level. To meet this requirement, we performed tests of compliance with FFMIA
Section 803(a) requirements.

The results of our tests disclosed instances described below, where FCC’s financial management
systems did not substantially comply with Federal financial management systems requirements,
applicable Federal accounting standards, and the USSGL at the transaction level.

Federal Financial Management Systems

• Integrated Financial Management System – The Federal Financial System and a few of the
  feeder systems (auction-related systems, property management system, license database
  systems, certain accounts receivable systems, and various spreadsheets) are not integrated or
  electronically interfaced. The reporting components’ core financial systems are also not



05-AUD-04-03          REPORT ON THE FEDERAL COMMUNICATIONS                                   Page 4
                      COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION IV            INDEPENDENT AUDITOR’S REPORT ON
                      COMPLIANCE AND OTHER MATTERS


   integrated. A user is not able to have one view into systems such that, at whatever level the
   individual is using the system, he or she can obtain the information needed efficiently and
   effectively through electronic means. See our IC Report, Sections III.B and V.A. for a more
   detailed explanation.

   The primary reason for noncompliance is that FCC was not able to meet its timetable and the
   length of time needed to implement several financial management systems’ enhancements
   has taken longer than five years.

• Agency-wide Financial Information Classification Structure – As explained in detail in the
  IC Report, Section V, FCC’s and its reporting components’ core financial systems have not
  been fully consistent with the USSGL. In fiscal year 2005, the posting model used continued
  not to be in full compliance with approved posting model.

• Security – In fiscal year 2005, as in prior years, we identified several weaknesses, which
  collectively are considered a reportable condition, and are described in more detail in our IC
  Report, Section X. The weaknesses include: (1) FCC does not have a current Information
  Security Directive, (2) has not properly enforced the “principle of least privilege” across all
  its major applications, and (3) has not developed policies and procedures to ensure the
  protection of sensitive data transmitted to and from its contractors and business partners.

   Information protection-related weaknesses identified in FCC’s information systems
   environment are repeat conditions. Impacted areas include FCC’s distributed computer
   system as well as its mainframe computers. These vulnerabilities expose FCC and its
   computer systems to risks of external and internal intrusion, subject sensitive FCC
   information related to its major applications to potential unauthorized access, modification,
   and/or disclosure, and increase the risks of fraud, waste, and abuse.

   The weaknesses noted above have been identified since the fiscal year 1999 audit and
   progress in correcting the deficiencies has been slow. FCC explained that the primary reason
   for this noncompliance is the length of time needed to implement the corrective actions and
   the availability of resources.

Federal Accounting Standards

Our audit disclosed the following instances of non-compliance with Federal accounting
standards:

• Statement of Federal Financial Accounting Standards (SFFAS) No. 1, Accounting for
  Selected Assets and Liabilities, paragraph 77, states, “When an entity accepts title to goods,
  whether the goods are delivered or in transit, the entity should recognize a liability for the
  unpaid amount of the goods." FCC recognizes accounts payable only when an invoice is




05-AUD-04-03          REPORT ON THE FEDERAL COMMUNICATIONS                                 Page 5
                      COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION IV            INDEPENDENT AUDITOR’S REPORT ON
                      COMPLIANCE AND OTHER MATTERS


   received and logged into the financial system rather than when goods and services are
   received.

• The FCC implemented Budget Execution and Management System (BEAMS) in fiscal year
  2004, as the cost accounting system to satisfy the requirements of SFFAS No. 4, Managerial
  Cost Accounting Concepts and Standards for the Federal Government. While BEAMS met
  some of the requirements of SFFAS No. 4, it still could not accumulate outputs, assign costs
  to outputs, or calculate cost per unit of each type of output. In addition, BEAMS does not
  provide information needed to determine and report service efforts and accomplishments and
  information necessary to meet the requirements of Government Performance and Results Act
  or interface with a system that provides such information. See Section VI.A. in our IC
  Report.

• SFFAS No. 7, Accounting for Revenue and Other Financing Sources and Concepts for
  Reconciling Budgetary and Financial Accounting, states, “Related revenue should be
  matched with the cost.” Specific earned revenue should be matched against specific program
  costs in accordance with the program costs and revenue description in the budget submission
  to Congress. FCC allocates the earned revenue among its programs based on the ratio of the
  program costs to the total costs. See Section VI.B. in our IC Report.

U.S. Standard General Ledger at the Transaction Level

Substantial compliance with the USSGL at the transaction level requires the agency’s recording
of financial events to be consistent with all applicable account descriptions and posting model
attributes reflected in the USSGL issued by the Department of the Treasury, Financial
Management Service, effective for the period covered by the audit. As discussed in our IC
Report, Section V.B, the setup and posting model definitions do not fully comply with the
transaction posting models consistent with the USSGL guidance and policies when recording and
classifying transactions.

Also, as discussed in Section II of the IC Report, the accounting transactions of the Universal
Service Fund, the Telecommunications Relay Services Fund, and the North American
Numbering Plan, collectively called "reporting components," were not recorded in a manner
consistent with the account definitions and posting model attributes specified in the USSGL. The
reporting components also did not record budgetary entries at the transaction level.

FCC’s Managing Director and the CFO have been assigned the responsibility of ensuring the
substantial compliance with the FFMIA. A discussion of the actions taken by FCC and our
recommendations to strengthen FCC’s financial management systems are outlined in our IC
Report. FCC management plans to continue with the corrective actions started or implemented
in prior years.




05-AUD-04-03          REPORT ON THE FEDERAL COMMUNICATIONS                                Page 6
                      COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION IV            INDEPENDENT AUDITOR’S REPORT ON
                      COMPLIANCE AND OTHER MATTERS


Management Comment:

Management concurs. The aforementioned laws and regulations are addressed within the
findings on the Independent Auditor’s Report on Internal Controls over Financial Reporting. As
FCC corrects and resolves identified issues, the occurrences on non-compliance will diminish.
                           ********************************

We also noted certain immaterial instances of noncompliance that we have reported to
management of FCC in a separate letter dated November 1, 2005.

This report is intended solely for the information and use of the management of FCC, FCC
Office of Inspector General, OMB and Congress, and is not intended to be and should not be
used by anyone other than these specified parties.


A1
Calverton, Maryland
November 1, 2005




05-AUD-04-03          REPORT ON THE FEDERAL COMMUNICATIONS                              Page 7
                      COMMISSION’S FY 2005 FINANCIAL STATEMENTS
This page intentionally left blank
              SECTION V

  FEDERAL COMMUNICATIONS COMMISSION
            FISCAL YEAR 2005
PERFORMANCE AND ACCOUNTABILITY REPORT
This page intentionally left blank
FEDERAL COMMUNICATIONS COMMISSION




              Fiscal Year 2005
    Performance and Accountability Report
          (October 1, 2004 – September 30, 2005)
This page intentionally left blank
This Page Is Intentionally Left Blank




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005   2
1. Management’s Discussion and Analysis
Overview of the FCC
INTRODUCTION

This Performance and Accountability Report (PAR or report) contains management,
performance, and financial information about the Federal Communications Commission (FCC,
Commission, or agency).

Chapter 1 presents the Management’s Discussion and Analysis, including: the FCC’s mission; an
overview of the agency’s reporting structure; Fiscal Year (FY) 2005 performance and financial
highlights; descriptions of legal compliance, systems, and controls; summary information related
to the Federal Manager’s Financial Integrity Act material weaknesses and instances noted of non-
conformance and related corrective actions; and potential future issues that could affect the FCC.

Chapter 2 contains the annual program performance report, while Chapter 3 presents the FCC’s
principal financial statements for FY 2005, notes to the consolidated financial statements, and
required supplementary information. Appendix A contains a glossary of acronyms used in this
report.

This PAR is a guide to key FCC initiatives and activities for FY 2005, or planned for future years,
that depict the breadth of the Commission’s work. An electronic version of the FY 2005 PAR can
be found on FCC’s website at: http://www.fcc.gov/omd/strategicplan/.

ABOUT THE FCC

The Commission is an independent United States (U.S.) Government regulatory agency. The
FCC was established by the Communications Act of 1934, as amended (the Act) and is charged
with regulating interstate and international communications by radio, television, wire, satellite,
and cable. The FCC also regulates intrastate telecommunications services for hearing-impaired
and speech-impaired individuals, as set forth in Title IV of the Americans with Disabilities Act
(ADA). The FCC’s headquarters is located in Washington, D.C., with three regional offices,
sixteen district offices, and nine resident agent offices throughout the nation. The FCC’s
jurisdiction spans the 50 states, the District of Columbia, and U.S. possessions.

The FCC is directed by five commissioners, appointed by the President and confirmed by the
Senate for five-year terms, except when filling an unexpired term. The President designates one
of the commissioners to serve as chairman. Commissioners may not hold a financial interest in
any company or entity that has a significant interest in activities regulated by the Commission.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                         3
FCC MISSION

The FCC’s mission is to ensure that Americans have access to rapid, efficient, nation- and world-
wide communication services, whether by radio, television, wire, satellite, or cable, at reasonable
costs and without discrimination.1

FCC REPORTING COMPONENTS

The FCC chairman leads the Commission as head of the agency. The commissioners supervise all
FCC activities, delegating responsibilities to the agency’s bureaus and staff offices.

Six operating bureaus and ten offices implement the Commission’s six strategic goals

Consumer & Governmental Affairs Bureau,
Enforcement Bureau,
International Bureau,
Media Bureau,
Wireless Telecommunications Bureau,
Wireline Competition Bureau,
Office of Administrative Law Judges,
Office of Communications Business Opportunities,
Office of Engineering and Technology,
Office of General Counsel,
Office of Inspector General,
Office of Legislative Affairs,
Office of Managing Director,
Office of Media Relations,
Office of Strategic Planning and Policy Analysis, and
Office of Workplace Diversity.

These bureaus and offices develop and implement regulatory programs, process applications for
licenses or other filings, analyze complaints, conduct investigations, and participate in FCC
hearings.

Detailed information on specific bureau and office responsibilities and the FCC’s
organizational chart can be found on the FCC’s website at: http://www.fcc.gov/.

Components of the FCC for Financial Statement Purposes

In addition to the activities directly undertaken by the above bureaus and offices, the FCC
components for financial statement purposes include:

Universal Service Fund (USF) - The Telecommunications Act of 1996 (the Telecommunications
Act) codified and modified the FCC’s longstanding policy of promoting universal
telecommunications service throughout the nation. Pursuant to section 254 of the
Telecommunications Act,2 the FCC established rules and regulations governing how certain
telecommunications service providers contribute to the USF and how those monies are disbursed.

1
    FCC FY 2003-2008 Strategic Plan, Page 4, 47 U.S.C. §151 – Title, Section 1 of the Act, as amended.
2
    47 U.S.C. § 254.

PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                 4
For budgetary purposes, the USF comprises five elements, four universal service support
mechanisms and the Telecommunications Relay Service (TRS) Fund. The TRS Fund represents
a program established under the Communications Act of 1934, as amended by the Americans
with Disabilities Act (ADA), to support relay services necessary for telecommunications access
by speech or hearing impaired populations. 47 U.S.C. Section 225.

In past years the universal service support mechanisms have operated on a different fiscal year
from other FCC programs – from January 1 to December 31. In FY 2005, the universal support
mechanisms will utilize the same fiscal year as the FCC – October 1 to September 30.

The Universal Service Administrative Company (USAC) administers the four universal service
support mechanisms of the USF, under the FCC’s direction. These support mechanisms are
funded through mandatory payments from U.S. telecommunications providers, including local
and long distance phone companies, wireless and paging companies, and payphone providers.
The four universal service support mechanisms are: high cost, low income, rural health care, and
schools and libraries. These support mechanisms provide money directly to service providers to
defray the cost of serving customers who use the telecommunications services. Additional
information on the USAC and the USF, respectively, can be found on the Internet at:
http://www.universalservice.org/default.asp
and http://www.fcc.gov/wcb/universal_service/welcome.html.

The National Exchange Carriers Association (NECA) administers the TRS Fund, under the
FCC’s direction. The TRS Fund compensates TRS providers for the reasonable costs of providing
interstate telephone transmission services that enable a person with a hearing or speech disability
to communicate with a person without hearing or speech disabilities. The costs of providing
interstate TRS are recovered from subscribers of interstate telecommunications services through
shared-funding cost recovery mechanisms. The TRS operates on a different fiscal year from other
FCC programs; TRS’ fiscal year commences July 1 and ends June 30. Additional information on
NECA and TRS can be found at: http://www.neca.org/ and http://www.fcc.gov/cgb/dro/trs.html,
respectively.

North American Numbering Plan (NANP) - The NANP is the basic numbering scheme
permitting interoperable telecommunications service within the U.S., Canada, Bermuda, and most
of the Caribbean. Section 251(e)(1) of the Act requires the Commission to create or designate one
or more impartial entities to administer telecommunications numbering and to make such
numbers available on an equitable basis. Section 251(e)(2) of the Act requires that the costs of
number administration and number portability be borne by all telecommunications carriers on a
competitively neutral basis, as determined by the Commission. In implementing Section 251, the
FCC appointed a NANP Administrator (NANPA), a national Pooling Administrator (PA) to
administer thousands block number pooling, and a Billings and Collection Agent. The FCC
selected Welch and Company to be the Billings and Collection Agent for NANP effective
October 1, 2004.

For further clarification on the financial relationships between the FCC and these components,
see Note 1 of the financial statements in Chapter 3.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                         5
STRATEGIC GOALS AND OBJECTIVES

Consistent with the objectives of the Act, as amended by the Telecommunications Act, as well as
the 1993 Government Performance and Results Act (GPRA), the FCC has identified six long-
term strategic goals in its FY 2003 - FY 2008 Strategic Plan. These goals will be updated and
revised, as required by GPRA and OMB Circular A-11, for FY 2006 - FY 2011. For FY 2005, the
strategic goals were:

1. Broadband
Establish regulatory policies that promote competition, innovation, and investment in broadband
services and facilities while monitoring progress toward the deployment of broadband services in
the United States and abroad.

2. Competition
Support the nation’s economy by ensuring that there is a comprehensive and sound competitive
framework for communications services and devices. Such a framework should foster innovation
and offer businesses and consumers meaningful choices in services and devices. Such a pro-
competitive framework should be promoted domestically and overseas.

3. Spectrum
Facilitate the highest and best use of spectrum domestically and internationally to promote the
growth and rapid deployment of innovative and efficient communications technologies and
services.

4. Media
Revise media regulations so that media ownership rules promote competition and diversity in a
comprehensive, legally sustainable manner, facilitate the mandated migration to digital modes of
delivery, and clarify and ensure compliance with general media obligations.

5. Homeland Security
Provide leadership in evaluating and strengthening the nation’s communications infrastructure, in
ensuring rapid restoration of that infrastructure in the event of disruption, and in ensuring that
essential public health and safety personnel have effective communications services available to
them in emergency situations.

6. Modernize the FCC
Emphasize performance and results through excellent management. Develop and retain
independent mission-critical expertise and align the FCC with the dynamic communications
markets.

STRATEGIES & RESOURCES TO ACHIEVE GOALS

The FCC has identified strategies and resources to achieve its performance goals for each
strategic goal. Details on the FCC’s strategies and resources for achieving its strategic goals are
included in the Commission’s strategic plan, found at: http://www.fcc.gov/omd/strategicplan.

To support the linkage between performance and budget activities, the FCC’s cost allocation
software, the Budget Execution and Management System (BEAMS), provides a robust and
integrated addition to the Commission’s financial management systems. The BEAMS software
tracks personnel and non-personnel costs for the FCC’s outputs, performance goals, and strategic

PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                         6
goals. Consistent with Office of Management and Budget (OMB) guidance, BEAMS also
supports the Statement of Net Cost, detailed budget execution, and full time equivalent (FTE)
reporting.

FUTURE CHALLENGES

The Commission has identified certain external factors, described below, that may affect the
FCC’s ability to achieve its goals and objectives.

• Market and economic uncertainties. Efficient spectrum utilization involves crafting proper
economic incentives to relocate and continues to be challenging. Ongoing changes in the
methods of delivering news and entertainment programming may introduce economic uncertainty
and thus, risk, into communications markets. Economic factors may also spur consolidation
within the media industries that could potentially affect competition and diversity. In addition,
the transition to digital delivery modes requires significant up-front financial investment from
content providers, service outlets, and equipment suppliers prior to full rollout of the technology
and eventual recouping of investment. Finally, litigation over important aspects of the regulatory
framework related to broadband services, local competition, and media ownership has caused
market and regulatory uncertainty.

• Technology. Despite significant recent developments, broadband infrastructure is not yet
universally deployed, particularly in rural areas. Some platforms are not suitable for deployment
in certain areas of the country due to physical impediments. Mobility and personalization are
major trends in communications technology today. Both are dependent on wireless growth and
innovation, as well as ease of interconnection with traditional networks. Explosive growth in new
technologies ¾ particularly handheld and wireless devices ¾ has driven demand for new
spectrum allocations. Increasing demand for spectrum requires new management techniques to
allocate, assign, and use spectrum more efficiently and effectively. Integration of technology
platforms makes the transition to digital television and radio technologically challenging and
requires coordination among various industries. Finally, today’s interconnected communications
technologies are subject to an increasing number of threats – natural, man-made, physical and
cyber.

• Consumer Demand. From the consumer’s perspective, the retail price of broadband services
relative to other services, such as dial-up Internet access, has affected adoption decisions, despite
the availability of packages offering bundled broadband and other services.

• International Developments. The FCC’s vision of fully competitive communications
markets in the U.S. is at least partially contingent on whether other nations also promote
deregulation, competition, and increased private investment in their communications
infrastructure. Moreover, while the globally interconnected nature of many of today’s
communications technologies contributes significantly to the growth of the U.S. economy, that
interconnection also exposes networks to a wider variety of threats.

• Resources. The Commission’s ability to achieve its vision is largely dependent on the allocation
of resources to carry out its critical activities. The FCC must maintain highly trained, expert staff
capable of assessing and understanding technological and industry trends and enforcing technical
requirements with up-to-date technological tools.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                           7
Fiscal Year 2005 Highlights
PERFORMANCE HIGHLIGHTS

The FCC assesses achievement of performance, with regard to GPRA, through the
accomplishment of performance goals which carry out the mission of the agency. The progress
of these performance goals is measured by the achievement of outcome indicators that monitor
and provide results through trend data of various agency programs and activities. Although the
actions FCC takes are likely to influence the marketplace, they cannot control the marketplace.
The external factors that may influence whether we meet our objectives are economic, legal, and
organizational. These factors are highlighted in our FY 2003-2008 Strategic Plan (pages 8-9),
which can be found at: http://www.fcc.gov/omd/strategicplan.

In FY 2005, the FCC made great strides in accomplishing major policy and regulatory initiatives
as identified below—

Broadband

Performance Goal–
v Broaden the deployment technologies across the United States and globally.

   §   In December 2004 there were 37,890,646 high-speed Internet lines in service
       representing a 25% increase over the previous year and a 66% from 2001; and
       28,857,608 advanced Internet lines in service representing a 30% increase over the
       previous year and a 74% increase from 2001. Between December 2001 and December
       2004 there was more than a 42% increase in consumer access to broadband services via
       satellite or fixed wireless services. During the same time period, there was a 375%
       increase in cable service access to broadband.

   §   Significant progress is being made in the deployment of mobile broadband technologies.
       Several mobile wireless carriers are deploying high-speed mobile Internet access services
       for cell phones, PDA’s, laptops, and other wireless devices using Code Division Multiple
       Access (CDMA), 1x Evolution Data-Only (EV-DO), and Wideband CDMA (WCDMA)
       technologies. Mobile data and entertainment services using these network technologies
       are currently being offered in 41 cities across the United States.

Competition

Performance Goals—
v Ensure American consumers can choose among multiple reliable and affordable means of
    communications.
v Ensure that all American consumers have and retain wireless and wireline phone services.
v Create and maintain a dialogue with regulators around the globe to foster and sustain the
    creation of pro-competitive foreign and domestic markets.
v Create and maintain a dialogue with American consumers so that they are informed about
    their rights, choices, and responsibilities, and ensure these rights through strong
    enforcement.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                      8
   §    There is a steady increase in the percentage of U.S. consumers that can choose between
        multiple wireline and wireless service providers. Specifically, the percentage of U.S.
        households living in zip codes served by three or more wireline local exchange carriers
        has climbed from 67% in 2000 to 87% in 2004. Similarly, the percentage of the U.S.
        population living in counties served by three or more wireless carriers has climbed from
        91% in 2000 to 97% in 2004.
   §    The consumer price for telephone services has declined over the last six years. The
        average price of wireless telephone calls has fallen over this period as well. The average
        price per wireless minutes of use per month for mobile telephone service, including both
        individual and business users, has fallen over the past four years, down to 9 cents per
        minute in 2004.

Spectrum

Performance Goals—
v Ensure that spectrum is used efficiently and effectively.
v Facilitate domestic and international deployment of new spectrum-based technologies and
    services.
v Generally shift from rigid to flexible policy models.
v Promote ease of access to spectrum by more users.

   §    The FCC initiated a rulemaking to implement the Commercial Spectrum Enhancement
        Act (CSEA), which provides for use of spectrum auction proceeds to fund the relocation
        of federal government users in spectrum that has been reallocated to commercial use.
        Implementation of CSEA will facilitate the planned licensing of 90 MHz of Advanced
        Wireless Services (AWS) spectrum in 2006 and expedite the availability of spectrum for
        new wireless services.
   §    The FCC completed several leading edge technology projects that resulted in first-time
        authorizations for technology using Software Defined Radios, Hearing Aid Compatibility
        compliance, and new ultra-wideband technologies for communications devices.
   §    Another way to assess the increase in the number of subscribers to new services that
        make efficient use of spectrum is to review sales of new equipment. Wi-Fi hardware unit
        sales increased by 82% from 9.6 million in 2001 to 49.9 million in 2004. Wi-Fi hardware
        revenue increased by 55% from $1,800 million in 2001 to $3,977 million in 2004.
   §    Considerable subscriber growth has occurred in the Satellite Digital Audio Radio Service
        (SDARS) from the fourth quarter of 2002 to the second quarter of 2005. Since October
        2004, the number of SDARS subscribers has almost doubled, increasing from 3,162,289
        subscribers at the beginning of October 2004 to 6,214,626 subscribers at the end of June
        2005.

Media

Performance Goals—
v Develop a sound analytic foundation for media ownership rules.
v Facilitate the transition to digital television and radio.
v Clarify and ensure compliance with general media obligations.

   §    The FCC made additional progress in the transition from analog to digital television
        broadcasting by moving up the date by which all mid-size television receivers must

PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                        9
       include a Digital Television (DTV) tuner. At the end of FY 2005, a total of 1525 of 1687
       licensed DTV stations (90%) were on the air with DTV operations; and a total of 447 of
       13,555 radio stations (3%) were operating with digital radio authorizations. As a DTV
       outreach effort, the FCC kicked off an education campaign to highlight the transition to
       digital television. This major initiative brought all segments of the television industry
       together to educate the public on the importance of the DTV transition and how it will
       affect them in the coming years.

Homeland Security

Performance Goal—
v Promote a reliable, secure, and survivable communications infrastructure for the United
    States.

   §   Adopted rules that require interconnected Voice-over Internet Protocol (VoIP) service
       providers to deliver 911 calls for all customers and provide emergency operators with the
       call back number and location information of their customers. The FCC also adopted
       rules broadening the scope of Enhanced- 911 (E911) services to include mobile satellite
       services, certain telematic services, and resold and prepaid calling card services. Initiated
       a proceeding to determine whether IP-enabled voice services should be required to
       comply with our E911 rules.

   §   During FY 2005, the FCC began to examine the Telecommunications Service Priority
       (TSP) participation rates of Federal agencies and State and Local Governments. The TSP
       program increased the reliability of essential NS/EP communications services by
       minimizing out-of-services times. By the end of July 2005, a total of 42,801 Federal and
       5,028 State and Local Government circuits were covered by the TSP program. As a
       result, these circuits’ operations were made substantially more reliable.

Modernize the FCC

Performance Goal—
v Become a more responsive, efficient, and effective agency.

   §   In FY 2005, the FCC continued its dedication in operating efficiently, effectively and
       responsively. As a result, the agency exceeded its goals—
           o Processing time for both circulation-to-adoption and “adoption-to-release”
               dropped by one-third between FY 2004 and FY 2005.
           o 98% of the agency’s actions were disposed within the processing goals.
           o 95% applications were filed electronically or online.

   §   Made great strides in the final phase of the Consumer Information Management System
       by fully integrating an artificial intelligence system that automatically sends accurate
       responses to consumer e-mails within minutes. This resulted in the logging of complaints
       and inquiries being significantly streamlined, allowing FCC staff to avoid delays when
       taking calls. Additionally, complaint forms are now on-line for direct filing or
       downloading in both English and Spanish.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                         10
FINANCIAL HIGHLIGHTS

Possible Future Effects of Existing Events and Conditions

Historically, the outstanding Loans Receivable and related Debt to Treasury have comprised the
largest balances within the FCC component of the consolidated financial statements. These
balances have been in excess of $1.0 billion since the second borrowing was completed in FY
1997 and as high as $9.6 billion and $5.3 billion respectively in FY 2000. The resolution of the
Nextwave bankruptcy and subsequent re-auction of the returned licenses in Auction #58 has
placed the FCC on track to reduce both balances well under the $1.0 billion threshold in FY 2006.

Loan program collections from the Public totaled $1,604 million in FY 2005 contributing to the
overall drop in the loan balance of $1,435 million to $1,257 million at the end of FY 2005. The
FCC anticipates receiving additional Auction #58 recoveries of $1,090 million in FY2006.

In addition to the discussion of the loan program above, the FCC addresses the possible future
effects of existing claims, deferred maintenance, commitments, and major unfunded liabilities in
the notes to the financial statements as well as required supplementary information.

Financial Statements

The financial statements detail the Commission’s financial activity and financial position. The
financial statements, related notes, and the required supplementary information can be found in
Chapter 3 of this report. Following is a brief analysis of the principal statements.


Consolidated Balance Sheet

                         FY 2005                  FY 2004                  FY 2003
                         (Dollars in millions)    (Dollars in millions)    (Dollars in millions)
Total Assets             $7,717                   $7,368                   $8,281
Total Liabilities        $3,283                   $5,062                   $5,930
Total Net Position       $4,434                   $2,306                   $2,351

The FCC’s most significant assets are Fund Balance with Treasury of $1,523 million,
Investments of $4,140 million, and Loans Receivable of $1,257 million. Together, these balances
accounted for 90% of total assets as of September 30, 2005. The Loans receivable balance
consists of gross receivables, including interest and other receivables, totaling $508 million,
offset by a negative subsidy allowance of negative $749 million. The negative subsidy reflects the
fact that the FCC expects to collect amounts through the re-auction of licenses versus installment
payments and as a result has a higher net loan balance than the gross loan balance

The large Investments balance of $4,140 million results from carryover in the USF that has grown
since the program’s inception as a result of annual contributions that have exceeded annual
distributions.

The FCC’s most significant liabilities are debt of $1,274 million and deferred revenue of $1,186
million, which accounted for 75% of total liabilities as of September 30, 2005. All of the debt is
owed to Treasury for borrowing related to credit reform installment loans. The bulk of the

PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                       11
deferred revenue balance is related to the $1,090 million in anticipated FY 2006 recoveries,
which have been collected, but cannot be recognized as revenues until the licenses are granted in
the first quarter of FY 2006.

Net position consists primarily of the balance contributed by the Cumulative Results of
Operations, which was $4,410 million as of September 30, 2005, and accounted for 99% of Net
Position. The USF component comprises $4,277 million, most of which is derived from the
carryover situation discussed above as related to the $4,140 million investment balance.



Consolidated Statement of Net Cost


                        FY 2005                  FY 2004                  FY 2003
                        (Dollars in millions)    (Dollars in millions)    (Dollars in millions)
Net Cost of             $ 6,568                  $7,020                   $6,094
Operations

The Consolidated Statement of Net Cost is aligned with the six strategic goals of the FCC. Net
costs for each goal are presented individually and costs of USF and NANP are included within
the Competition strategic goal shown in the Statement of Net Cost. The FCC’s subsidy costs for
the Spectrum Auction Loan Program are accounted for in the Spectrum goal in the Statement of
Net Cost. As a result of the accounting for these activities, the cost for these goals may be
significantly higher than the cost of the four other goals.

The FCC’s net cost of operations for FY 2005 was $6,568 million, of which $6,567 million
correlates to component entities whose funds are restricted for NANP and USF programmatic
activities only, and cannot be used by the FCC. The $6,568 million is allocated between the FCC
and the two components as follows:

Component                    Net Cost of Operations
FCC                          $     1 million
NANP                         $ (1) million
USF                          $ 6, 568 million




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                      12
Consolidated Statement of Changes in Net Position

                         FY 2005                  FY 2004                  FY 2003
                         (Dollars in millions)    (Dollars in millions)    (Dollars in millions)
Unexpended               $ 25                     $38                      $43
Appropriations
Cumulative Results of $4,410                      $2,267                   $2,308
Operations

The total Net Position increase of $2,130 million since September 30, 2004 is attributed to two
factors. The first is the recognition of $1,260 million in resources in FY 2005 related to the
corresponding subsidy expense recognized in FY 2004. The second is the $881 million increase
in USF Cumulative Results of Operations, which stems from the continued collection of receipts
greater than disbursements.


Combined Statement of Budgetary Resources

                         FY 2005                  FY 2004                  FY 2003
                         (Dollars in millions)    (Dollars in millions)    (Dollars in millions)
Total Resources          $11,237                  $17,429                  $9,377
Appropriations           $ 9,899                  $16,687                  $6,280
Received
Obligations Incurred     $10,538                  $17,097                  $7,315

Appropriations received in FY 2005 consisted of $1 million for FY 2005 Salaries & Expenses
(S&E) that is net of a $280 million regulatory fee offset and $1,260 million for credit subsidy.
The USF accounts for the remaining $8,638 million.

Consolidated Statement of Custodial Activity

                         FY 2005                  FY 2004                  FY 2003
                         (Dollars in millions)    (Dollars in millions)    (Dollars in millions)
Custodial Liability      $ 222                    $ 310                    $230

The FCC reported $440 million of custodial revenue as of September 30, 2005. Credit Reform
represents $269 million, Spectrum Auctions represents $159 million, auction interest represents
$1 million, and the remaining $11 million derives from fines and penalties. In FY 2005 the FCC
transferred $160 million to Treasury for auction collections, $269 million for Credit Reform
Interest and $12 million for fines and penalties. The FCC also retained $85 million to support the
Auctions program. The net custodial activity accounts for the Decrease in custodial liability of
$88 million from FY 2004 to FY 2005




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                       13
Other Key Financial Statement Highlights

Subsidy Reestimate

The FCC must annually adjust its allowance for losses on the credit portfolio. In accordance with
OMB guidance, the FCC calculates its subsidy reestimate based on the most recent economic and
technical assumptions of current portfolio performance.

The FCC’s FY 2006 subsidy reestimate was completed to reflect the actual loan performance
through May 31, 2005 and projected performance through September 30, 2005. The reestimate
resulted in a net downward adjustment (decrease in the subsidy cost) totaling $24.5 million in the
Spectrum Auction program. An additional $19.7 million decrease is also recognized, due to
interest on the technical reestimate; this represents the amount of interest that would have been
paid if the technical reestimate had been included as part of the original subsidy estimate.

This reestimate is reported in the FCC’s FY 2005 financial statements, but will not be reported in
the budget until FY 2006. For more details, see financial statement Footnote 7 in Chapter 3.

Loan Repayments

Borrowers are required to repay loans on a quarterly basis and are allowed to prepay their loans
without penalties. In FY 2005 117 loans were paid off. Collections resulting from these loan
payoffs, which include principal, interest, suspension interest, and late fees, totaled $86 million.
When compared with the FCC’s total collections of $659 million in principal, interest, suspension
interest, and late fees, these loan payoffs represent approximately 13% of all collections.

During FY 2005 the FCC wrote off all the remaining NextWave loans. This resulted in decreases
of approximately $3.3 billion, $2.1 billion, and $17 million, to the balances for gross Loans
Receivable, Interest Receivable and Other Receivables, respectively, as well as a decrease of $5.4
billion to the Allowance for Subsidy Cost. The FCC received NextWave payments of
approximately $399 million and $82 million that will be used to repay the Bureau of Public Debt
(BPD) interest and principal, respectively, at the end of FY 2005. The FCC re-auctioned multiple
C & F block licenses, including those returned by NextWave in Auction # 58, and expects C-
block recoveries of approximately $1.9 billion, F-Block recoveries of approximately $171
million, and new auction receipts of $9 million as a result of the auction. Actual Auction
#58 recoveries received as of September 30, 2005 were nearly $945 million.

Regulatory Fee Collections

Section 6003(a) of the Omnibus Budget Reconciliation Act of 1993 (Public Law 103-66) added a
new Section 9 to the Act. The law requires that the FCC annually collect fees and retain them to
offset certain costs incurred by the Commission. The fees collected are intended to recover the
non-licensing costs attributable to the Commission’s competition, enforcement, consumer
information, and spectrum management activities. The amount the FCC is required to recover is
included in the FCC’s annual appropriations.

Regulatory fees are collected and deposited directly into the Treasury to offset the FCC’s
appropriations for the current fiscal year. In FY 2005, the FCC was expected to collect
approximately $280.1 million. The Commission actually collected $292.9 million.


PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                         14
LEGAL COMPLIANCE, SYSTEMS, AND CONTROLS

Legal Compliance

Like other Federal agencies, the FCC must comply with statutes and regulations related to
appropriations, safety and health, and employment. The Office of Managing Director’s (OMD)
financial compliance responsibilities include: implementing accounting and financial policies,
systems, and reports; improving the reliability of financial information; implementing debt
collection; and implementing financial management legislation, regulation, and guidance.

Effective management and system controls are essential to the FCC’s efforts to comply with
applicable legislation, regulations, and guidance. The FCC continues to improve its management
controls. As described in Exhibit 2, the FCC continues to implement changes to its financial
control systems to conform to the standards identified in the 2004 financial statement audit.

Systems

Federal Financial Management Improvement Act of 1996 (FFMIA)

The FFMIA requires each agency to implement and maintain financial management systems that
comply substantially with Federal financial management systems requirements, applicable
Federal accounting standards, and the U.S. Government Standard General Ledger at the
transaction level. The FFMIA also requires the systems to provide reliable, consistent disclosure
of financial data uniformly across the Federal government from year-to-year, consistently using
generally accepted accounting principles (GAAP).

As of September 30, 2005, the FCC has evaluated its financial systems:

• Federal Financial System (FFS) – the FCC’s central accounting system;

• Revenue & Accounting Management Information System (RAMIS) – the system that handles
collections and accounts receivables specific to the FCC, designed to interface with FFS and the
FCC’s licensing systems.

• BEAMS – this cost allocation software supports the partnership between program and financial
managers, assures the integrity of information for decision-making, and measures the full cost of
FCC’s programs.

The FCC contracted out the activities related to loan servicing for the portfolio, document
management, and Uniform Commercial Code (UCC) review and filing services. The FCC
completed the transfer of loan data to its contractor by September 30, 2003, with the full loan
servicing implemented as of October 1, 2003. The contracted loan servicer’s records continue to
function as the system of record for the FCC’s loan program.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                      15
Federal Information Security Management Act of 2002 (FISMA)

The FISMA focuses on program management, implementation, and evaluation of the security of
non-national and national security information systems. The FISMA codifies existing OMB
security policies, OMB Circular A-130, Appendix III, and reiterates security responsibilities
outlined in the Computer Security Act of 1987, the Paperwork Reduction Act, and the Clinger-
Cohen Act of 1996. In addition, FISMA requires annual agency program reviews and annual
independent evaluations for both non-national and national security information systems.

Risk Assessment

Risk assessments are an integral aspect of the FCC's security tests and evaluations (ST&Es) that
support the certification and accreditation (C&A) process. The ST&Es have been completed for
all 17 major applications and two general support systems. In addition, C&As are current as of
September 30, 2005.

Security Training

All FCC users are provided computer security training. Training generally includes, but is not
limited to, discussion of computer security basics, acceptable computer practices, and an
overview of Federal and the FCC computer security policies and procedures. Users requiring
administrative privileges to FCC systems are given additional advanced computer security
training. The FCC provides the following training:

• New user computer security orientation training;
• Quarterly training;
• Annual training;
• Ad hoc security briefings;
• Monthly computer security notices; and
• Computer security alerts and advisories.

Training materials are provided through in-class training, the Computer Security Program (CSP)
intranet website, and the FCC University Training Program.

Disaster Recovery Plan

The FCC has implemented significant elements of a full Continuity of Operations Plan (COOP).
Additionally, the FCC has implemented an Information Technology Disaster Recovery Plan (IT
DRP). As part of the IT DRP, a business impact analysis (BIA) and an alternate processing
options analysis (APOA) were completed in April 2003 to ensure that mission-critical systems
are included in the plan. The IT DRP establishes thorough plans and procedures and technical
measures that allow the FCC network and applications to be recovered quickly and effectively
following a service disruption or disaster. The FCC successfully tested its COOP and IT DRP
during the May 2004 and June 2005 Federal government-wide continuity of operations exercise,
“Forward Challenge ‘04” and “Pinnacle ’05,” respectively.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                     16
Security Planning

As required by OMB Circular A-130, Appendix III, and the FISMA, the Computer Security
Program (CSP) has developed and maintains system security plans (SSP) for both FCC general
support systems and all 17 major applications and two general support systems. The SSP’s
purpose is to provide an overview of the system’s security requirements and to delineate
responsibilities of all individuals who access the system.

Computer Security Incident Response

The CSP coordinates all FCC computer security incidents for topics including attempted hacking,
computer virus infection, unauthorized system access, lost IT-related devices, and other related
matters. The CSP works with the Office of Inspector General and external agencies such as the
Department of Homeland Security’s Federal Computer Incident Response Capability and the
National Infrastructure Protection Center, and the Federal Bureau of Investigation. To help FCC
staff respond to computer security-related incidents, the CSP published and distributed the FCC
Computer Incident Response and Computer Incident Response Team Desk Reference Guides.

Through these activities, policies, and procedures, the system’s owners are well aware of their
responsibilities for safeguarding against known vulnerabilities, system flaws, and weaknesses that
may be exploited by threat sources.

Internal Control

The FCC maintains internal control for financial reporting that provides reasonable assurance that
the financial statements fairly present information related to assets, liabilities, and net position
and do not contain material misstatements. . Transactions are executed in accordance with
budgetary and financial laws, consistent with FCC statutory requirements, and are recorded in
accordance with Federal accounting standards.

Additionally, assets are properly acquired, used, and safeguarded to deter theft, accidental loss or
unauthorized disposition, and fraud. Further, FCC’s internal control provides for the existence
and completeness of the performance measures, as required by OMB Circular A-136.

The FCC received a report on internal controls as part of its FY 2004 audit. The report identifies
13 material weaknesses and reportable conditions. The Independent Auditors’ Report on Internal
Control and the FCC management’s response included at the end of this report detail the
Commission’s efforts to address those weaknesses in FY 2005.

Government Performance and Results Act of 1993 (GPRA)

The GPRA implemented strategic planning and performance measurement in the Federal
Government. The Act encourages agencies to shift the decision-making focus and accountability
from program outputs to the results of those activities. As required by GPRA, the FCC has
developed its FYs 2003-2008 Strategic Plan and revised that plan for FYs 2006-2011. The agency
further fulfills its GRPA obligations by developing performance budgets, which incorporate the
previously-required Annual Performance Plan, and completing Performance and Accountability
Reports, which include GPRA-required annual performance data in Chapter 2.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                         17
Performance Data Completeness and Data Reliability

The performance data presented in this report are complete and reliable, as defined in OMB
guidance. The FCC is dedicated to properly and effectively managing its mission and resources.
The FCC uses numerous methods and techniques to verify and validate the completeness and
reliability of data underlying its outcome indicators. Methods include certification of reliability
from data providers, as well as audits, reports, and reviews performed by other groups, such as
the Office of Inspector General (OIG) and Government Accountability Office (GAO).

In general, data sources are internal reports generated by various FCC bureaus and offices, 3 which
often combine internally generated data: and externally provided data from government surveys,
such as the Current Population Survey, and industry data.

Program Evaluations & Streamlining Activities

Based on requirements of OMB Circular A-11, the agency primarily evaluates programs using the
Program Assessment Rating Tool (PART).

OMB has requested the FCC to conduct PART’s on the following agency programmatic
activities:

Schools and Libraries/E-Rate and annual update – Released with 2004 budget and following
years
High Cost portion of the Universal Service Fund - Release with 2007 budget
Low Income, Rural Healthcare, and Telecommunications Relay Service portions of the Universal
Service Fund - FY 2008 budget

Additionally, as part of its program of internal controls, the agency conducts routine vulnerability
assessments. Twenty-five (25) such assessments were conducted during FY 2005.

The GAO completed four reports on FCC-related activities or issues during the fiscal year. The
completed studies included direct broadcast satellite subscribership, Commission oversight of the
e-rate program, the national do-not-call registry, and Commission management of its federal
advisory committees. Seven other GAO studies were pending as of the end of the fiscal year.

Treasury Performance Measure Summary

Treasury uses five key performance measures to assess agency compliance with its financial
reporting requirements.

Overall, for FY 2004 the FCC complied with:
   · Requirements for timely reporting
   · Reconciliation of beginning and ending net position (for balances certified at yearend FY
        2004)
   · Reliability of FACTS I and FACTS II reporting (for balances certified at year-end FY
        2004


3
 Data sources include FCC programmatic reports and application processing systems, inquiry and
complaint tracking systems, enforcement reporting systems, and hiring and training systems.

PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                         18
    ·   Consistency of audited financial statements data using the closing package process via
        government-wide report system (GFRS) and FACTS I reporting
    ·   Intra-governmental activity for elimination of differences.

The FCC will report on FY 2005 FACTS II and intergovernmental reporting activities in the FY
2006 PAR. Because the FY 2005 information will not be available until after the PAR is
submitted, we are reporting on FY 2004.

Inspector General Act of 1978

The Inspector General Act of 1978, as amended, requires semi-annual reporting on Inspector
General audits and related activities, as well as agency follow-up. From October 1, 2004 through
September 30, 2005 management closed 96 recommendations. As of September 30, 2005, 25
reports were at least one year old, with a total of 177 recommendations for which completion of
corrective action was pending. Five of the 25 reports are currently under administrative appeal.

Debt Collection Improvement Act of 1996 (DCIA)

On October 1, 2004, the Commission implemented the DCIA requirements. Prior to
implementation, the FCC conducted a series of outreach discussions to inform the public and
internal FCC customers of the requirements to comply with this Federal mandate. Based on these
discussions and other follow-up activities associated with the existing delinquent debts, the
Commission decided to provide a grace period from October 1, 2004 to October 31, 2004 before
enforcing the DCIA to allow more opportunity to resolve issues. As of November 1, 2004, the
FCC began enforcing the DCIA by implementing the Red-Light rule. All licensing systems and
bureaus/offices within the Commission check for delinquent debts before issuing a licenseor
permit, or granting a license.

The DCIA requires Federal agencies to transfer to the Treasury for debt collection any non-tax
debt over 180 days delinquent. In cases of delinquency, the full amount of outstanding debt,
including outstanding principal, past due interest, and late fees, will be accelerated and must be
paid in full. Failure to pay in full upon demand results in transfer of the debt to Treasury for debt
collection and assessment of additional interest, penalties, and other administrative charges. In
FY 2005, the FCC transferred to Treasury outstanding debt totaling $2 million for loans and
$6,868 for accounts receivable. There were no debt transfers for the reporting components.

Improper Payments Information Act of 2002 (IPIA) – Narrative Summary of
Implementation Efforts for FY 2005 and Agency Plans for FY 2006-2008

The IPIA requires Federal agencies to report annually on the extent of improper payments and on
actions taken to reduce such payments. After conducting a complete inventory, the FCC
identified eight programs for analysis. As reported in FY 2004, the FCC statistically tested six of
the eight programs on a pure disbursement basis; we can state with 90% confidence that the error
rate in each of these programs is less than 2.5%. The remaining two programs appear to have
sufficient volume and error rates to warrant further investigation and monitoring. The FCC
identified the Universal Service Fund’s Schools and Libraries Program and High Cost Support
Program beneficiary payments as subject to significant risk of improper payments based on the
limited information available. The FCC indicated informally to OMB that these programs are
complex programs that pose difficulty in complying with the requirement to measure statistically
the rate of improper payments.

PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                          19
As of now, no baseline comprehensive improper payment rate has been established for either
program; however, the FCC has developed a plan to obtain a statistically valid rate for improper
payments in both programs. During FY 2005 the FCC OIG, in conjunction with USAC, the
administrator of the USF, developed an audit plan calling for approximately 250 beneficiary
audits of each of the two programs. The number of audits is sufficient to provide a statistically
valid improper payment rate in both of the programs. A procurement solicitation in FY 2005 for
these services was cancelled without making an award. This solicitation will be reissued and an
award is expected in FY 2006. While the FCC anticipates that some preliminary results could be
reported in next year’s PAR, our goal is to have firm statistical conclusions concerning the error
rate in each program on or before September 30, 2007.

Federal Managers’ Financial Integrity Act of 1982 (FMFIA)

In accordance with the FMFIA, the FCC has developed corrective actions to address the material
weaknesses related to its internal control structure. The corrective actions establish both short-
and long-term solutions to identified weaknesses. Significant actions accomplished during FY
2005 include: establishing and formalizing controls over the default and withdrawal penalty
process; converting component entities to Generally Accepted Accounting Principles for Federal
Government Agencies (FEDGAAP) and establishing standard reporting checklists at the FCC for
reviewing component entity financial submissions; completing the FCC-wide security plan;
completing testing and training on the FCC disaster recovery plan; and correcting cost allocation
logic issues that arose at the close of FY 2004. Longer term, the FCC continues to address the
need to replace the current Core financial accounting system with an Enterprise Resource
Planning (ERP) system. Implementing the new ERP system will address several longstanding
integration-related weaknesses of the current system.

As indicated above, the component entities of the FCC converted to FEDGAAP on October 1,
2004. The conversion is significant to the FCC’s ability to manage its component entities
because it places them under the same structure the FCC uses to manage its accounts and records.
While the conversion was not seamless, it has progressed throughout the course of the year
through monthly interaction and feedback between the FCC and the entities. As a result, a
stronger foundation has been established from which the FCC can manage the consolidated
financial reporting effort.

The FCC OIG, in conjunction with the Department of Justice and the Federal Bureau of
Investigation (FBI), continues to investigate beneficiaries of the USF as an outgrowth of our
financial statement audit process. The audits have identified instances of both failure to follow
program rules and actual fraud. Many of the identified problems are related to the program’s
initial years and have already been corrected, though the amounts involved are material. The FCC
continues to actively pursue changes in the Universal Service Program to enhance effectiveness
and efficiency. The schools and libraries support mechanism is significant when compared to the
FCC’s operations, and challenges remain to assure that program disbursements obtain the greatest
possible benefits.

Reporting under FMFIA and conducting annual financial audits under the Chief Financial
Officer’s Act – and now the Tax Accountability Act of 2002 – is challenging. We annually meet
FMFIA requirements by including in our report material weaknesses and instances noted of non-
conformance identified by our auditors. For FY 2005, financial management was added to
managers’ annual evaluation standards. The FCC continues to look to the cost accounting system


PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                       20
as a means of providing information to all levels of management on the costs of agency activities.
While our financial improvements continue and new challenges arise, we maintain our
commitment to strong financial tracking and reporting as one tool to assure the most efficient use
of scarce resources.

Due to the timing of this report, Exhibits 1 and 2 detail the pending and completed FMFIA
material weaknesses and instances noted of nonconformance, respectively, resulting from the FY
2004 audit findings, including the year first identified, the targeted corrective action date, key
milestones for corrective action, and instances where the agency was not able to meet key
milestones from the previous year. The FCC’s first financial statement audit in FY 1999
identified numerous recommendations related to material weaknesses and instances noted of
nonconformance.

As shown in the tables below, over the past five years the FCC has undertaken many corrective
actions to address the material weaknesses and instances noted of nonconformance identified by
OIG, GAO, and the independent auditors.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                       21
          Exhibit 1: FMFIA Material Weaknesses
              Material Weakness                               Targeted
                                                  FY First
(Identified in the FY 2004 Financial Statement                Corrective   Milestones for Corrective Action                  Status
                                                 Identified
       Audit Report on Internal Control)                       Action
I.        Auction Transactions
     A.               Auction Receivables          2003         2005       All withdrawal and default penalties have         Completed
                                                                           been identified and a master list has been
                                                                           prepared to track licenses status. Receivables
                                                                           have been established in RAMIS and FFS for
                                                                           all letters released (Completed 8/31/2005).

                                                                           Update Policies and Procedures for                Completed
                                                                           withdrawal and default receivables and place
                                                                           them on the FCC intranet. (Completed
                                                                           8/31/2005)

                                                                           Compare billed default and withdrawal             In progress
                                                                           penalties against the $12 million accrued at
                                                                           the end of FY 2003 until all of the accrual has
                                                                           been billed or otherwise reversed. (Target:
                                                                           9/30/2005)

     B.               Spreadsheet Subsidiary       2003         2007       The FCC began running the RAMIS Auction           On Hold
            Ledger                                                         module parallel to the Spreadsheet Subsidiary
                                                                           process in FY2005. Programming issues with
                                                                           the module have prevented the FCC from
                                                                           moving to full conversion and cost
                                                                           considerations have forced the FCC to
                                                                           dismiss this module as a solution and look at
                                                                           the new core financial system purchase as the
                                                                           alternative.

II. Oversight of Reporting Components              1999         2006       Update the Chapter 8 sections relevant to the     In Progress
                                                                           component entity financial statements and
                                                                           place them on the intranet. (Target:
                                                                           10/1/2005).
                                                                2005                                                         Completed
                                                                           Establish standard checklists for use by the
                                                                           FCC and the entities in reviewing financial
                                                                           statement submissions. (Completed
                                                                           5/31/2005).
                                                                2005                                                         Completed
                                                                           Establish responsibility for preparing
                                                                           financial statements with the component
                                                                           entities and responsibility for review with the
                                                                           FCC (Completed 5/31/2005).
                                                                2005                                                         Completed/On-
                                                                           Perform evaluations on component entity           Going
                                                                           financial submissions and provide written and
                                                                           oral feedback to the components on the
                                                                           results.




          PERFORMANCE AND ACCOUNTABILITY REPORT                                                                              22
              Material Weakness                                Targeted
                                                   FY First
(Identified in the FY 2004 Financial Statement                 Corrective   Milestones for Corrective Action                  Status
                                                  Identified
       Audit Report on Internal Control)                        Action
III. USF Financial Reporting: Accounting and        2001         2006       Incorporate the standard financial review         In Progress
      Reporting Controls                                                    checklist into the required documents
                                                                            provided by outside components
                                                                            (Target:12/15/2005).

                                                                 2004       Continue monthly meetings with the largest        Completed/On-
                                                                            component entity and regular meetings with        Going
                                                                            other entities surrounding required financial
                                                                            submissions.

                                                                 2005       Require outside components to submit              Completed
                                                                            financial statements based on the Standard
                                                                            General Ledger (SGL) structure and Treasury
                                                                            Financial Manual (TFM) crosswalks
                                                                            (Completed 5/31/2005).

IV. Reporting Components’ Budgetary                 2004         2005       Provide written feedback to the component         Completed/On-
     Accounting                                                             entities on issues identified by the review of    Going
                                                                            the interim financial submissions, including
                                                                            GOVGAAP issues. (This process has
                                                                            effectively eliminated most of the
                                                                            GOVGAAP deficiencies that existed at the
                                                                            start of the FY. The FCC intends to continue
                                                                            this practice as a standard supervisory
                                                                            procedure.)

                                                                 2005       Hire an independent accounting firm to            Completed. Report
                                                                            review USAC compliance with GOVGAAP               received in August
                                                                            (Target: 9/30/2005).                              2005.

                                                                 2006       The FCC will work with USAC and NECA to
                                                                            ensure that when new Core Financial systems
                                                                            are purchased they meet the FFMIA                 In-Process
                                                                            requirement to record transactions at the
                                                                            transaction level, to resolve this current
                                                                            deficiency.

V. Information Technology (IT)
     A. Compliance with OMB Circular No.            1999         2005       Issue a new directive 1131.1 Information          Completed
         A-130 Requirement for a                                            Security Manual. (Target 12/31/2005)
         Comprehensive Security Plan                                        Complete the FCC-wide security plan.              Completed
                                                                            (Completed 7/28/2005)
                                                                            Conduct security awareness training for           Completed
                                                                            contractor loan servicing employees.
                                                                            (Completed 4/21/2005)
                                                                            Determine if the loan servicing application is    In progress
                                                                            a major application. (Target: 9/30/2005)
                                                                            Enhance audit trail capability. (Completed:       Completed
                                                                            3/31/2005)




    B.   Accelerate Efforts to Develop and Test     1999         2005       Participate in the Federal COOP exercise on       In Progress
         FCC’s Contingency Plan                                             June 2005. Lessons learned from that
                                                                            exercise will be incorporated into the existing
                                                                            plan. (Target: TBD).

    C.   Disaster recovery Plan for USF             2004         2005       Develop and test a disaster recovery plan for     Completed
                                                                            the USF. (Completed: 4/5/2005)




         PERFORMANCE AND ACCOUNTABILITY REPORT                                                                                23
              Material Weakness                               Targeted
                                                  FY First
(Identified in the FY 2004 Financial Statement                Corrective   Milestones for Corrective Action                  Status
                                                 Identified
       Audit Report on Internal Control)                       Action

    D.   Security Policies and Procedures for      2003         2005       Develop and implement security policies and       In progress
         USF                                                               procedures that detail controls to protect data
                                                                           on the USAC network. (Target: 9/30/05)

                                                                           Update USAC computer security policy and          In progress
                                                                           make available to all employees. (Target:
                                                                           9/30/2005).

VI. Cost Allocation Logic                          2004         2005       Review, test and correct existing BEAMS           Completed
                                                                           allocation logic. (Completed 3/31/2005).




         PERFORMANCE AND ACCOUNTABILITY REPORT                                                                               24
          Exhibit 2: FMFIA Non-Conformances
                 Non-Conformances                                       Targeted
                                                            FY First
(Identified in the FY 2004 Financial Statement Audit                    Corrective   Milestones for Corrective Action              Status
                                                           Identified
 Report on Compliance with Laws and Regulations)                         Action

I. Chief Financial Officers Act of 1990                      1999                    See Sections I. through IV and VI in
     A. FCC’s financial management systems do not                                    Material Weaknesses Milestones for
           comply with certain accounting standards and                              Corrective Action.
           requirements, and internal control standards.
     B. FCC’s financial management system is not
           fully integrated.
     C. Direction, policy guidance memorandum for
           FCC’s financial statement preparation and
           oversight of the reporting components’
           financial operations are inadequate.

II. Antideficiency Act                                       2004         2005       The FCC sent a letter to the            Completed
                                                                                     President on February 25, 2005
                                                                                     notifying him that an Anti-
                                                                                     deficiency Act violation had
                                                                                     occurred. The FCC took steps at the
                                                                                     end of FY 2004 to correct the
                                                                                     violation; subsequently, the USF
                                                                                     received a temporary exemption
                                                                                     from the Act that expires on
                                                                                     December 31, 2005.
III. OMB Circular No. A-129, Policies for Federal
Credit Programs and Non-Tax Receivables
      A. Required loan documentation was not found           1999         2004       Licenses began as payment plans         Completed
          for Narrowband licenses.                                                   where no loan documents were
                                                                                     required and were subsequently
                                                                                     brought under credit reform. All 11
                                                                                     licenses have defaulted and
                                                                                     documents will never be obtained.
IV. Debt Collection Improvement Act of 1996                  2002         2006       The FCC plans to transfer 2,750         In Process
    A. Refer debt within 180 days                                                    debts to Treasury by 12/31/05.
    B. Perform delinquency debt letter procedures                                    Additional time is being devoted to
                                                                                     this process monthly to clear the
                                                                                     remaining backlog.
V. Federal Financial Management Systems
    A. Integrated Financial Management System                1999         2007       The FCC has begun the procurement       In Progress
                                                                                     cycle for a new Core financial
                                                                                     accounting system and plans to
                                                                                     award a contract in FY 2006 and “go
                                                                                     live’ in FY 2007, pending funding
                                                                                     availability.

     B.   Agency-wide Financial Information                  2000         2007       See above
          Classification Structure


     C.   Security                                           1999                    See Section V. in the Material
                                                                                     Weaknesses Milestones for
                                                                                     Corrective Action.


VI. Federal Accounting Standards                             2000         2004       The FCC performs an accrual to               Completed
     A. Accounts Payable Recognition Point                                           recognize these costs at the close of
                                                                                     any financial reporting period.

                                                             2000         2006       Define units of output and modify            Planning
     B.   Generation of Costs per Unit                                               BEAMS to account at that level
                                                                                     (Target: 06/30/06)




          PERFORMANCE AND ACCOUNTABILITY REPORT                                                                              25
                 Non-Conformances                                     Targeted
                                                          FY First
(Identified in the FY 2004 Financial Statement Audit                  Corrective   Milestones for Corrective Action            Status
                                                         Identified
 Report on Compliance with Laws and Regulations)                       Action
                                                           2000         2006       Develop a methodology for                   Planning
     C.   Matching Revenues to Costs.                                              allocating revenues on the basis of
                                                                                   cost incurred.
                                                                                   Modify BEAMS to implement the          Under Evaluation
                                                                                   methodology.
VII. U.S. Standard General Ledger at Transaction Level
     A. Federal financial system setup and posting         1999                    See response in section V.A. above.        In progress
           models do not fully comply with the
           transaction posting models.
     B. Accounting transactions of the reporting           2000                    See response in section V.A. above.        In progress
           components were not recorded in a manner
           consistent with the account definitions and
           posting models/attributes.




          PERFORMANCE AND ACCOUNTABILITY REPORT                                                                          26
2. Program Performance
The combinations of telecommunications networks and services that the FCC oversees means that
any one item before the Commission touches on more than one of our six strategic goals. Each of
our strategic goals is interrelated and mutually supportive. Internet Protocol – enabled services,
for example, may involve elements of our Broadband, Competition, Media, and Homeland
Security goals, depending on the specific issues involved. The highlights outlined in each of the
strategic goals offer a representation of our achievement and may additionally provide support for
our other strategic goals. In an effort to reduce repetition, we have placed the agency’s
accomplishments under the goals where their impact is most pronounced, but that does not mean
their effects are isolated to that goal. Indeed, any one accomplishment may be directly relevant to
our progress in achieving other goals as well.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                        27
This Page Is Intentionally Left Blank




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005   28
BROADBAND
Strategic Goal:
Establish regulatory policies that promote competition, innovation, and investment in
broadband services and facilities while monitoring progress toward the deployment of
broadband services in the United States and abroad.

Americans increasingly rely on broadband for local and global communications, as well as access
to information, commerce, education, and entertainment. Increased public demand for faster,
more robust broadband services and products has led to increased deployment of broadband
technologies and applications, dramatically reducing the cost of exchanging information and
helping to narrow the digital divide. The FCC is committed to encouraging and promoting
broadband deployment and availability across multiple platforms to ensure that access is not a
barrier to adoption of affordable broadband technologies as they become available.

Deployment of developing broadband services that utilize power lines, fiber, and terrestrial and
satellite wireless technologies will enable those outside densely populated areas to affordably
access broadband services.


FY 2005 PERFORMANCE GOALS

    ·   Broaden the deployment technologies across the United States and globally.


FY 2005 PERFORMANCE HIGHLIGHTS

        •       Video Relay Service (VRS) – The agency established market-based
                reimbursement rates for two broadband related Internet-based forms of
                Telecommunications Relay Service (TRS): VRS and Internet Protocol (IP)
                Relay. The FCC also adopted rules to improve VRS speed-of-answer
                requirements and approved a new type of TRS service, Video Relay Email. In
                addition, the agency adopted an order concluding that Spanish translation VRS –
                i.e., relay service in which the Communications Assistant (CA) translates what is
                signed in American Sign Language (ASL) into spoken Spanish, and vice versa –
                is a form of TRS compensable from the Interstate TRS Fund.

        •       Consumer Outreach and Education – Through presentations, the FCC’s website,
                and publications, the FCC provided information on the benefits of broadband for
                economic development, telemedicine, distance learning, e-government, homeland
                security and emergency services, IP telephony, and access to news, information,
                and entertainment. Through the FCC’s Consumer Center, the agency responded
                to consumer inquiries and resolved informal complaints related to broadband
                services and providers.      Through the Consumer Advisory Committee’s
                Broadband/DTV working group, FCC staff addressed broadband-related issues
                including E911, universal service, homeland security, and broadband access for
                people with disabilities.

PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                      29
      •     Rural Health Care – The FCC adopted rules to fund the provision of advanced
            telecommunications and information services to rural health care providers in
            states that are "entirely rural" and that would not otherwise receive funding for
            telecommunications services under the program.

      •     Schools and Libraries – The agency initiated a rulemaking to strengthen existing
            efforts to protect the Universal Service program that supports broadband in
            schools and libraries from waste, fraud, and abuse.

      •     Broadband Reporting – The FCC adopted rules to revise the information
            collected about broadband by removing reporting thresholds and adding five
            speed tiers to the high speed data and advanced services reporting. The agency
            also provided data to the Organization for Economic Development and
            Cooperation (OECD) and the International Telecommunication Union (ITU) on
            U.S. broadband deployment.

      •     Ultra-wideband Technology – The FCC participated in international meetings of
            the ITU group developing global standards for implementation of ultra-wideband
            technology, which can expect speeds exceeding the high speed minimum by over
            1000 times (excess of 200 megabits per second). Agency staff also presented a
            paper at an international meeting of the ITU-R (ITU Radiocommunication) Task
            Group to further understanding of how ultra-wideband can be appropriately
            implemented.

      •     Broadband Infrastructure Deployment – The FCC granted petitions by the
            regional Bell Operating Companies (BOCs) seeking forbearance from applying
            the unbundling obligations listed in section 271 of the Telecommunications Act
            of 1996 for fiber-to-the-home (FTTH) loops, fiber-to-the-curb (FTTC) loops, the
            packetized functionality of hybrid copper-fiber loops, and packet switching
            (which allows carriers to provide broadband services over fiber networks). The
            agency also removed additional roadblocks to broadband deployment in
            residential neighborhoods by concluding that FTTC loops are subject to the same
            unbundling framework established for FTTH loops. The agency clarified that
            incumbent Local Exchange Carriers (LECs) are not required to add time division
            multiplexing (TDM) capabilities into new packetized transmission facilities.
            Further, the FCC determined that a state commission may not require an
            incumbent LEC to provide digital subscriber line (DSL) service to an end user
            customer over the same unbundled network element (UNE) loop facility that a
            competitive LEC uses to provide voice services to that end user.

      •     E911 – The agency adopted rules that require interconnected Voice-over Internet
            Protocol (VoIP) service providers to deliver 911 calls for all customers and
            provide emergency operators with the call back number and location information
            of their customers. The agency initiated a rulemaking to address the requirements
            needed to ensure that providers of VoIP services that connect with the nation’s
            PSTN provide ubiquitous and reliable E911 service.

      •     Earth Stations on Vessels (ESVs) – The FCC adopted rules for sharing spectrum
            in the C-band and Ku-band between ESVs and terrestrial systems to provide


PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                  30
            broadband and other two-way services to consumers and businesses on ocean
            liners and other ships.

      •     Wireless Broadband Spectrum Allocation – The FCC adopted rules to open
            access to 50 MHz of spectrum for wireless broadband in the 3650-3700 MHz
            band. The agency modified the band plan and licensing and service rules for the
            90 MHz of Advanced Wireless Service (AWS) spectrum at 1710-1755 MHz and
            2110-2155 MHz. The agency also adopted service and licensing rules for the 4.9
            GHz band to accommodate a wide variety of broadband wireless applications in
            support of public safety, including, for example, wireless local area networks for
            incident scene management, dispatch operations, and vehicular operations. In
            addition, the agency revised the band plan and rules governing the 4 MHz of
            spectrum in the 800 MHz commercial Air-Ground Radiotelephone Service band
            to facilitate the provision of new wideband data services and other related
            services, including emergency communications to commercial aircraft.

      •     Aeronautical Mobile Satellite Service (AMSS) – The FCC initiated a rulemaking
            to establish a regulatory framework for licensing the operation of AMSS systems,
            which can be used to provide broadband telecommunications services on
            passenger and government/private aircraft. The FCC concurrently authorized the
            provision of broadband data communications on commercial airlines, corporate
            jets and smaller aircraft in the U.S. and over U.S. territorial waters.

      •     Licensing – The agency adopted streamlined procedure for licensing “non-
            routine” earth station applications, most often used or satellite-based broadband
            Internet access service.

      •     Satellite Authorizations – The FCC issued seven licenses to four satellite
            providers (EchoStar, DirecTV, SkyTerra, Skybridge) to provide new broadband
            services in the U.S. The agency also approved orbital relocations for 13 satellites
            to allow adjustments to meet consumer needs, including deployment of
            broadband technology.

      •     International Leadership – The FCC provided technical and policy expertise to
            U.S. Delegations for meetings at the ITU and Inter-American
            Telecommunication Commission (CITEL) on U.S. regulatory policies and rules
            for IP-enabled services and regulation of standards for next generation networks.
            Agency representatives met with regulators in Mexico to discuss how to enhance
            deployment of broadband services in rural areas, and made presentations to
            delegations from Peru, France/Algeria, Japan, China, Colombia, Ghana, and
            Germany on various topics, including regulatory convergence, broadband policy,
            and wireless broadband access. The agency also provided data to the OECD and
            the ITU on U.S. broadband deployment.

      •     International Forum Participation – Agency representatives gave presentations on
            FCC broadband policy at a global forum in Malmo, Sweden and at the U.S. -
            Japan Broadband Conference in Tokyo, Japan. The agency also participated in
            the ITU’s Global Symposium for Regulators in Geneva, Switzerland, which
            focused on identifying best practices to facilitate access to broadband and
            Internet connectivity.     Agency representatives participated in the ITU
            Telecommunications Standardization Assembly (WTSA) to promote the use of

PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                    31
            international standards for telecommunications equipment and services,
            particularly standards for new technologies such as Next Generation Networks.

      •     Domestic Forum Participation – The FCC held a satellite forum to discuss the
            mobility and portability of satellite earth stations for providing broadband to rural
            America, and to promote the distribution and use of broadband satellite receivers.
            Agency representatives also presented research on broadband development in the
            U.S. at the University of Florida Conference on Broadband Issues in Gainesville,
            Florida, and gave presentations to industry on a variety of topics related to using
            satellites to implement new broadband services internationally.

      •     Broadband Over Power Lines (BPL) –The agency adopted rules for carrier
            current systems that provide access to broadband services using electric utility
            companies' power lines. BPL will provide broadband services to homes and will
            give consumers a third choice in broadband providers.

      •     Broadband Radio Service (BRS) and Educational Broadband Service (EBS) –
            The FCC adopted rules to provide a less complicated and more flexible structure
            for geographic licensing in the 2.5 GHz band to allow licensees to add facilities
            for BRS and EBS without prior Commission approval.

      •     Wireless Broadband Access Task Force – The agency released a report
            identifying actions the Commission could take to facilitate deployment of
            wireless broadband services.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                      32
FY 2005 PERFORMANCE INDICATORS

Increase the number of high-speed and advanced services lines.

Broadband, also known as                    Number of High Speed and Advanced Lines
advanced
                                    40,000
telecommunications
                                    35,000
capability and advanced
services, currently refers to       30,000




                                  Thousands
services and facilities with        25,000
a    transmission      speed        20,000
greater than 200 kilobits           15,000
per second (kbps). High-            10,000
speed lines deliver services         5,000
at speeds exceeding 200                  0
kbps in at least one                             2001            2002         2003      2004
direction, while advanced                                High-S peed Advanced S ervices
services     lines    deliver
services at speeds exceeding 200 kbps in both directions.

As of December 2004,4 subscribers to high-speed services were present in 95% of the zip codes
in the United States, up 2% from the previous year.5 There were 37.9 million high-speed lines in
service, 6 35.3 million of which were assigned to residential and small business subscribers.7
Advanced services lines increased 23% during the second half of 2004, from 23.5 to 28.9 million
lines.8

Services providers report the presence of high-speed service subscribers in all 50 states, the
District of Columbia, Guam, Puerto Rico, and the Virgin Islands. Relatively large numbers of
high-speed lines in service are found in the most populous states; i.e., California, New York,
Florida, and Texas.9


Increase access to broadband services and devices across multiple platforms

Both high-speed and advanced services lines increased for all categories of service, with dramatic
increases in two categories: asymmetrical digital subscriber line (ADSL) and coaxial cable
connections (cable modem service).



4
  Data on advanced services for Internet access is collected every six months; the latest available data
released from the FCC is from December 2004. The report on High Speed Services for Internet Access:
Status as of           December 31,         2004,   released July 7,        2005,     is available at:
http://www.fcc.gov/Bureaus/Common_Carrier/Reports/FCC-State_Link/IAD/hspd0705.pdf.
5
  Ibid., Chart 10, page 20.
6
  Ibid., Table 1, page 6.
7
  Ibid., Table 3, page 8.
8
  Ibid., Table 2, page 7. 26.4 million of these advanced services lines were assigned to residential and
small business subscribers. Ibid., Table 4, page 9.
9
  Ibid., Table 7, page 14. The number of high-speed lines in these states were 5.4 million, 2.8 million, 2.7
million, and 2.6 million, respectively.

PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                33
     •           ADSL high-speed lines increased by 45%, to 13.8 million lines, while high-speed cable
                 modem service lines increased by 30% to 21.4 million lines.10

     •           ADSL advanced services lines increased by 88% to 5.7 million lines, while cable modem
                 advanced service lines increased by 36% to 20.9 million lines.11




                     Advanced Lines Across Multiple Platforms
                 30,000

                 25,000

                 20,000
     Thousands




                 15,000

                 10,000

                  5,000

                     0
                            2001            2002                  2003                2004
                      Advanced S ervices   ADS L                         Other Wireline
                      Cable Modem          Fiber                         S atellite




Significant progress is also                                     High Speed Lines Across Various Platforms
being made in the deployment                            40,000
of mobile broadband                                     35,000
technologies. Several mobile
                                            Thousands




wireless carriers are deploying                         30,000
high-speed mobile Internet                              25,000
access services for cell phones,
PDAs, laptops, and other                                20,000
wireless devices using CDMA,                            15,000
EV-DO, and WCDMA                                        10,000
technologies. EV-DO
increases maximum data                                   5,000
transfer speeds to 2 Mbps, and                              0
typical user-experienced                                            2001                2002   2003             2004
download speeds range from
300-500 kbps. WCDMA                                       High-S peed                 ADS L       Other Wireline

10                                                        Cable Modem                 Fiber       S atellite
   Ibid., Table 1, page 6.
11
   Ibid., Table 2, page 7.

PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                   34
allows maximum downstream data speeds of up to 2 Mbps, and typical speeds of 220-320 kbps.
Mobile data and entertainment services using these network technologies are currently offered in
41 cities across the U.S.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                      35
This Page Is Intentionally Left Blank




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005   36
COMPETITION
Strategic Goal:
Support the Nation’s economy by ensuring that there is a comprehensive and sound
competitive framework for communications services. Such a framework should foster
innovation and offer consumers meaningful choice in services. Such a pro-competitive
framework should be promoted domestically and overseas.

The communications industry is critically important to our national and global economy.
Encouraging competitive forces in markets for communications services has long been a central
FCC goal to improve the quality and variety of services and to reduce prices. Indeed, the stated
purpose of the Telecommunications Act of 1996, amending portions of the Communications Act,
was “[t]o promote competition and reduce regulation in order to secure lower prices and higher
quality services for American telecommunications consumers and encourage the rapid
deployment of new telecommunications technologies.”


FY 2005 PERFORMANCE GOALS

    ·   Ensure American consumers can choose among multiple reliable and affordable means of
        communications.

    ·   Ensure that all American consumers have and retain wireless and wireline phone
        services.

    ·   Create and maintain a dialogue with regulators around the globe to foster and sustain the
        creation of pro-competitive foreign and domestic markets.

    ·   Create and maintain a dialogue with American consumers so that they are informed about
        their rights, choices, and responsibilities, and ensure these rights through strong
        enforcement.


FY 2005 PERFORMANCE HIGHLIGHTS

        ·       Local Competition – The FCC made a series of related decisions on incumbent
                local exchange carrier obligations to unbundle network elements to competing
                carriers. The agency extended to fiber-to-the-curb loops the same 251(c)
                network element unbundling rules that apply to fiber-to-the-home loops to
                encourage deployment of advanced services networks. The agency did not
                require unbundling of broadband elements under the separate network element
                unbundling provisions in section 271 of the Act, and finalized section 251(c)
                network element unbundling rules that had previously been vacated by the courts.
                The agency also determined that the broadband loop unbundling rules,
                established in the Triennial Review Order, do not permit states to require
                incumbent local exchange companies to provide xDSL services to competitive
                LEC voice customers over the same loop facility.

PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                      37
      ·     International Competition – The FCC issued 457 Section 214 authorizations,
            which authorize providers of international telecommunications services. The
            agency also issued a Notice of Inquiry seeking comment on the effect of foreign
            mobile termination rates on U.S. customers, and issued a Notice of Inquiry
            seeking comment on how it can better protect consumers from the effects of
            foreign carriers’ anticompetitive conduct.

      ·     Satellite Competition – The agency issued its sixth Orbit Act Report to Congress,
            which requires the Commission to report annually on its progress in meeting the
            Orbit Act’s objectives. The agency also released two decisions that found that
            Intelsat and Inmarsat met the Orbit Act’s requirements by certifying that certain
            interests held by Signatories and intergovernmental organizations are consistent
            with the requirements specified in the Orbit Act as an alternative to having to
            hold an Initial Public Offering.

      ·     Competition for Multichannel Video Programming – The FCC adopted rules
            defining the eligibility for DBS providers to hold a license for the 61.5 East
            orbital location, in order to encourage new entrants into the DBS market.

      ·     Intercarrier Compensation – The agency issued a Further Notice of Proposed
            Rulemaking seeking comment on how to reform the system of payments between
            carriers for the origination and/or termination of communications traffic. The
            agency also amended its rules on a prospective basis to prohibit the use of tariffs
            to impose intercarrier compensation obligations with respect to non-access
            CMRS traffic.

      ·     Toll Calling Competition – The FCC adopted an Order revising its policies for
            the charges that carriers are permitted to charge end-users for changing their
            interLATA and intraLATA toll carriers, in order to account for differences
            between manually processed and electronically processed requests.

      ·     Special Access – The agency initiated a Notice of Proposed Rulemaking seeking
            comment on incumbent LEC special access service pricing.

      ·     CAN-SPAM Rules for Wireless Services Providers – The FCC completed a
            collection of wireless domain names from Commercial Mobile Radio Service
            providers and published on the Commission’s web site the wireless domain name
            list, triggering compliance obligations for its “CAN-SPAM” rules prohibiting the
            sending of commercial electronic mail messages to wireless devices without the
            recipient’s express prior authorization. The agency continues to work with
            senders of commercial electronic mail messages to wireless devices and CMRS
            providers to ensure the list is accurate, up-to date, and includes only domain
            names used for sending messages to wireless devices. The agency amended the
            Commission’s “CAN-SPAM” rules to reflect the Federal Trade Commission’s
            newly adopted definitions of commercial electronic mail and transactional or
            relationship messages; these definitions are incorporated by reference in
            Commission rules, to reflect any further FTC revisions.

      ·     Truth-in-Billing for Wireless Carriers – The agency required mobile wireless

PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                    38
            carriers to provide consumer bills according to the Commission’s Truth-in-
            Billing rules, requiring that billing descriptions be brief, clear, non-misleading
            and in plain language. The agency reiterated that it is misleading to represent
            discretionary line item charges in any manner that suggests such line items are
            taxes or charges required by the government and adopted a Further Notice of
            Proposed Rulemaking to further examine this and other related issues.

      ·     Do-Not-Call Rules – The Commission addressed several issues related to its do-
            not-call registry rules on reconsideration. The agency clarified that bill messages
            satisfy the requirement that common carriers provide an annual notice to
            subscribers of the opportunity to register with the national do-not-call list, and
            clarified the “established business relationship” exemption and the rules on
            maintaining company-specific do-not-call lists.

      ·     Changing Carriers – The FCC adopted new rules to facilitate the exchange of
            customer account information between LECs and IXCs and to establish carriers’
            responsibilities with respect to such exchanges to help ensure that consumers’
            phone service bills are accurate and that their carrier selection requests are
            honored and executed without undue delay. The rules specify a number of
            situations in which carriers must share customer information with each other.

      ·     Local Number Portability – The FCC continued implementation and enforcement
            of local number portability requirements, which have enabled millions of
            consumers to “port” a phone number when switching carriers at the same
            location, and which have stimulated competition among carriers based on price,
            service quality, and innovative service offerings.

      ·     Wireless Competition – The FCC reviewed several mergers among major
            wireless carriers (AWS/Cingular, Alltel/Western, and Sprint/Nextel) to ensure
            that the transactions were in the public interest. Where necessary, the agency
            imposed specific conditions on the parties or required divesture of particular
            markets to ensure that the mergers would not hinder competition. The agency
            also continued to promote wireless competition by making additional spectrum
            available in the marketplace for new wireless services and new competitive
            entrants.

      ·     Competitive Bidding Rules – The FCC issued an order revising the
            Commission’s competitive bidding rules to enhance bidding opportunities for
            rural telephone cooperatives.

      ·     Universal Service – The Commission issued several rulemaking proceedings to
            improve the administration of the Universal Service Fund. Among other actions,
            the Commission:

            Ø issued an Order detailing additional requirements for obtaining and
              maintaining Eligible Telecommunications Carrier status;

            Ø released a Notice of Proposed Rulemaking to examine comprehensively how
              the various universal service programs are administered; and



PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                    39
            Ø adopted an Order that expanded the universal service rural healthcare
              program to bring up-to-date medical services and information to rural areas
              through telecommunications.

      ·     Disability Access – The FCC undertook several actions to improve access to
            communications services for persons with hearing and speech disabilities. The
            Commission:

            Ø issued a Notice of Proposed Rulemaking seeking comment on the
              Commission’s closed captioning rules to ensure video programming is
              accessible to deaf and hard of hearing Americans, and whether any revisions
              should be made to enhance the rules’ effectiveness; sought comment on
              several compliance and quality issues relating to closed captioning;

            Ø clarified that two-line captioned telephone service is a type of TRS eligible
              for compensation from the Interstate TRS Fund and granted a proposed
              allocation methodology for determining the number of inbound two-line
              captioned telephone minutes that should be compensated from the Interstate
              TRS Fund;

            Ø adopted rules moving VRS closer to the goal of providing deaf and hard of
              hearing people functionally equivalent access to the nation’s telephone
              system, by establishing mandatory speed of answer requirements for VRS,
              requiring VRS to be offered 24 hours a day, seven days a week, and
              permitting VRS providers to be compensated for providing VRS Mail; also
              concluded that Spanish translation VRS – in which the communications
              assistant translates what is signed in American Sign Language into spoken
              Spanish, and vice versa – is a form of TRS compensable from the Interstate
              TRS fund.

            Ø reaffirmed the timetable for developing and selling digital wireless
              telephones that are compatible with hearing aids and sought comment on
              whether additional rule changes are necessary to ensure that people with
              hearing loss have reasonable access to digital wireless technologies.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                40
FY 2005 PERFORMANCE INDICATORS

Increase the number of consumers and businesses who have a choice among wireless
and wireline service providers


This chart reflects a                Percentage of Population with Three or
steady increase in the
percentage of U.S.
                                                        More Providers
                                100%
consumers that can
                                 90%
choose between
multiple wireline and            80%
wireless service                 70%
                           Percentage


providers.                       60%
Specifically, the                50%
percentage of U.S.               40%
households living in             30%
zip codes served by              20%
three or more wireline           10%
local exchange
                                  0%
carriers has climbed
                                          2000          2001          2002          2003         2004
from 67% in 2000 to
                                       % of Households in Zip Codes with 3 or More CLECs
87% in 2004.
                                       % of U.S . Population in a County with 3 or More Wireless Carriers
Similarly, the
percentage of the U.S. population living in counties served by three or more wireless carriers has
climbed from 91% in 2000 to 97% in 2004.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                             41
Increase the percentage of households with competing providers for multichannel
video programming and information services



                  MVPD Subscribers as a Percentage of TV
                              Households                                            As of June
                                                                                    2004, 85.1%
                                                                                    of the 108.4
       100%                                                                         million total
        90%                                                           100           television
        80%                                                                         households
                                                                      80            subscribed to
        70%                                                                         a
                                                                                    multichannel
     Percentage




        60%




                                                                           Millions
                                                                      60            video
        50%
                                                                                    programming
        40%                                                                         distribution
                                                                      40
        30%                                                                         service; 61%
        20%
                                                                                    of all TV
                                                                      20            households
        10%                                                                         were cable
         0%                                                           0             subscribers;
                  2001          2002          2003         2004                     21% were
                                                                                    direct
        Cable Subscribers       DBS Subscribers                                     broadcast
        Other                   TV Households:                                      satellite
                                                                                    subscribers;
and 2.8% subscribed to other MVPD services. Non-cable MVPD subscribers grew from 22.3
million in June 2003 to 26.2 million in June 2004, an increase of 17.7%.12 As the chart shows,
this growth continues a trend of consumers subscribing to non-cable MVPD services. We believe
an increasingly competitive MVPD market has provided consumers with increased choice, better
and higher quality services and technical innovation.

Lower relative price for wireless and wireline services

The consumer price for telephone services has declined over the last seven years when compared
to the price of other goods and services. The chart below uses data obtained from the Bureau of
Labor Statistics to compare the Consumer Price Index (CPI) for Telephone Services with the CPI
for all goods and services, using 1997 price levels as the base (equal to 100). The Telephone
Services included in this index include Local Telephone Service, Long Distance Charges,
Interstate Toll Service, Intrastate Toll Service, and Wireless Telephone Services. In contrast to a
20% increase in the CPI for all goods and services (from 100.2 to 120.6), the Telephone service
price index has declined by 5% (99.9 to 94.6) over the past seven years (January 1998 to June
2005).


12
   “Eleventh Annual Report on the Status of Competition in the Market for the Delivery of Video
Programming,” can be found at: http://hraunfoss.fcc.gov/edocs_public/attachmatch/FCC-05-13A.doc,
Table B-1, page 115.

PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                        42
                                      Consumer Price Indices

                         125

                         120                                   All Good and Services
                                                                        20.77%
                         115
 CPI (Dec. 1997 = 100)




                         110

                         105                                                   Telephone Services
                                                                                          -5.60%
                         100

                          95

                          90
             S e -98




             S e -99




             S e -00




             S e -01




             S e -02




             S e -03




             S e -04




                    05
             D e 98




             D e 99




             D 00




             D 01




             D 02




             D 03




             D 04
             J u -9 8




             J u -9 9




             J u -0 0




             J u -0 1




             J u -0 2




             J u -0 3




             J u -0 4




             J u -0 5
               ar 7



             M c -98




             M c -99




             M c -00




             M c -01




             M c -02




             M c -03




             M c -04
             M c -9




                 n-
                 p-




                 p-




                 p-




                 p-




                 p-




                 p-




                 p-
                 n




                 n




                 n




                 n




                 n




                 n




                 n
               ar




               ar




               ar




               ar




               ar




               ar




               ar
             De




               e




               e




               e




               e




               e
The consumer price
for telephone
services has declined
over the last six              AVERAGE PRICE PER WIRELESS MINUTES OF USE PER MONTH 2000 TO 2004
years. The average
price of wireless                              584 Minutes
telephone calls has                              in 2004

fallen over this
period as well. As
illustrated by the
                                                UP
accompanying chart,
the average price per                          129%                      Price
wireless minutes of                            255 Minutes
                                                                      per Minute
                                                 in 2000
use per month for
                                                                        18¢ in 2000
mobile telephone
                                            Minutes of Use
service, including
                                             per Month
                                                                         50%
both individual and
business users, has                                                  DOWN9¢ in 2004
fallen over the past
four years, down to
nine cents per
minute in 2004.



PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                      43
Decrease the price for international calls

 Price Per Minute for An International Call
                                                           The average
        $0.51                                              international calling
                                                           rate to U.S.
                  $0.43                                    consumers fell from
                                                           27¢ per minute in
                           $0.33                           2002 to 20¢ per
                                    $0.27                  minute in 2003.

                                             $0.20




        1999     2000     2001     2002      2003




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                      44
SPECTRUM
Strategic Goal:
Encourage the highest and best use of spectrum domestically and internationally in order to
encourage the growth and rapid deployment of innovative and efficient communications
technologies and services.

The Commission is committed to fostering the rapid deployment of innovative and efficient radio
communications technologies and services. Emerging wireless technologies could be used to
provide ubiquitous, mobile broadband connections; encourage intermodal competition; and
promote public safety and homeland security. The promise of such services, however, is
dependent on the availability of spectrum. Because there is growing demand for rival uses of
spectrum, creating a policy environment that effectively distributes and manages available
spectrum is a critically important strategic objective for the FCC.


FY 2005 PERFORMANCE GOALS

   ·   Ensure that spectrum is used efficiently and effectively.

   ·   Facilitate domestic and international deployment of new spectrum-based technologies
       and services.

   ·   Generally shift from rigid to flexible policy models.

   ·   Promote ease of access to spectrum by more users.


FY 2005 PERFORMANCE HIGHLIGHTS

       •       Spectrum for Advanced Wireless Services – The FCC took steps to allocate and
               establish service rules for 110 megahertz of spectrum that can be used for
               flexible AWS, including mobile broadband technologies. This spectrum includes
               90 megahertz at 1710-1755 MHz and 2110-2155 MHz that is slated for auction
               and licensing in 2006 and other blocks of spectrum in the 1.9 and 2.1 GHz bands.

       •       Reallocation of Spectrum from Federal Government to Commercial Use – The
               agency initiated a rulemaking to implement the CSEA, which allows spectrum
               auction proceeds to fund the relocation of federal government users in spectrum
               that has been reallocated to commercial use. Implementation of CSEA will
               facilitate the planned licensing of 90 MHz of AWS spectrum in 2006 and
               expedite the availability of spectrum for new wireless services.

       •       Cognitive “Smart” Radios – The FCC adopted rules addressing cognitive, or
               “smart,” radio technologies that will allow a radio device to adapt its spectrum
               use in response to its operating environment to implement access to spectrum and
               efficiency of spectrum use.


PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                    45
      •     Secondary Markets – The Commission streamlined approval of license transfers,
            assignments, and spectrum leasing agreements in commercial services. It also
            implemented rules allowing licensees to make spectrum available to third-party
            users on a “private commons” basis. These mechanisms reduce regulatory
            barriers to spectrum access and help ensure that spectrum is available to entities
            most likely to use it efficiently and effectively.

      •     3650 MHz Band – The FCC established rules that provide for nationwide,
            nonexclusive licensing of terrestrial operations in the 3650-3700 MHz band
            (3650 MHz) utilizing technology with a contention-based protocol. Allowing
            such operation with minimal regulatory entry requirements will encourage
            multiple entrants and stimulate the rapid expansion of wireless broadband
            services, especially in rural America, and will also protect incumbent satellite
            earth stations from harmful interference.

      •     Aeronautical Mobile Satellite Service – The agency sought comment on a
            regulatory framework for licensing the operation of Aeronautical Mobile Satellite
            Service systems to communicate with Fixes Satellite Service networks in the Ku-
            Band. This proceeding could result in more flexible use of the Ku-Band while
            protecting existing terrestrial and satellite services from harmful interference.

      •     Additional Spectrum Regulatory Reform – The FCC adopted new rules to reform
            existing spectrum bands, provide more flexibility to spectrum users, and facilitate
            deployment of new and innovative spectrum-based services in a variety of other
            proceedings throughout FY 2005. For example, the Commission adopted a new
            band plan and flexible rules for the Broadband Radio Service and Educational
            Broadband Service in the 2.5 GHz band; created a new band plan for broadband
            air-ground service; initiated a rulemaking to expand geographic areas licensing in
            the 900 MHz band; and refined the regulatory framework for commercial users to
            access the 70, 80, and 90 GHz bands.

      •     Digital Television Receiver Proceeding – The agency accelerated the schedule
            for implementing the requirement that all new television receivers be capable of
            receiving over-the-air broadcast DTV signals, advancing the date on which 25-
            36” medium-size TV sets must include a DTV tuner from July 1, 2007 to March
            1, 2007. The agency also sought comment on a proposal to advance the date by
            which 13-25” small-size TV sets must comply with the DTV tuner requirement.
            These actions are important to promote the expeditious completion of the DTV
            transition, and the recovery of 700 MHz spectrum.

      •     Narrowbanding – The FCC continued its efforts to promote spectrum efficiency
            in the Private Land Mobile Radio (PLMR) bands by adopting re-channelization
            plans and establishing procedures for licensees to transition to the new narrower,
            more spectrally efficient channels within the existing spectrum – a process
            commonly known as “narrowbanding.” The agency adopted narrowbanding
            procedures in March for 40 PLMR channels that are located in frequency bands
            allocated primarily for Federal use and for which the National
            Telecommunications and Information Administration had previously set
            narrowbanding deadlines for such Federal operations.


PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                    46
      •     New Technology Projects – The agency completed several leading edge
            technology projects that resulted in first-time authorizations for technology using
            Software Defined Radios, Hearing Aid Compatibility compliance, and new ultra-
            wideband technologies for communications devices. The agency also conducted
            extensive testing of new technologies in the Commission’s laboratory to support
            rule-making activities. These tests included investigations of the new ultra-
            wideband devices, Broadband over Powerline implementations, and DTV tuner
            evaluations.

      •     Ancillary Terrestrial Component – The FCC affirmed its 2003 decision to permit
            Mobile Satellite Service providers in three frequency bands to provide an
            ancillary terrestrial component (ATC) to their satellite systems. The agency also
            granted a first-time authorization for ATC operation, which should allow the
            licensee to offer high quality, affordable mobile services to users inside buildings
            and in urban areas, as well as ubiquitous coverage in rural areas.

      •     Equipment Authorization – In conjunction with the Telecommunications
            Certification Bodies (TCBs), the FCC issued 6807 Equipment Authorization
            Grants during FY 2005 (as of August 8, 2005). The agency closely monitored
            and oversaw the TCBs, which included giving TCBs extensive guidance through
            workshops, training material, monthly conference calls and web-based tools for
            rapid interpretation of technical requirements.         The agency handled
            approximately 2000 inquiries from TCBs during the year.

      •     Satellite Licensing Streamlining – The FCC adopted streamlined “non-routine”
            earth station applications, most often used for satellite-based broadband Internet
            access services.

      •     Broadband over Power Line (BPL) – The agency adopted rules for carrier current
            systems that provide access to broadband services using electric utility
            companies’ power lines. These rules will ensure that BPL can provide broadband
            services to homes while avoiding harmful interference to other spectrum users.

      •     Ultra-wideband Transmission Systems (UWB) – The FCC adopted an order
            modifying the rules for ultra-wideband radio systems to be operated on an
            unlicensed basis in existing frequency bands. UWB technology can be used for a
            wide variety of new applications, including imaging systems, vehicle radars,
            location devices, security systems, and high-speed, short-range data and video
            communications products.

      •     Interference/Cross-Border Programming – The agency issued a Notice of
            Apparent Liability (NAL) proposing a $25,000 forfeiture against Uniradio
            Corporation for providing program material from a studio located in the U.S. to a
            Mexican AM broadcast station in willful and repeated violation of the terms and
            conditions of its authorization. The operations of the Mexican AM station had
            not been coordinated with and approved by the International Bureau in
            accordance with the applicable U.S.-Mexico treaty and caused harmful
            interference to licensed U.S. broadcast stations.

      •     Enforcement of Equipment Marketing Rules – The agency also issued an NAL
            proposing a $75,000 forfeiture against ACR Electronics, Inc. for marketing

PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                     47
            unauthorized radio frequency equipment (personal locator beacons). The agency
            also adopted a consent decree terminating an NAL proceeding initiated against
            Samson Technologies, Inc. for importing and marketing radio frequency
            equipment (multi-track music recording devices) that did not comply with the
            FCC’s technical standards. Under the consent decree, Samson agreed to
            implement a compliance plan to ensure future compliance with the equipment
            marketing rules and to make a $26,500 voluntary contribution to the Treasury.

      •     Technical Standards for Satellite Delivered Network Signals – The FCC initiated
            a Notice of Inquiry regarding the need for establishing a digital signal strength
            standard and testing procedures used to determine whether households are
            eligible to receive distant broadcast DTV network signals from satellite
            communications providers. This proceeding will culminate in a report to
            Congress in December 2005.

      •     ITU Ultra-Wideband Task Group – In May 2005, the agency organized an
            international meeting of the ITU Ultra-Wideband (UWB) Task Group (TG 1/8).
            Approximately 150 delegates from 35 countries progressed work on standards
            related to UWB characteristics, measurements, compatibility with other services,
            and regulatory issues.

      •     World Radiocommunication Conference proceedings – The agency implemented
            decisions from the World Radiocommunication Conference (Geneva, 2003)
            (WRC-03) that affected operations in the frequency bands between 5900 kHz and
            27.5 GHz. This action allowed the Commission to conform its rules, to the
            extent practical, to the decisions the international community made at WRC-03 to
            promote new and expanded services and provide significant benefits to the
            American public. Implementation of WRC-03 matters via this decision, and in
            conjunction with prior orders that addressed other discrete WRC-03 matters,
            permits the Commission to prepare for the upcoming WRC-07 World
            Radiocommunication Conference.

      •     Mutual Recognition Agreements – The FCC made progress in its effort to expand
            deregulation of equipment authorization program through Government to
            Government Mutual Recognition Agreements. This year the work involved
            negotiations with the governments of Japan, Korea, Singapore and Hong Kong.
            This effort is a partnership with the U.S. Trade Representative.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                  48
                          FY 2005 PERFORMANCE INDICATORS

                          Increase the number of subscribers to new services that make efficient use of spectrum

                                                                                                                               This chart
                                                                                                                               demonstrates
                     Satellite Digital Audio Radio Service Subscribers                                                         subscriber growth
                                                                                                                               in the SDARS
                                                                                                                               from the fourth
                     7,000,000
                                                                                                                               quarter of 2002 to
                     6,000,000                                                                                                 the second quarter
                                                                                                                               of 2005. Since
                     5,000,000                                                                                                 October 2004, the
Subscribers




                     4,000,000
                                                                                                                               number of SDARS
                                                                                                                               subscribers has
                     3,000,000                                                                                                 almost doubled,
                                                                                                                               increasing from
                     2,000,000
                                                                                                                               3,162,289
                     1,000,000                                                                                                 subscribers at the
                                                                                                                               beginning of
                              0                                                                                                October 2004 to
                                     4th Quarter               2nd Quarter        2nd Quarter    2nd Quarter                   6,214,626
                                        2002                      2003               2004           2005                       subscribers at the
                                                                                                                               end of June 2005.
                                                                         XM       Sirius

                                              Wi-Fi Revenue and Unit Sales
                                                                    (2001-2004)

                     60           World-wide Wi-Fi Hardware Units                                               $5,000
                                  US Infrastructure Revenue
                                                                                                    Sales of new
                                                                                                $4,350          $4,500
                     50                                                                             equipment can also
                                                                                                         49.9
                                                                                            $4,000
                                                                   43.1
                                                                                                    indicate an increase in
                     40
                                                                                            $3,500
                                                                                                    the number of
                                                                                                                    Millions




                                                                 $3,300
                                                                                                    subscribers to new
          Millions




                                                                                            $3,000

                     30                                                                     $2,500
                                                                                                    services that make
                                                $2,250
                                                                                                    efficient use of
                                $1,500             18.4
                                                                                            $2,000
                                                                                                    spectrum. Wi-Fi
                     20
                                                                                            $1,500  hardware unit sales
                                  9.6                                                       $1,000
                                                                                                    increased by 420%
                     10
                                                                                                    from 9.6 million in
                                                                                            $500
                                                                                                    2001 to 49.9 million
                      0                                                                     $0      in 2004. Wi-Fi
                                 2001             2002            2003            2004
                                                                                                    hardware revenue
                                                                                                    increased by 121%
                          from $1,800 million in 2001 to $3,977 million in 2004. US Wi-Fi infrastructure revenue
                          increased by 190% from $1,500 million in 2001 to $4,350 million in 2004 based on the following
                          yearly amounts: 2001 - $1,500 million; 2002 - $2,250 million; 2003 - $3,300 million; 2004 -
                          $4,350 million.



                          PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                             49
Increase the deployment of Third-Generation wireless networks.

Wireless carriers have begun to
deploy Advanced Wireless                                              Advanced Wireless Services Deployment in the
Services (AWS) technologies that                                                     United States
provide high-speed data to mobile                                    60




                                    Number of U.S. Markets with 3G
users in several major U.S.
markets. This chart shows                                            50
growth in the number of markets
in which AWS technologies have                                       40




                                               Service
been deployed in FY 2005.
                                                                     30

                                                                     20

                                                                     10

                                                                     0
                                                                          Prior to 2005   1st Quarter   2nd Quarter    3rd Quarter
                                                                                              2005         2005           2005




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                              50
           Advance U.S. positions through international negotiations and enforcement of treaties.

           The following tables summarize the results of the Commission’s international negotiations and
           enforcement of treaties related to spectrum during FY 2005:

                                                     International Negotiations
The World Radiocommunication Conferences (WRCs) are assembled every three to four years under the auspices of the
International Telecommunication Union (ITU) and are tasked with revising treaty text in the form of Radio Regulations, which
bind countries once ratified. The next World Radiocommunication Conference is scheduled to convene in 2007. The FCC
participates in WRCs for two main reasons: (1) to secure spectrum allocations that allow for new telecommunications services
to enter the market; and (2) to protect incumbent telecommunication services from interference.
                                            Agenda Items                                               Status
                                      (Major WRC-07 Issues)
2007 World Radiocommunication                The various conference agenda items have          The third, fourth, fifth, sixth and seventh
Conference (WRC-07)                          been initially assigned to the informal           meetings of the FCC Advisory Committee for
                                             working groups as follows:                        WRC-07 were held on November 10, 2004,
The Advisory Committee for WRC-07                                                              February 23, 2004, April 4, 2005, and June 22,
(WAC) has created five informal working                                                        and September 14, 2005, respectively. At these
groups to look at issues on the agenda for                                                     meetings, eleven “draft preliminary views” and
the 2007 World Radiocommunication                                                              seven “draft proposals” were approved
Conference (WRC-07). In preparation for                                                        concerning twelve agenda items. The next
WRC-07, each of the Informal Working                                                           meeting is scheduled for December 9, 2005.
Groups (IWGs) will develop draft
preliminary views and subsequent draft
proposals to be presented to the full                                                          Approved four recommendations – Draft
Advisory Committee for approval.               Terrestrial and Space Science Services          proposals for WRC-07 Agenda Items 1.2, 1.5
                                               (Agenda Items 1.2, 1.3, 1.5, 1.14, 1.16, &      and 1.20 and modifications to NTIA draft
                                               1.20)                                           preliminary views on WRC-07 Agenda Item
                                                                                               1.20. Next meeting is scheduled for early
                                                                                               November.

                                                                                               Approved five recommendations – Draft
                                               Satellite Services including those related to   proposals for WRC-07 Agenda Items 1.6, 1.8,
                                               High Altitude Platform Stations (HAPS)          and 1.18 and 1.19 and modifications to NTIA
                                               (Agenda Items 1.6 (Resolution 415), 1.7,        draft preliminary views on WRC-07 Agenda
                                               1.8, 1.17, 1.18, 1.19, & 1.21)                  Item 1.17. Next meeting is scheduled for
                                                                                               November 30, 2005.


                                                                                               Approved two recommendations – Draft
                                               International Mobile Telephone (IMT-            preliminary views on WRC-07 Agenda Item 1.9
                                               2000)                                           comments on an NTIA draft proposal for WRC-
                                                                                               07 Agenda Item 7.2. Next meeting is scheduled
                                               2.5 GHz (Agenda Items 1.4 & 1.9)                for November 2, 2005.


                                                                                               Approved three recommendations – Draft
                                               Broadcasting and Amateur Services               preliminary views on WRC-07 Agenda Items
                                                (Agenda Items 1.6 (Resolution 414), 1.11,      1.6, 1.11 and 1.13. Next meeting scheduled for
                                               1.13, 1.15, & 7.1 (Recommendation 952)          early November.

                                                                                               Approved five recommendations – Draft
                                               Regulatory Issues (Agenda Items 1.1, 1.0,       preliminary views on WRC-07 Agenda Items
                                               1.12, 2, 3, 5, 6, & 7.1)                        1.1, 1.10 and 1.12, one draft proposal for WRC-
                                                                                               07 Agenda Item 1.6 and modifications to NTIA
                                                                                               draft preliminary views on WRC-07 Agenda
                                                                                               Item 1.12. Next meeting scheduled for October
                                                                                               20, 2005.




           PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                             51
                                            ENFORCEMENT OF TREATIES
                                                                  Enforcement of Treaties
               Treaties                                                                    Status/Outcome
             (Significant)                                            (how U.S. benefited from the outcome of signing the treaty)
              CANADA
     Amendment to Digital             Industry Canada and the FCC completed and signed an amendment to the existing Digital Television Letter of Understanding
     Television LOU permitting        permitting TV channels 63 (764-770 MHz) and 68 (794-800 MHz) to be used for public safety mobile and fixed operations.
     public safety use of TV
     channels 63 and 68

     Sharing Arrangement for          The United States and the Government of Canada also agreed to an new arrangement for sharing, between Industry Canada
     public safety land mobile        and the FCC, the use of 764 to 776 MHz (TV channels 63 and 64) and 794 to 806 MHz (TV channels 68 and 69) for land
     and fixed operations along       mobile and fixed operations along the Canada-United States border. This arrangement was adopted as an amendment to the
     Canada-US border                 1962 United States-Canada Agreement concerning coordination and use of radio frequencies above 30 MHz

                                              Ø These two agreements will facilitate the deployment of public safety systems on TV channels 63 and 68 near the
                                              U.S.-Canada border, providing public safety licensees near the border with much-needed additional spectrum as well
                                              as interference-free operations and interoperability. The Digital TV LOU will need to be further amended before
                                              public safety operations can occur on TV channels 64 and 69.

     SCP between Nextel Comm          Drafted Special Coordination Procedure (SCP – specially negotiated and limited understandings that permit extraordinary
     of U.S. and Telus Mobility       use of the spectrum resource beyond the terms that are generally recognized in existing arrangements and agreements)
     of Canada                        between U.S. and Canadian Enhanced Specialized Mobile Radio Service (ESMR) licensees. This SCP would replace an
                                      existing SCP dated October 26, 2001. The draft revised SCP is awaiting final approval by the parties.
                                               Ø This SCP includes additional channels and corrects the inadvertent omission of the 100-140 km U.S. border zone
                                               in a specific region along the U.S-Canada border. It would improve the efficient use of spectrum and facilitate
                                               operations by ESMR users in the U.S. and Canada.

     New Sharing Arrangement          Currently under negotiation with Canada are modifications to the existing 800 MHz Land Mobile Protocol and the 1.9 GHz
     Covering the 806-890 MHz         Protocol.
     and 1.9 GHz MHz Bands                    Ø The purpose of these negotiations is to eliminate harmful interference to public safety and private land mobile and
                                              fixed systems in the US-Canada border area.




        MEXICO                    New agreements drafted and under active negotiation with Mexico include:
MOU on FM operations              • Memorandum of Understanding between the FCC and the Secretaria de Comunicaciones y Transportes of Mexico (SCT)
near TV Channel 6                 related to the use of FM broadcasting stations on channels 201 through 206 (88.1 – 89.1 MHz) located within proximity to
                                  television broadcast operations on Channel 6 (82-88 MHz) within the area along the common border.
MOU on Low Power TV               • Memorandum of Understanding between the FCC and the SCT on the use of low power television stations on channels 2
and other services in the 700     through 69 (54-72 MHz, 76-88 MHz, 174-216 MHz, 470-806 MHz) within the area along the common border.
MHz band                                   ØThese agreements would permit the authorization of new television and FM stations (educational FM stations in
                                           the U.S.) along the border, while providing appropriate interference protection to existing TV stations

SCP between Nextel Comm           A revised SCP between U.S. and Mexican ESMR licensees was coordinated and jointly accepted by the FCC and
of U.S. and SRM S.A. de           SCT/Mexico.
C.V. and SISCOT S.A. de                   ØThis SCP, which includes additional channels along the U.S-Mexico border, will improve the efficient use of
C.V. of Mexico                            spectrum and facilitate operations by ESMR users in the U.S. and Mexico.

AM Interference                   After numerous discussions, FCC, Department of State, and SCT have reached a multi-tiered resolution for eliminating
                                  interference to U.S. AM stations from unapproved Mexican operations. Operation of the interfering stations has ceased.

                                  Currently under negotiation with Mexico:
Amendment to 800 MHz                      ØModification to the 800 MHz Land Mobile Protocol and 1.9 GHz Protocol. The purpose of these negotiations is
and 1.9 GHz Protocols                     to eliminate harmful interference to public safety and private land mobile and fixed systems in the U.S.-Mexico
                                          border area.
Amendments to Protocol in                 ØModification concerning the Use of the 698-746 and 746-806 MHz Bands for fixed and mobile services along the
the 700 MHz bands                         common border.

U.S. – Mexico High Level          FCC Chairman and staff participated in a meeting in Mexico City of the HLCC.
Consultative Committee on               ØA joint statement was issued from the meeting recognizing the need to coordinate sharing of spectrum in an
Telecommunications                      equitable and expeditious manner to ensure the efficient development and adequate functioning of radio systems
(HLCC)                                  near the border.




                  PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                                     52
MEDIA
Strategic Goal:
Revise media regulations so that media ownership rules promote competition and diversity
in a comprehensive, legally sustainable manner and facilitate the migration to digital modes
of delivery.

The FCC develops and modifies media regulations and policies to address a changing
marketplace. It is a challenging task due to: 1) changing ownership patterns; 2) legal challenges
to FCC rules and policies; 3) converging markets and industries; and 4) increasingly rapid
changes in technologies employed by service providers.

These factors, consistent with statutory directives, have led the FCC to place a high priority on
fully understanding the current media marketplace so that it can appropriately reformulate its
media ownership regulations and competition policies. The FCC will continue to examine
whether current media regulations are achieving statutory policy objectives and will determine
how changes in regulations may affect competition, diversity, and localism.
The transition to digital broadcast technologies ensures that the public is served by an
efficient and competitive set of media services. In addition, the spectrum recovered by
the transition to digital television can be used for other important services, such as public
safety and advanced wireless services. The FCC works to facilitate the timely
development and deployment of digital services.


FY 2005 PERFORMANCE GOALS

    ·   Develop a sound analytic foundation for media ownership rules.

    ·   Facilitate the transition to digital television and radio.

    ·   Clarify and ensure compliance with general media obligations.


FY 2005 PERFORMANCE HIGHLIGHTS

        •       Digital Television Transition – The FCC made progress in transitioning from
                analog to digital television broadcasting. The first round took place in a multi-
                round channel election process that will determine the permanent digital channels
                of the nation’s 1,700 TV stations. To further its efforts to ensure that viewers
                are able to receive over-the-air DTV services, the Commission accelerated the
                date by which all mid-size television receivers must include a DTV tuner and
                proposed an earlier date by which all TV receivers must have DTV tuners.
                Public comment on that proposal is now under review. The agency adopted a
                Second Report and Order in the Carriage of Digital Television Broadcast Signals
                proceeding, which resolved significant issues related to cable carriage of DTV
                broadcast signals. The agency also released a Report and Order addressing the
                obligations of DTV licensees to provide educational programming for children
                and to protect children from excessive and inappropriate commercial messages.

PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                      53
            The Media Bureau issued a report regarding television households that only
            receive broadcast television via over-the-air antenna.

      •     DTV Outreach – The FCC kicked off an education campaign to highlight the
            transition to digital television. This major initiative brought all segments of the
            television industry together to educate the public on the importance of the DTV
            transition and how it will affect them in the coming years.

      •     Plug and Play – The agency adopted a Second Report and Order in the
            Commercial Availability of Navigation Devices proceeding to promote
            competition and assure the commercial availability of cable-ready DTV
            equipment. The order maintained the ban on cable operator deployment of
            integrated set-top boxes, but deferred the effective date by a year, from July 2006
            to July 2007. The order also established detailed reporting requirements for
            cable operators on the development of downloadable software security.

      •     Cable Ownership Rules – The agency issued a Second Further Notice of
            Proposed Rule Making in the Cable Horizontal and Vertical Ownership Limits
            proceeding. The Notice seeks comment on proposals for limiting the reach of a
            single cable operator and channel occupancy limits for affiliated programming.
            It also invites comment on recent industry developments industry.

      •     Low Power FM – The Low Power FM (LPFM) service provides an opportunity
            for noncommercial educational entities and public safety and transportation
            organizations to obtain a broadcast license. The Commission held a forum on
            LPFM to understand the challenges LPFM stations face. The agency also issued
            an Order on Reconsideration modifying rules governing minor changes and
            technical amendments for LPFM stations and sought comment on a number of
            technical and ownership issues related to LPFM.

      •     Satellite Home Viewer Extension and Reauthorization Act of 2004 – SHVERA
            amended copyright laws and the Communications Act to aid the competitiveness
            of satellite carriers and expand program offerings for satellite subscribers.
            SHVERA required the Commission to initiate several rulemakings and one
            Inquiry Report:

            ‫ـ‬   SHVERA provides satellite carriers with the option to offer out-of-market
                stations to subscribers in communities in which the station is or has been
                deemed “significantly viewed” based on over-the-air viewing. The agency
                issued a Notice of Proposed Rule Making and List of Significantly Viewed
                stations and their related communities. The final order and rules will be
                adopted by December 2005, as required by statute.

            ‫ـ‬   The agency established a reciprocal good faith bargaining requirement for
                multi-channel video programming providers to mirror the good faith
                negotiation requirement placed on broadcasters when the parties discuss
                satellite carriage of local broadcast stations. The agency completed the
                rulemaking to implement this requirement.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                    54
            ‫ـ‬   The agency complied with SHVERA’s requirement to revise existing rules
                concerning satellite carriers’ notifications to television broadcast stations and
                signal testing.

            ‫ـ‬   The agency met SHVERA’s requirement to conduct an inquiry and submit a
                report to Congress concerning the competitive effects of certain rules and
                statutory provisions, including existing retransmission consent and
                exclusivity rules, as well as provisions adopted in SHVERA concerning
                satellite carriage of out-of-market or distant signals.

            ‫ـ‬   The agency adopted a Notice of Inquiry regarding the adequacy of the digital
                signal strength standard and testing procedures used to determine whether
                households are eligible to receive distant broadcast DTV network signals
                from satellite communications providers.

            ‫ـ‬   The agency complied with SHVERA’s directive to establish new satellite
                broadcast carriage requirements for Alaska and Hawaii and to promulgate
                implementing rules.

      •     Enforcement – The FCC continued to meet statutory and internal deadlines for its
            enforcement responsibilities for broadcast, satellite, and cable operating matters.
            The agency initiated more than $5 million in indecency enforcement actions
            including a $3.5 million consent decree with Viacom, Inc. and a $1,183,000 NAL
            against broadcast television stations affiliated with the Fox Television Network
            for the April 7, 2003 broadcast of “Married by America.” The Viacom consent
            decree represents the largest indecency-related settlement in the FCC’s history,
            while the “Married by America” NAL represents the largest NAL issued to
            broadcast licensees. The agency entered into consent decrees with various cable
            network programmers and cable operators totaling $1.5 million relating to
            possible violations of the Commission’s rules regarding commercial limits during
            children’s television programming. The agency also issued NAL totaling
            $153,000 against broadcast television stations for violating rules requiring visual
            access to emergency information. These NAL were the first to be issued for such
            violations. Further, the agency issued NAL, Forfeiture Orders, and Consent
            Decrees totaling over $400,000 for violations of FCC rules regarding broadcast
            of telephone conversations, public inspection file, main studio and prohibited
            contest practices.

      ·     International Matters – The FCC maintained a dialogue with policy makers
            around the globe, as well as with research communities and industry groups, on
            regulation, competition, and new technologies in the media marketplace. Agency
            representatives guided dialogue in the OECD toward inclusion of media
            regulatory and policy issues in its activities, and helped organize and participate
            in an OECD conference on convergence and the impact of broadband on
            telecommunications and broadcast regulation. International Bureau staff led
            efforts on broadcasting services within ITU-R Study Group 6 and its working
            parties.

      ·     Cross-Border Activities with Mexico and Canada – The agency continued
            negotiations with Canada and Mexico to create comprehensive broadcast

PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                      55
            agreements that will facilitate the deployment of digital service. The agency
            employed existing DTV Memorandums of Understanding with Canada and
            Mexico to ensure that broadcasters can maximize facilities along the borders.
            The Commission’s dialog with Mexico has led to their adoption of the U.S. DTV
            standard. Discussions were also ongoing to permit Digital Audio Broadcasting
            operations in the border areas. Other cross-border actions included coordinating
            with Mexico on a technical solution to interference in the U.S. caused by
            Mexican AM broadcasts. The FCC continues to monitor the situation closely to
            ensure that the directional antenna systems and technical details of the
            coordinated solution are built and operated in accordance with the official
            notifications that have been approved. Also, the agency granted 13 applications
            and four requests for special temporary authority pursuant to Section 325(c) to
            permit delivery of programs to foreign broadcast stations.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                 56
FY 2005 PERFORMANCE INDICATORS

Continue progress in the transition to digital television and radio



At the end of FY 2005, a
total of 1525 of 1687                                                      Investment in Digital Television
licensed DTV stations
(90%) were on the air                        12,000
with DTV operations.                         10,000
Of these, 789 are
licensed digital facilities      Thousands
                                              8,000
or facilities with                            6,000
program test authority
and 736 are operating                         4,000
pursuant to Special
                                              2,000
Temporary Authority.
                                                 0
                                                                        2001             2002          2003             2004

                                                                     DTV S ets S old   Total Number of DTV Households



Continue the transition to Digital Terrestrial Radio




                                                                                       Digitial Terrestrial Radio

Implementation of AM and FM in-                                      500
band, on-channel (IBOC) hybrid
radio grew steadily during FY                                        400
2005, rising to a total of 447
                                                 Stations Licensed




stations operating with digital radio                                300
authorizations by July 31, 2005.
These stations are located in 37 of                                  200
the top 50 markets in the country
and reach more than 23 million
                                                                     100
potential listeners.
                                                                       0
                                                                                2003               2004                 2005




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                                   57
Increase the investment by consumers in digital equipment



                                                               Increasing Investment in Digital
The number of new
DTV sets sold to                                                          Television
                                    12000
consumers has
increased by 347%,
                                    10000
from 1.4 million DTV
sets sold in 2001 to                 8000
6.27 million DTV sets
                           Number


sold in 2004. The total              6000
number of households
with DTV sets has                    4000
increased by 839%,
from 1.18 million in                 2000
2001 to 11.09 million
in 2004.                                        0
                                                             2001             2002               2003             2004
                                                                    DTV S ets S old    DTV Households




Increase the deployment of digital programming, equipment, and infrastructure



                                                                    Average Number of High Definition
                                                                              Programs
In 2004, broadcast
networks carried an                                    300
average of 8.8 programs in
                                                       250
high definition (HD)
format each day, and
                                      Number Per Day




                                                       200
satellite-delivered networks
distributed an average of                              150
283.4 HD programs per
day. This represented a                                100
one-year increase in HD
programs from satellite-                                50
delivered networks of
424%.                                                    0
                                                                     2002                    2003                        2004
                                                                            Broadcast delivery    S atellite delivery




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                                        58
HOMELAND SECURITY
Strategic Goal:
Provide leadership in evaluating and strengthening the Nation’s communications infrastructure, in
ensuring rapid restoration of that infrastructure in the event of disruption, and in ensuring that
essential public health and safety personnel have effective communications services available to them
in emergency situations.


In the aftermath of the September 11, 2001 terrorist attacks, Americans were reminded of the importance
of reliable, readily available communications – for emergency personnel responding to a tragedy, for
individuals communicating with family and friends, and for the nation as a whole, anxious to stay
informed of ongoing events on a minute-by-minute basis. The telecommunications, broadcast, and cable
industries that the Commission regulates are critically important to our national well-being in times of
crisis. The reliance of numerous other critical industries, including banking, transportation, and energy, on
the telecommunications infrastructure as part of their operational backbone further underscores the
importance of that backbone and the FCC’s role in ensuring its security.


FY 2005 PERFORMANCE GOALS

    ·   Promote a reliable, secure, and survivable communications infrastructure for the United States.


FY 2005 PERFORMANCE HIGHLIGHTS

        •       E911 Proceedings – The FCC enhanced American’s safety in the E911 arena by
                undertaking several actions, including:

                ‫ـ‬   Adopting rules broadening the scope of E911 services to include mobile satellite
                    services, certain telematic services, and resold and prepaid calling card services. The
                    agency initiated a proceeding to determine whether IP-enabled voice services should
                    be required to comply with our E911 rules, and adopted additional requirements
                    related to E911 services, including reporting requirements for mobile satellite service
                    operators responsible for implementing a call center.

                ‫ـ‬   Requiring interconnected VoIP service providers to deliver 911 calls for all
                    customers and provide emergency operators with the call back number and location
                    information of their customers. The agency adopted an NPRM seeking comment on
                    additional steps it should take to ensure that providers of VoIP services that
                    interconnect with the nation’s PSTN provide ubiquitous and reliable E911 service.

                ‫ـ‬   Reaching out to state, local, and tribal government entities, consumer groups, public
                    safety organizations, and industry representatives to facilitate widespread consumer
                    awareness of new FCC rules regarding the applicability of E911 requirements to
                    “interconnected” VoIP services. The FCC's VoIP/911 messaging has been
                    incorporated into the FCC's broad-based VoIP consumer education campaign.


PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                  59
      •     4.9 GHz Interoperability Proceeding – In November 2004, the agency reconsidered its
            2003 decision adopting service and licensing rules for the band to accommodate a wide
            variety of broadband wireless applications in support of public safety, including, for
            example, wireless local area networks for incident scene management, dispatch
            operations, and vehicular operations. The Commission modified the technical standards
            to make the equipment easier to manufacture and more affordable. The agency also
            granted a number of waivers to permit airborne operations.

      •     800 MHz Public Safety Communications Proceeding – In December 2004, the agency
            revised and clarified portions of its plan to resolve the ongoing problem of interference to
            public safety communications in the 800 MHz band. Once implemented, this plan will
            help ensure interference-free operations for policemen, firemen, and other public safety
            personnel by realigning the 800 MHz band to separate incompatible technologies used by
            public safety and commercial providers.

      •     Broadcast Auxiliary Service (BAS) – The FCC intends to release a Public Notice
            announcing streamlined procedures to ease the licensing paperwork and burden for BAS
            users vacating the 1990 – 2025 MHz band, as part of the Commission’s actions to
            eliminate interference to public safety and other land mobile communication systems
            operating in the 800 MHz band.

      •     Automatic Identification Systems (AIS) Proceeding – The agency proposed to identify
            spectrum for AIS in the United States and its territorial waters. (AIS is a maritime
            navigation communications system for use in collision avoidance and vessel monitoring
            and tracking.)

      •     700 MHz Proceeding – The agency adopted rules to support the transition to narrowband
            technology in the 764-776 MHz and 794-806 MHz public safety bands, and conform
            certain technical rules governing these frequencies to industry consensus standards.

      •     Earth Stations on Vessels Proceeding – Adopted licensing and service rules for earth
            stations on vessels in the C-band and the Ku band, including coordination, interference
            criteria, and other safeguards to protect terrestrial fixed microwave operations in the C-
            band, which include public safety and critical infrastructure users.

      •     Wireless Enhanced 911 (E911) Proceedings – Among the FCC’s actions in FY05 were:

            ‫ـ‬   Adopted orders addressing numerous requests for relief from the Commission’s
                wireless E911 Phase II requirements filed by or on behalf of small (Tier III) wireless
                carriers.

            ‫ـ‬   Submitted a report to Congress pursuant to the ENHANCE 911 Act on the status of
                deployment of E911 Phase II services by Tier III service providers.

      •     Intelligence Reform Act – Pursuant to Intelligence Reform and Terrorism Prevention Act,
            the Commission is assessing the short-term and long-term spectrum needs of emergency
            response providers, including the operation and administration of a potential nationwide
            interoperable broadband mobile communications network. The agency issued a public
            notice in March 2005, seeking comment to help prepare this study.


PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                             60
      •     Licensing – The agency processed over one-hundred thousand applications for private
            land mobile and private microwave radio systems, many of which are used by state or
            local governmental entities and others for the sole or principal purpose of protecting life,
            health, and property. Critical infrastructure industries also use these licensed radio
            systems to meet a wide range of communication requirements, from day-to-day business
            activities, such as dispatching and diverting personnel or work vehicles, coordinating the
            activities of workers and machines on location, or remotely monitoring and controlling
            equipment, to coordinating people and materials, important safety and security needs, and
            quick response in times of emergency. The agency also processed tens of thousands of
            applications for marine and aviation radio systems.

      •     Cognitive “Smart” Radios – The agency adopted rule changes for cognitive, or “smart,”
            radio systems to facilitate growth in deployment of radio equipment employing cognitive
            radio technologies. Given their technical and operational flexibility, smart radios improve
            use of vacant spectrum channels

      •     Spectrum Refarming – The agency adopted a Report and Order implementing a timetable
            for migrating most land mobile operations from 25 kHz channels to 12.5 kHz channels to
            create additional usable channels. The agency sought further comment relating to
            ultimately migrating to 6.25 kHz channels.

      •     Rural Health Care Support – The agency adopted rules that strengthened rural
            telemedicine and telehealth networks.

      •     Network Outage Reporting – The FCC’s Network Outage Reporting Report and Order
            became effective, expanding outage reporting requirements to wireless and satellite
            facilities, thereby ensuring that the FCC and other organizations have information to
            ensure the integrity of communications networks. For example, these data were used as a
            critical analytical tool during the service disruptions caused by the 2005 hurricanes in the
            Gulf Coast.

      •     Network Reliability and Interoperability Council (NRIC) – The FCC oversees the work
            of the NRIC, an industry advisory committee whose mission is to ensure the security and
            sustainability of the nation’s critical telecommunications infrastructure. NRIC has
            produced over 700 “best practices” for protecting the nation’s communications
            infrastructure, both physical and cyber, against attack. In December 2004, the NRIC
            issued a report updating existing “best practices” related to cybersecurity, including the
            deletion, modification, or addition of best practices that address cybersecurity threats to
            the nation’s communications infrastructure. The NRIC also adopted reports addressing
            network architecture issues for emergency communications in the year 2010, providing
            an analysis of the gaps between existing “best practices” and those needed to improve the
            reliability of wireless and public data networks.

      •     Best Practices – The Enforcement Bureau’s field staff has undertaken the task of
            spreading NRIC “best practices” beyond the beltway. Specifically, after training with
            NRIC’s Designated Federal Official, the field staff has conducted on-site seminars for
            relevant staff in smaller phone companies to help them understand the work of NRIC and
            how the “best practices” can be implemented to benefit the public.

      •     ITU-T Study Group 17 (March 28 – April 1, 2005) – FCC staff participated in the ITU’s
            Cybersecurity Symposium II held in conjunction with the Study Group 17 meeting.

PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                             61
      •     811 Proceeding – The FCC designated 811 as the nationwide number to protect pipelines
            and utilities from excavation damage.

      •     Radio Direction Finding – The agency provided ongoing radio direction finding
            assistance, specialized technical advice, and technical assistance to federal public safety
            and homeland security agencies.

      •     Emergency Alert System (EAS) Proceeding and EAS Enforcement – The agency
            continued to work on a proceeding concerning how the EAS can be improved or
            supplemented to better meet the nation’s needs to alert citizens during crises. Throughout
            FY 2005, the agency strictly enforced EAS equipment and testing requirements, taking or
            proposing approximately 126 enforcement actions for EAS violations.

      •     E911 Enforcement – The agency issued a $50,000 NAL to Sprint PCS for failing to
            provide E911 Phase I service within six months of a request by Santa Cruz County,
            Arizona on behalf of two Public Safety Answering Point (PSAP) entities in apparent
            willful and repeated violation of Section 20.18(d) of the Commission’s Rules.
            Subsequently, the agency adopted a Consent Decree terminating this NAL proceeding, in
            which Sprint PCS agreed to implement a compliance plan to ensure future compliance
            with the E911 rules and to make a $35,000 voluntary contribution to the Treasury.

      •     Telecommunications Service Priority (TSP) – The agency sponsored a TSP summit with
            relevant government and public safety stakeholders, featuring panel discussions on the
            importance of the TSP program for emergency services and how the TSP program can be
            improved.

      •     Priority Services – FCC staff chaired an interagency working group whose mission is to
            improve the effectiveness of the Federal priority communications programs and to
            increase participation in these programs by key Federal, state, and local agencies.
            Commission staff also participated on a panel before a joint meeting of the National
            Association of Regulatory Utility Commissioner’s Committee on Telecommunications
            and the Ad Hoc Committee on Critical Infrastructure entitled “Facilitating Public Safety
            Subscription to the TSP Program.”

      •     Training – The agency sponsored a two-day continuing legal education session on
            homeland security issues.

      •     Continuity of Operations – The agency participated in the Federal government-wide
            Exercise Pinnacle to test the agency's continuity of operations capability.

      •     Tribal Coordination – The agency held numerous meetings, workshops, and presentations
            in Washington, D.C., and throughout the country with tribal governments or
            representatives to discuss critical communications infrastructure protection and public
            safety communications interoperability. Activities included an October 2004 presentation
            on homeland security at the National Congress of American Indians, hosting a November
            2004 workshop and planning session on Indian Telecommunications Initiatives, and
            meeting with representatives of California Tribal Police Chiefs to discuss their
            participation in the TSP program.



PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                            62
      •     Federal Coordination – The agency participated in an interagency meeting on the
            Emergency Alert System. Discussions included the Draft Plan and the necessity for tribal
            governments to participate in critical communications infrastructure protection and public
            safety communications interoperability.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                           63
FY 2005 PERFORMANCE INDICATORS

Increasing deployment of E-911

From August 2004
to July 2005, Phase
II of E-911                                                       E-911 Growth
Operational
Growth increased                  3,000
by 51.4% (from
                       Public Safety Answering

1,904 to 2,882).                  2,500
This chart reflects
                                  2,000
the number of
                                Points




Public Safety                     1,500
Answering Points
(PSAPs) receiving                 1,000
Phase II location                   500
information from at
least one mobile                      0
service licensee.                            2002                2003               2004             2005
To receive E911
data from any                                             Phase II PS APs in Operation
mobile service
licensee, a PSAP must have become fully E911 capable. Thus, all PSAPs reflected in this chart are
capable of receiving E911 data from multiple mobile service licensees. This chart also indicates that at
least some of the customers served by these PSAPs have access to E-911. Phase II rules require licensees
to transmit 911 caller location information to PSAPs with greater accuracy than Phase I deployment. To
monitor E-911 progress closely, each carrier is required to file quarterly reports with the FCC on February
1, May 1, August 1, and November 1 of each year.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                64
Increasing Telecommunications Service Priority Participation

                                                                            The FCC established the TSP
             Telecommunications Service Priority                            program to support priority
                                                                            restoration of
                               Participation                                communications services that
                                                                            support national security and
        45,000                                                              emergency preparedness
        40,000                                                              (NS/EP) missions during
        35,000
                                                                            disasters, including terrorist
                                                                            attacks. The National
  Number of Lines




        30,000                                                              Communications System
        25,000                                                              (NCS) oversees day-to-day
        20,000
                                                                            operation of the TSP
                                                                            program. Any Federal, state,
        15,000                                                              or local government entity
        10,000                                                              that relies on
         5,000
                                                                            telecommunications services
                                                                            to accomplish its NS/EP
             0                                                              mission can qualify for TSP.
                          2004                     2005                     There were a total of 55,000
       911 Center TS P Participation       S tate & Local Governments       911-center communications
       Federal Government                                                   lines in FY 2005. Although
                                                                            all 911-centers would qualify
for the TSP program, only a very small percentage of 911-centers participate. In FY 2004, the FCC
began an outreach program to inform 911 administrators of the TSP program and to expedite their
enrollment. At the end of FY 2004, a total of 3,888 911-center communications circuits were enrolled in
the TSP program. By the end of July 2005, a total of 5,401 911-center communications circuits were
covered by the TSP program. This amounted to a 39% increase in 911-center participation.

During FY 2005, the FCC examined the TSP participation rates of Federal agencies and state and local
governments. At the end of FY 2004, the Federal government had 36,171 circuits enrolled in the TSP
program; by the end of July 2005, a total of 42,801 Federal government circuits were covered. At the end
of FY 2004, state and local governments had 3,586 circuits enrolled in the TSP program; by the end of
July 2005, a total of 5,028 state and local government circuits were covered. The TSP program increases
the reliability of essential NS/EP communications services by minimizing out-of-service times. As a
result, these circuits’ operations were made substantially more reliable.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                               65
This Page Is Intentionally Left Blank




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005   66
Modernize the FCC
Strategic Goal
Emphasize performance and results through excellent management. Develop and retain
independent mission-critical expertise, and align the FCC with the dynamic communications
markets.

The FCC has committed itself to making fundamental changes to become a more responsive, efficient,
and effective agency capable of facing the technological and economic opportunities of the new
millennium. While these changes began in 2003 with an agency-wide reorganization, they have
continued through the dedication of resources to recruiting, training, equipping, and deploying an
expert workforce.


FY 2005 PERFORMANCE GOALS

   ·   Become a more responsive, efficient, and effective agency.


FY 2005 PERFORMANCE HIGHLIGHTS

       •       Customer Service Improvements – The FCC fully integrated an artificial intelligence
               system that automatically sends accurate responses to consumer e-mails within minutes.
               This system streamlined complaint and inquiry logging, allowing FCC staff to avoid
               delays when taking calls. The agency also placed complaint forms on-line for direct
               filing or downloading in both English and Spanish, and added new carriers to the
               OSCAR bridge project, which saves time and paperwork by electronically sending
               complaints and carrier responses to electronic mailboxes. The agency updated the
               agency’s Interactive Voice Response (IVR) system, allowing the FCC to better utilize the
               telephone to provide pinpointed information to consumers at whatever time they call.

       ·       Filing and Licensing System Improvements – The agency implemented several new
               features to improve customer experience in using FCC electronic filing/licensing
               systems:

               ‫ـ‬   Implemented a web-based system to allow individual customers to determine if they
                   are delinquent in any debt to the FCC prior to requesting services or authorizations
                   from the agency. FCC partners at the Universal Service Administrative Company,
                   Telecommunication Relay Service, and North American Numbering Plan council can
                   also check electronically whether any applicant for these services owes a debt to the
                   FCC prior to granting funds or services from these programs.

               ‫ـ‬   Enhanced the functionality of the on-line Fee Filer system so customers can look up
                   and pay all FCC bills in one stop.

               ‫ـ‬   Developed an on-line capability for customers to associate their commonly used call
                   sign identification with the FCC’s required registration numbers (FRN) in the
                   Universal Licensing System.

PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                             67
      ·     Emergency Information Availability – The agency created a special version of the public
            FCC Internet home page to be used during emergencies when events have precluded
            normal FCC operations.

      ·     Automated Frequency Assignment Coordination – The agency automated its
            coordination of spectrum frequency assignment requests in the 70-80-90 band. This is
            just one aspect of the FCC effort to improve spectrum coordination with other Federal
            agencies, such as the National Telecommunications and Information Administration.

      ·     On-line Satellite Technology Classroom – In March 2005, the agency launched an
            interactive, online classroom for K-12 students to teach the basics of satellite technology
            and its applications in everyday life. The system has been used in classrooms outside the
            agency and as part of the FCC’s Career Day activities. It has also proved to be an
            excellent resource for internal staff.

      ·     Information Technology Network Enhancements – The agency enhanced its network to
            minimize network downtime, ensure continued network integrity, and guard against the
            disruption of critical agency work:

            -   Replaced and hardened communications connectivity hardware that links the
                agency’s field offices;

            -   Implemented a full-featured development lab for testing new technologies and
                upgrades in a safe, controlled environment;

            -   Upgraded software to monitor and troubleshoot the local/wide area networks, and
                tested and evaluated anti-SPAM and anti-spyware tools.

      ·     Outdated Licensing System Components – The agency made progress in eliminating
            outdated, vulnerable components of its electronic systems, including making the
            following enhancements to its electronic licensing systems:

            -   Enhanced the Equipment Authorization System (EAS) to provide an electronic filing
                module for Grantee Codes and for Cognitive Radio;

            -   Enhanced the Broadcast Radio and Television Electronic Filing System (formerly
                known as the Consolidated Database System) to allow electronic filing of Channel
                Election Forms and Digital Low-Power TV (LPTV) applications; also enhanced the
                Educational Broadband Service (EBS) system to add new license search capabilities
                and streamlined transfers of assignments/control;

            ‫ـ‬   In October 2004, launched MyIBFS, an electronic filing site for international and
                satellite applications. Designed through a partnership with users, the improved e-
                filing system included a new customer-centric filing portal, enhanced account
                management features, and the Commission's first interactive interface form for earth
                station filers called the 312 EZ. Improvements to the original IBFS filing system
                included a new e-filing form for transfers of control and assignments of International
                Section 214 Authorizations, streamlined login procedures, and online filing forms for
                certification of construction permits and surrenders of licenses.


PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                            68
      ·     Collaborative Work Systems – The agency expanded a pilot project, IMPACT
            (Improving Management of Policy Activities through Collaborative Technologies) to use
            document and knowledge management software to improve its policy and rulemaking
            processes. Eight rulemaking teams, spectrum auction groups, and one policy task force
            have used this new tool. IMPACT gives the 300 pilot participants easy, common access
            to everything from activity reports, to common rulemaking templates, to links to various
            handbooks and regulations regarding rulemaking, as well as documents that are being
            developed concurrently by multiple authors.

      ·     Website Procedures – The agency developed a new Weekly Network Maintenance
            Window Policy that streamlines the procedures FCC webmasters and e-system owners
            must follow during planned and unplanned interruptions in network and internet services,
            so the public will receive more timely and accurate notification of the status of the
            Commission's on-line systems.

      ·     Intensive Professional Training – Agency webmasters learned how to maximize the
            accessibility of it’s the FCC’s Internet pages for those with various disabilities. This
            included teaching webmasters how to optimize their pages for use with screen-reader
            software.

      ·     Agency Accountability – The OIG completed audits of the Commission's FY 2004
            financial statements, the annual Federal Information Security Management Act (FISMA)
            assessment, and numerous audits of Commission physical and information security
            controls.

      ·     Internet Website Inventory – The agency listed priorities and a schedules page in
            accordance with the E-Government Act of 2002 to improve how FCC information,
            including information on the Internet, is organized, preserved, and made accessible to the
            public.

      ·     Access to Strategic Planning Information – The agency made it easier for the public to
            access and understand the agency’s strategic plan by creating a centralized webpage of
            the agency’s strategic plan and its implementation, and a comprehensive review of FCC
            policies and procedures.

      ·     Information Collections – The agency created its first-ever Paperwork Reduction Act
            Internet homepage so that all stakeholders who are required to provide information to the
            agency can quickly and easily access and comment on the FCC’s information collections.

      ·     Strategic Human Capital Planning Initiative – By completing the blueprint for a Strategic
            Human Capital Plan, which included analysis of the workforce by bureau and occupation
            to identify critical workforce and leadership issues, the Commission was able to better
            pinpoint its future staffing needs.

      ·     First Annual FCC Employee Survey – The agency used this survey to assess leadership
            and management practices and employee satisfaction. The FCC employees’ responses
            were generally positive and compared favorably to the rest of the Federal workforce.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                           69
      ·     One of the Best Places to Work – The FCC ranked eleventh (out of 218 federal
            subcomponents) on the Partnership for the Public Service and the Institute for the Study
            of Public Policy Implementation’s Best Places to Work in the Federal Government
            listing. Among small agencies the FCC ranked third. The Best Places ranking, a
            comprehensive index of employee satisfaction, is developed using data in the Office of
            Personnel Management’s survey of over 100,000 Federal employees.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                         70
FY 2005 PERFORMANCE INDICATORS

Reduce the average time required to complete rulemakings
The FCC’s processing time for both “circulation to adoption” and “adoption to release” dropped by one-
third between FY 2004 and FY 2005. At the same time, the number of rulemakings decreased by 35%
from 182 to 118.



                  Average Time to Complete Rulemakings
             50

             40


             30
      Days




             20

             10

              0
                   2002           2003            2004              2005
                    Circulation to Adoption   Adoption to Release




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                           71
Increase efficiency in the processing of workload


In FY 2005, 98% of the agency’s actions                                 Actions Disposed of Within Speed
were disposed within the processing goals.
This was a slight improvement over the FY                                       of Disposal Goal
2004 performance and returned the agency                               100%
to the level of performance it achieved in
FY 2003. Performance in each of these
                                                              Goal
years exceeded the agency’s speed of
disposal goal of 95%.




                                                          Percentage

                                                                       80%
                                                                              2001    2002     2003      2004     2005




                                                                       Actions Filed Electronically
In FY 2005, the FCC returned to                     100
95% electronic filing ¾ an increase                  90
                                                                                                                              Goal

of three percentage points over                      80
FY 2004. In both years the FCC                       70
exceeded its 90% goal for electronic
                                       Percentage




                                                     60
or on-line filing.                                   50
                                                     40
                                                     30
                                                     20
                                                     10
                                                      0
                                                                  2001         2002     2003          2004      2005




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                                 72
Accomplish the agency’s performance commitments:


FY 2005 data shows the                                   Accomplishment of Performance Indicators
FCC met 12 of its
performance indicators.                           100%
The data necessary to
                                                  90%
judge performance
                                                  80%
achievement on the other
nine FY 2005 indicators                           70%


                                     Percentage
were not available when                           60%
this report was drafted.                          50%
                                                  40%
                                                  30%
                                                  20%
                                                  10%
                                                   0%
                                                                 an
                                                                      d                     o   n                um        d ia             r it
                                                                                                                                                   y                   iz e
                                                          ad
                                                             b                    e   tit i            e   ctr        Me               cu                     e   rn
                                                       ro                      mp                   Sp                            Se                       od
                                                   B                      Co                                                                           M

                                                                           S uccessfully achieved                                 Data not Available
Align human capital
and career
development with strategic goals
             FY 2005 Milestones                                                                                            Status

  •    Implement Human Capital strategies to                          •         Phase I completed. Initial briefing held with Chairman’s Office and
       address skills and competencies required                                  shared proposal to establish Human Resources Advisory Group.
       for accomplishment of strategic goals.                                    Briefed new Bureau chiefs and completed blueprint for a Strategic
                                                                                 Human Capital Plan.
       ‫ـ‬   Continue workforce planning effort
           to efficiently and effectively deploy                      •         Developing skills and competencies is ongoing.
           our human resources.
                                                                      •         To date, employees have completed over 565 external training
   •   Develop targeted skills and competencies                                  courses, and we have presented over 340 in-house courses, for over
       for all FCC employees through                                             7,000 instances of training.
       appropriate career development aligned
       with strategic goals.                                          •         LMS Phase I implemented on schedule, September 2004.
       ‫ـ‬   Implement a Learning Management                            •         Phase II includes My Plan the electronic replacement to the Personal
           System (LMS).                                                         Development Plan (PDP), and the mechanism for adding Training
                                                                                 History data was available September 2005.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                                                                                      73
This Page Is Intentionally Left Blank




PERFORMANCE AND ACCOUNTABILITY REPORT   74
3. Financial Statements and Auditors’ Reports

Message from the Chief Financial Officer

The financial condition of the Commission improved in FY 2005 but this improvement is not reflected in
the Auditor’s accompanying report. The auditor’s disclaimer of opinion is a result of our management
representation letter signatory practices and does not reflect the condition of the agency accounting
records or activities. We cooperated fully with the audit, and provided the requested management
representation letter in accordance with the Commission’s long-established signatory practices. In
February 2005, we acknowledged a violation of the Antideficiency Act that occurred prior to the end of
FY 2004 and resulted from the reporting of one of the Commission’s key component entities, i.e., the
administrator of the Universal Service Fund (USF). The acknowledgement that the USF had likely been
noncompliant with the Antideficiency Act from inception until September 30, 2004 as a result of
misapplied accounting practices is resolved and USF’s administrator has adopted many of the accounting
practices required as generally acceptable accounting principals over governmental entities. We will
continue to work with the USF’s administrator to ensure sound financial management practices are
followed and future noncompliance does not occur.
This year, we eliminated a material weakness associated with the Cost Accounting System, which
resulted in the elimination of a qualification of opinion from the FY 2004 report. We also resolved two of
the three conditions that resulted in a disclaimer of opinion on two statements in FY 2004. In FY 2004
the Commission declined to provide the auditors assurances over the investment, accounts receivable and
commitment balances and activities of the USF. For FY 2005 the Commission provided the auditor
assurance over both investment and accounts receivable balances and activities as well as the FY 2005
closing commitment balances from the USF. Unfortunately, the Commission could not obtain sufficient
evidentiary documentation from the USF’s administrator to extend that assurance to the FY 2004 closing
commitment balances or to the commitment activities during FY 2005. We will work with the
administrator to resolve any weaknesses concerning the accounting for these commitment balances.
During FY 2005, the Commission completed several steps towards resolving the oldest and most difficult
audit issue, the lack of a consolidated financial system. The need for an integrated financial management
system continues to be identified in the audit of the Commission’s financial statements as a key element
to improved financial management. In FY 2005 we conducted a feasibility study and determined that an
enterprise solution would be the best for replacing the Commissions manually intensive, antiquated, and
disjointed accounting processes. In the near term, we plan to initiate a competitive procurement process
to obtain more up-to-date financial systems. We will work to address this need as soon as possible.
In FY 2005, the Commission addressed several areas of concern by implementing proper accounting,
recording and reporting of the USF investment portfolio, recognition of the recoveries from USF
beneficiary audit work, and advancement towards complete compliance with Gov/GAAP reporting. One
area, the USF funding commitment process and the accounting for those commitments, was an enormous
task that was severely hampered by the limitations of the current USAC commitment management
system. Although USAC provided the Commission a representation over both the FY 2004 and FY 2005
closing commitment balances, the Commission staff could obtain sufficient evidential matter only to
provide the auditors assurance over the FY 2005 closing balance. We will work to address this issue as
soon as possible.



PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                               75
The Commission continues to work to resolve the other material weaknesses and instances of non-
compliance identified in the yearly audit of the Commission’s financial statements and will direct
additional time and staffing to resolve them as expeditiously as possible. The Commission efforts will
remain directed towards the overarching problems associated with (1) the existing financial information
systems; (2) the manually intensive compilation of quarterly and year end financial reporting data; and (3)
the full integration of the Commission’s reporting components in governmental accounting practices. We
anticipate resolving these overarching problems in an expeditious manner.




Mark Reger
Chief Financial Officer




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                76
LIMITATIONS OF THE FINANCIAL STATEMENTS
The principal financial statements have been prepared to report the financial position and results of
operations of the FCC, pursuant to the requirements of 31 U.S.C. § 3515(b). While the statements have
been prepared from the books and records of the FCC in accordance with Generally Accepted Accounting
Principles (GAAP) for Federal entities and the formats prescribed by OMB, the statements are in addition
to the financial reports used to monitor and control budgetary resources which are prepared from the same
books and records.
The statements should be read with the realization that they are for a component of the U.S. Government,
a sovereign entity. One implication of this is that liabilities cannot be liquidated without legislation that
provides resources to do so.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                  77
This Page Is Intentionally Left Blank




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005   78
                                                                                 UNAUDITED


UNAUDITED PRINCIPAL STATEMENTS
Note: The accompanying notes are an integral part of these statements.

UNAUDITED CONSOLIDATED BALANCE SHEET
As of September 30, 2005 and 2004
(Dollars in thousands)
                                                              2005            2004
ASSETS (Note 2)
 Intragovernmental
   Fund Balance with Treasury (Note 3)                   $    1,522,785   $     487,904
   Investments (Note 5)                                       4,139,945       3,257,049
   Accounts Receivable (Note 6)                                   4,996           7,907
 Total Intragovernm ental                                     5,667,726       3,752,860

  Cash and Other M onetary Assets (Note 4)                       57,114         291,612
  Investments (Note 5)                                              -               319
  Accounts Receivable, net (Note 6)                             673,493         577,768
  Loans Receivable, net (Note 7)                              1,257,265       2,691,858
  General Property, Plant, and Equipment, net (Note 9)           51,198          53,255
  Other                                                          10,447              26

Total Assets                                             $    7,717,243   $   7,367,698

LIABILITIES (Note 10)
 Intragovernmental
   Debt (Note 11)                                        $    1,273,798   $   3,940,764
   Other (Note 12)
     Custodial                                                  222,350        310,130
     Other                                                        1,826          1,612
   Total Other                                                  224,176        311,742

  Total Intragovernm ental                                    1,497,974       4,252,506

  Accounts Payable                                               74,451         56,377
  Other (Note 12)
   Deferred Revenue                                           1,185,774         81,989
   Prepaid Contributions                                         57,360        159,260
   Deposit/Unapplied Liability                                    5,232         83,038
   Accrued Liabilities for Universal Service                    418,826        385,989
   Other                                                         43,400         42,906
  Total Other                                                 1,710,592        753,182

Total Liabilities                                        $    3,283,017   $   5,062,065

  Commitments and Contingencies (Note 14)

NET POSITIO N
 Unexpended Appropriations                               $       24,617   $      38,155
 Cumulative Results of Operations                             4,409,609       2,267,478

Total Net Position                                            4,434,226       2,305,633

Total Liabilities and Net Position                       $    7,717,243   $   7,367,698



PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                     79
UNAUDITED
                                                                                 UNAUDITED



UNAUDITED CONSOLIDATED STATEMENT OF NET COST
For the Periods Ended September 30, 2005 and 2004
(Dollars in thousands)
                                                                2005               2004
        PROGRAM COSTS:
         Broadband:
          Gross costs                                       $      24,692 $           20,216
          Less: Earned Revenue                                    (26,995)           (21,388)
          Net Program Costs (Note 15)                              (2,303)            (1,172)

        Competition:
         Gross costs                                            6,679,252          5,973,803
         Less: Earned Revenue                                    (118,231)          (125,921)
         Net Program Costs (Note 15)                            6,561,021          5,847,882

        Spectrum:
         Gross costs                                              503,517          1,715,937
         Less: Earned Revenue                                    (489,887)          (547,366)
         Net Program Costs (Note 15)                               13,630          1,168,571

        Media:
         Gross costs                                               30,433             29,390
         Less: Earned Revenue                                     (31,887)           (29,068)
         Net Program Costs (Note 15)                               (1,454)               322

        Homeland Security:
         Gross costs                                               35,445             33,940
         Less: Earned Revenue                                     (36,953)           (34,817)
         Net Program Costs (Note 15)                               (1,508)              (877)

        Modernize the FCC:
         Gross costs                                               53,334             52,161
         Less: Earned Revenue                                     (54,280)           (52,009)
         Net Program Costs (Note 15)                                 (946)               152

        Total Net Program Costs                                 6,568,440          7,014,878

        Cost not Assigned to Programs:
         Telecommunications Development Fund                        1,314                 20
          Other Expenses                                             (759)             4,924

        Less: Earned Revenues not Attributed to Programs:
         Telecommunications Development Fund                       (1,314)                (20)

        Net Cost of Operations                              $   6,567,681    $     7,019,802




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                         80
UNAUDITED
                                                                                                     UNAUDITED




UNAUDITED CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the Periods Ended September 30, 2005 and 2004
(Dollars in thousands)

                                                                    2005                                2004
                                                        Cumulative                          Cumulative
                                                          Results        Unexpended           Results        Unexpended
                                                       of Operations   Appropriations      of Operations   Appropriations

Beginning Balances                                 $       2,267,478    $      38,155     $    2,308,240    $      43,055

Budgetary Financing Sources:
 Appropriations received                                         -           1,260,763               -            639,087
 Other adjustments (recission, etc) (+/-)                     (1,095)           (1,664)           (3,358)          (1,673)
 Appropriations used                                       1,272,637        (1,272,637)          642,314         (642,314)
 Universal Service Fund Nonexchange Revenue                7,449,284               -           6,350,269              -
  Loss on Disposition of Investments                             -                 -              (4,808)             -
 Other budgetary financing sources                               -                 -                 235              -

Other Financing Sources:
 Transfers-in/out without reimbursement (+/-)                (25,463)              -             (20,159)             -
 Imputed financing from costs absorbed by others              14,449               -              14,547              -

Total Financing Sources                                    8,709,812          (13,538)         6,979,040           (4,900)

Less: Net Cost of Operations                               6,567,681                           7,019,802

Ending Balances                                    $       4,409,609    $      24,617     $    2,267,478    $      38,155




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                                  81
UNAUDITED
                                                                                                                 UNAUDITED



UNAUDITED COMBINED STATEMENT OF BUDGETARY RESOURCES
For the Periods Ended September 30, 2005 and 2004
(Dollars in thousands)
                                                                   2005                                 2004
                                                                                                     UNAUDITED
                                                                       Non Budgetary                       Non Budgetary
                                                                       Credit Program                      Credit Program
                                                       Budgetary       Financing Acct         Budgetary    Financing Acct
Budgetary Resources:

Budget Authority
 Appropriations Received                           $      9,899,436 $             -       $     16,686,878 $           -
 Borrowing Authority                                            -              38,124                  -             2,791

Unobligated Balance:
 Beginning of Period (Note 24)                             272,571             59,507            2,016,229          46,031
 Adjustment to Beginning Balance (Note 24)                     -                  -             (2,057,858)            -
 Adjusted - Beginning of Period                            272,571             59,507              (41,629)         46,031
Spending Authority from Offsetting Collections:
 Earned
   Collected                                               416,792           2,981,006             429,899       1,483,878
   Receivable from Federal Sources                            (342)                -                   762             -
 Change in Unfilled Customer Orders
   Advance Received                                             -                  -                     (1)           -
   Without Advance from Federal Sources                          13                -                   (73)            -
 Anticipated for rest of year, without advances                 -                  -                   -               -
Subtotal                                                 10,588,470          3,078,637          17,075,836       1,532,700

Recoveries of Prior Year Obligations                       664,116                 -                 8,719              -
Temporarily not available pursuant to Public Law           (12,000)                -                  (349)             -
Permanently not available                                   (2,742)         (2,705,090)            (60,805)      (1,127,464)

Total Budgetary Resources                          $     11,237,844 $         373,547     $     17,023,401 $       405,236



Status of Budgetary Resources:

Obligations Incurred (Note 16):
 Direct                                            $     10,230,118 $         306,351     $     16,748,849 $       345,729
 Reimbursable                                                 1,359               -                  1,981             -
 Subtotal                                                10,231,477           306,351           16,750,830         345,729
Unobligated Balance:
 Apportioned                                               217,449                382                2,612             434
 Other Available                                               -                  -                247,360             -
Unobligated Balance not Available                          788,918             66,814               22,599          59,073

Total Status of Budgetary Resources                $     11,237,844 $         373,547     $     17,023,401 $       405,236


Relationship of Obligations to Outlays:

Obligated Balance, net, Beginning of Period        $      3,085,195 $              -      $        140,398 $            -
Obligated Balance Transferred, net                              -                  -                   -                -
Obligated Balance, net, End of Period:
 Accounts Receivable                                            (15)               -                  (357)             -
 Unfilled Customer Orders from Federal Sources                  -                  -                    13              -
 Undelivered Orders                                       3,172,497                -             3,014,495              -
 Accounts Payable                                            92,637                -                71,044              -

Outlays:
 Disbursements                                            9,387,765            306,351          13,796,624          345,729
 Collections                                               (416,792)        (2,981,006)           (429,897)      (1,483,878)
 Subtotal                                                 8,970,973         (2,674,655)         13,366,727       (1,138,149)
Less: Offsetting Receipts                                    25,463                -                20,159              -
Net Outlays                                        $      8,945,510 $       (2,674,655)   $     13,346,568 $     (1,138,149)




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                                       82
UNAUDITED
                                                                                                                                   UNAUDITED



   UNAUDITED CONSOLIDATED STATEMENT OF FINANCING
   For the Periods Ended September 30, 2005 and 2004
   (Dollars in thousands)

Resources Used to Finance Activities:                                                                        2005                     2004
                                                                                                                                   UNAUDITED
Budgetary Resources Obligated
 Obligations incurred                                                                                    $     10,537,828      $       17,101,457
 Less: Spending authority from offsetting collections and recoveries                                            4,061,585               1,923,184
 Obligations net of offsetting collections and recoveries                                                       6,476,243              15,178,273
 Less: Offsetting receipts                                                                                         25,463                  20,159
 Net obligations                                                                                                6,450,780              15,158,114
Other Resources
 Transfers in/out without reimbursement (+/-)                                                                       25,463                20,159
 Imputed financing from costs absorbed by others                                                                    14,449                14,547
 Other (+/-)                                                                                                           -                     -
 Net other resources used to finance activities                                                                     39,912                34,706

Total resources used to finance activities                                                                      6,490,692              15,192,820

Resources Used to Finance Items not Part of the Net Cost of Operations:
 Change in budgetary resources obligated for goods, services and benefits
 ordered but not yet provided (+/-)                                                                               168,435               2,943,924
 Resources that fund expenses recognized in prior periods                                                       1,269,099                 609,456
 Budgetary offsetting collections and receipts that do not affect net cost of operations
   Credit program collections which increase liabilities for loan guarantees
   or allowances for subsidy                                                                                   (3,016,923)             (1,486,208)
   Other                                                                                                          350,860                 375,259
 Resources that finance the acquisition of assets                                                               1,137,808               6,953,619
 Other resources or adjustments to net obligated resources that do not affect
 net cost of operations (+/-)                                                                                       57,786               375,373

  Total resources used to finance items not part of the net cost of operations                                      (32,935)            9,771,423

Total resources used to finance the net cost of operations                                                      6,523,627               5,421,397

Components of the Net Cost of Operations that will not Require or Generate
Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods:
 Increase in annual leave liability                                                                                     -                   1,079
 Upward/Downward reestimates of credit subsidy (+/-)                                                                (44,224)            1,197,215
 Increase in exchange revenue receivable from the public                                                              2,957                   163
 Other (+/-)                                                                                                         32,205                45,386

  Total components of Net Cost of Operations that will require or generate resources in future periods               (9,062)            1,243,843

Components not Requiring or Generating Resources:
 Depreciation and Amortization                                                                                      16,922                15,211
 Revaluation of assets or liabilities (+/-)                                                                            -                     -
 Other (+/-)                                                                                                        36,194               339,351

  Total components of Net Cost of Operations that will not require or generate resources                            53,116               354,562

Total components of Net Cost of Operations that will not require or generate
resources in the current period                                                                                     44,054              1,598,405

Net Cost of Operations                                                                                   $      6,567,681      $        7,019,802




   PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                                                          83
   UNAUDITED
                                                                                            UNAUDITED



UNAUDITED CONSOLIDATED STATEMENT OF CUSTODIAL ACTIVITY
For the Periods Ended September 30, 2005 and 2004
(Dollars in thousands)

                                                                      2005                  2004
Revenue Activity:
 Sources of Cash Collections:
   Spectrum Auctions                                              $          152,355    $          205,024
   Fines and Penalties                                                        12,435                24,636
   Credit Reform Interest                                                    269,233               343,257
   TDA Interest                                                                1,314                    20
 Total Cash Collections                                                      435,337               572,937

 Accrual Adjustments
  Spectrum Auctions                                                            6,132                   (63)
  Fines and Penalties                                                         (1,472)               (1,530)
  TDA Interest                                                                   -                     -
 Total Accrual Adjustments                                                     4,660                (1,593)

Total Custodial Revenue                                                      439,997               571,344

Disposition of Collections:
 Transferred to Others:
   Recipient A: U.S. Treasury                                            (441,448)             (367,889)
   Recipient B: FCC Financing Acct - Credit Reform (Recoveries)               -                     -

 (Increase)/Decrease in Amounts Yet to be Transferred                         87,780            (80,078)
 Refunds and Other Payments                                                      -                 (333)
 Retained by the Reporting Entity                                            (86,329)          (123,044)

Net Custodial Activity                                            $              -      $              -




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                      84
UNAUDITED
                                                                                         UNAUDITED


NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
SEPTEMBER 30, 2005 AND 2004
(DOLLARS IN THOUSANDS UNLESS OTHERWISE STATED)


Note 1 - Summary of Significant Accounting Policies

Reporting Entity

The FCC is an independent United States Government agency, established by the Communications Act of
1934, as amended. The FCC is charged with regulating interstate and international communications by
radio, television, wire, satellite, and cable. The FCC’s jurisdiction spans the 50 states, the District of
Columbia, and the U.S. possessions. Five commissioners direct the FCC; they are appointed by the
President of the United States and confirmed by the Senate for five-year terms, except when filling an
unexpired term.

The FCC comprises three reporting components. The primary component consists of FCC headquarters
and field offices. The two additional components are the USF and the NANP. The USF reports the
results of the four Universal Service support mechanisms (established pursuant to Section 254 of the Act,
as amended) and the results of the Telecommunications Relay Service Fund (established by the
Americans with Disabilities Act of 1990, Title IV). The NANP reports the results of billing and
collection activities conducted to support the NANP (47 C.F.R. §52.16, 52.17, 52.32, and 52.33).

Basis of Accounting and Presentation

The consolidated financial statements (financial statements) have been prepared from the accounting
records of the FCC in conformity with U.S. Federal Generally Accepted Accounting Principles and the
form and content for entity financial statements specified by the OMB in OMB Bulletin 01-09, “Form and
Content of Agency Financial Statements,” as superseded by OMB Circular A -136 “Financial Reporting
Requirements.”

The preparation of financial statements in conformity with GAAP requires management to make
estimates and assumptions that affect the reported amounts of assets and liabilities, the disclosure of
contingent assets and liabilities at the date of the financial statements, and the reported amounts of
revenues and expenses during the reporting period. Actual results may differ from those estimates.

Fund Balance with Treasury

Funds with the Department of the Treasury (Treasury) primarily represent appropriated, revolving, and
deposit funds. The FCC may use the appropriated and revolving funds to finance expenditures,
depending on budgetary availability. The deposit accounts are used to hold funds temporarily until they
can be properly disbursed or distributed.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                               85
UNAUDITED
                                                                                          UNAUDITED


Note 1 - Summary of Significant Accounting Policies (continued)

Cash and Other Monetary Assets

Cash and Other Monetary Assets represent cash on deposit and money market funds at several
commercial banks. Cash on deposit is collateralized by the Federal Reserve and typically exceeds
federally insured limits.

Investments

Investments are reported net of the unamortized premium or discount. All investments are in Treasury
securities.

Accounts Receivable, Net

Accounts Receivable consist of claims made for payment from other entities. Gross receivables are
reduced to net realizable value by an allowance for doubtful accounts.

Loans

The Federal Credit Reform Act (FCRA) of 1990, as amended, governs the reporting requirements for
direct loan obligations made after FY 1991. The FCRA requires that the present value of the subsidy
costs associated with direct loans be recognized as a cost in the year that the loan is obligated. (Present
value is calculated as the estimated cash outflows over the life of the loans, less the present value of the
estimated cash inflows, discounted at the interest rate of marketable Treasury securities with a similar
maturity term.) Direct loans are reported net of an allowance for subsidy at the present value.

Property, Plant and Equipment

The basis for recording purchased general Property, Plant, and Equipment (PP&E) is full cost, including
all costs incurred to bring the PP&E to and from a location suitable for its intended use. All PP&E with
an initial acquisition cost of $25,000 or more and all internally developed software with a development
cost of $50,000 or more, and with an estimated useful life of two years or greater are capitalized. Bulk
purchases of similar items, individually worth less than $25,000 but collectively worth more than
$250,000, are also capitalized using the same equipment categories and useful lives as capital
acquisitions. PP&E are depreciated on a straight-line basis over the estimated useful life of the item. The
useful lives used are: forty years for buildings, seven years for equipment, five years for computers and
vehicles, and three years for software. Land and land rights, including permanent improvements, are not
depreciated, nor is software in development. Normal maintenance and repair costs are expensed as
incurred.

Leasehold improvements include all costs incurred during the design and construction phase of the
improvement. These costs are amortized over the remaining life of the lease, or the useful life of the
improvements, whichever is shorter.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                 86
UNAUDITED
                                                                                         UNAUDITED


Note 1 - Summary of Significant Accounting Policies (continued)

Property, Plant and Equipment (continued)

The FCC’s authority relative to seized and forfeited property is cited in 47 U.S.C. § 510. Seized property
consists of personal property and equipment seized from illegal telecommunication operations. The
property is considered prohibited and is held, pending an outcome of court proceedings. Forfeited
property consists of seized property turned over to the FCC to be destroyed or disposed of through a
surplus process. The values assigned to the seized and forfeited property are determined by FCC
engineers and are based on current market values for comparable property.

Other Assets

Other Assets represents the balance of transfers less expenses made by the USF to USAC to fund
administrative costs in advance. Advances are drawn down as expenses are incurred.

Accounts Payable and Accrued Liabilities

Accounts Payable and Accrued Liabilities represent a probable future outflow or other sacrifice of
resources as a result of past transactions or events. Liabilities are recognized when they are incurred,
regardless of whether they are covered by available budgetary resources. Liabilities cannot be liquidated
without legislation that provides resources to do so. As a component of the U.S. Government, a sovereign
entity, payments of all liabilities other than contracts can be abrogated by the sovereign entity.

Deferred Revenue

The FCC collects proceeds from the sale of communications spectrum on behalf of the U.S. Government.
All proceeds collected up to the amount of the net winning bid are recognized as deferred revenue until a
“prepared to grant” or “grant” public notice is issued. In addition, the FCC collects multi-year regulatory
fees for five- and ten-year periods that are recorded as deferred revenue and amortized over the period of
the fee.

Debt to the U.S. Treasury

This account represents amounts due to the Treasury’s BPD to support the spectrum auction loans
program. Borrowings from BPD are determined based on subsidy estimates and re-estimates in
accordance with the FCRA of 1990, as amended, and OMB guidance. Interest payment on debt is
calculated annually and remitted to BPD at the end of the fiscal year. These payments are recorded in a
receipt account maintained by the FCC.

Retirement Plans and Other Benefits

Federal employee benefits consist of the actuarial portions of future benefits earned by Federal
employees, including pensions, other retirement benefits, and other post-employment benefits. The
Office of Personnel Management (OPM) administers these benefits. The FCC does not recognize any
liability on the Consolidated Balance Sheet for pensions, other retirement benefits, and other post-
employment benefits. The FCC recognizes and allocates the imputed costs on the Statement of Net Costs
and recognizes imputed financing related to these costs on the Statement of Changes in Net Position.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                87
UNAUDITED
                                                                                          UNAUDITED


Note 1 - Summary of Significant Accounting Policies (continued)

Retirement Plans and Other Benefits (continued)

Pensions provide benefits upon retirement and may also provide benefits for death, disability, or other
termination of employment before retirement. Pension plans may also include benefits to survivors and
dependents, and they may contain early retirement or other special features. Most FCC employees
participate in the Civil Service Retirement System (CSRS) or the Federal Employee Retirement System
(FERS). Under CSRS, FCC makes matching contributions equal to seven percent of basic pay. For
FERS employees, FCC contributes the employer’s matching share for Social Security and contributes an
amount equal to one percent of employee pay to a savings plan and matches up to an additional four
percent of pay. Most employees hired after December 31, 1983 are covered by FERS.

The OPM reports on CSRS and FERS assets, accumulated plan benefits, and unfunded liabilities, if any,
applicable to Federal employees.

The actuarial liability for future workers’ compensation benefits includes the expected liability for death,
disability, medical and miscellaneous costs for approved compensation cases. The liability is determined
by using historical benefit payment patterns related to a specific incurred period to predict the ultimate
payment related to that period. The Department of Labor determines no actuarial liability for the FCC,
due to the immateriality to the Federal Government as a whole.

Leave

Annual leave is accrued as earned, and the accrual is reduced as leave is taken. Each year, the balance in
the accrued annual leave account is adjusted to reflect current leave balances and pay rates. Annual leave
is reflected as a liability not covered by current budgetary resources. Sick leave and other types of non-
vested leave are expensed as taken.

Revenue and Other Financing Sources

Regulatory Fee Collections (Exchange) - The Omnibus Budget Reconciliation Act of 1993 directed the
FCC to assess and collect regulatory fees to recover the costs incurred in carrying out certain provisions
of its mission. Section 9(a) of the Act, as amended, authorizes the FCC to assess and collect annual
regulatory fees to recover the costs, as determined annually by Congress, incurred in carrying out its
strategic goals of broadband, competition, spectrum, media, homeland security and modernizing the FCC.
These fees were established by congressional authority, and, consistent with OMB Circular No. A-25
revised, User Charges, the FCC did not determine the full costs associated with its regulatory activity in
establishing regulatory fees. Since 1993, Congress has annually reviewed the regulatory fee collection
requirements of the Commission and established the total fee levels to be collected. Fees collected up to
the level established by Congress are applied against the FCC’s annual appropriation at the close of each
fiscal year. The regulatory fee levels of $280,098 for FY 2005 and $272,958 for FY 2004 were achieved.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                 88
UNAUDITED
                                                                                         UNAUDITED


Note 1 - Summary of Significant Accounting Policies (continued)

Revenues and Other Financing Sources (continued)

Radio Spectrum Auction Proceeds (Exchange) – In accordance with the provisions of Statement of
Federal Financial Accounting Standards (SFFAS) 7, Accounting for Revenue and Other Financing
Sources, the FCC accounts for this exchange revenue as a custodial activity. Revenue from spectrum
auctions is recognized when a “prepared to grant” or “grant” public notice is issued. The value of
available spectrum is determined by the market place at the time of auction. The FCC recognized
custodial revenue of $158,487 in FY 2005 and $204,961 in FY 2004.

Offsetting Collections (Exchange) – One of the FCC’s primary functions is managing the spectrum
auction program. Proceeds from the auctions are initially remitted to the FCC and are later transferred to
the U.S. Treasury, net of anticipated auction related costs (under 47 U.S.C. § 309, the FCC may retain a
portion of the spectrum auction proceeds to offset the cost of performing the auction function).
Collections used to offset the cost of performing auctions-related activity totaled $85,000 in FY 2005 and
$85,000 in FY 2004.

Application Fees (Exchange) – Congress authorized the FCC ( 47 U.S.C. § 8) to impose and collect
application processing fees and directed the FCC to prescribe charges for certain types of application
processing or authorization services it provides to communications entities over which the FCC has
jurisdiction. The FCC amends its Schedule of Application Fees (47 C.F.R. § 1.1102 et seq.) to adjust the
fees for processing applications and other filings. Section 8(b) of the Act, as amended, requires the
Commission to review and adjust its application fees every two years. The adjusted or increased fees
reflect the net change in the Consumer Price Index for all Urban Consumers (CPI-U), calculated over a
specific period of time. Application fees are deposited in the Treasury and are not available for the FCC’s
use. Application fees collected totaled $25,463 in FY 2005 and $20,159 in FY 2004.

Reimbursable Work Agreements (Exchange) – The FCC recognizes reimbursable work agreement
revenue when earned, i.e., goods that have been delivered or services rendered. The FCC executed
agreements totaling $1,372 in FY 2005 and $1,668 in FY 2004.

Annual Appropriations (Financing Source) – The FCC receives an annual Salaries and Expenses
appropriation from Congress. These funds are used to pay for operations during the fiscal year and are
repaid to the Treasury once regulatory fees are collected. The annual appropriation for FY 2005 is
$281,085 with regulatory fee collections of $280,098 resulting in a net appropriation of $987. The annual
appropriation for FY 2004 was $273,947 with regulatory fee collections of $272,958 resulting in a net
appropriation of $989.

Subsidy Estimates and Reestimates (Financing Source) – The FCC receives permanent-indefinite
authority for its credit reform program account in accordance with the FCRA of 1990, as amended, to
fund its subsidy estimates and reestimates, unless otherwise prescribed by OMB. This account records
the subsidy costs associated with the direct loans after FY 1991, as well as administrative expenses of the
loan program. The FCC received appropriations of $1,259,776 in FY 2005 and $638,098 in FY 2004 for
these purposes. These appropriations are available until used.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                89
UNAUDITED
                                                                                          UNAUDITED


Note 1 - Summary of Significant Accounting Policies (continued)

Revenues and Other Financing Sources (continued)

USF (Nonexchange) – Carriers conducting interstate telecommunications are required to contribute a
portion of their revenues to fund the cost of providing universal service. These contributions represent
appropriated dedicated and earmarked receipts and are accounted for as a budgetary financing source.
Contributions and related interest totaled $7,449,284 in FY 2005 and $6,350,269 in FY 2004.

Transactions with Related Parties

The FCC has relationships and conducts financial transactions with numerous Federal agencies, most
prominently the Treasury. In addition to its Federal relationships, the FCC has a direct relationship with
the administrators of those funds that are components under the overall FCC entity.

Net Position

Net Position is the residual difference between assets and liabilities and comprises Unexpended
Appropriations and Cumulative Results of Operations. Unexpended Appropriations represents the
amount of unobligated and unexpended budget authority. Unobligated Balance is the amount of
appropriations or other authority remaining after deducting the cumulative obligations from the amount
available for obligation. Cumulative Results of Operations is the net result of FCC’s operations since
inception.

Note 2 - Non-entity Assets

The following summarizes Non-entity Assets as of September 30, 2005 and 2004:

                                                                        2005                    2004
      Intragovernmental:
          Fund Balance with Treasury                              $ 1,342,976               $    328,473
          Accounts Receivable, Net                                      4,996                      7,907
       Total Intragovernmental                                      1,347,972                    336,380

      Cash and Other Monetary Assets                                      749                    82,583
      Accounts Receivable, Net                                         20,892                    16,103
      Total Non-entity Assets                                       1,369,613                   435,066
      Total Entity Assets                                           6,347,630                 6,932,632
      Total Assets                                                $ 7,717,243               $ 7,367,698

Non-entity Fund Balance with Treasury primarily represents deposits made towards spectrum auction
winning bids. These deposits accounted for $1,337,550 in FY 2005 and $326,284 in FY 2004. Non-
entity Cash and Other Monetary Assets consist of upfront deposits made by potential spectrum auction
bidders. Receivables considered non-entity are for regulatory fees, application fees, fines and forfeitures,
spectrum auction receivables, and ITS charges.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                  90
UNAUDITED
                                                                                          UNAUDITED


Note 3 - Fund Balance with Treasury

The following summarizes Fund Balance with Treasury as of September 30, 2005 and 2004:

Fund Balances:                                           Status of Fund Balances:

                            2005               2004                                     2005       2004
                                                         Unobligated Balance


  Appropriated Funds $ 112,613        $        99,925    Available             $      98,408 $    75,142
  Revolving Funds       67,196                 59,506    Unavailable               1,351,329     338,050

  Deposit Funds          1,342,976             328,473   Obligated Balance

                                                         not yet disbursed           73,048        74,712

Total Fund Balance     $ 1,522,785     $       487,904   Total                 $ 1,522,785 $     487,904

Appropriated Funds – Includes the salaries and expense appropriation used to fund agency operations, the
auction and reimbursable accounts, the no-year accounts used to carry over spectrum auction and
regulatory fee funds not obligated in the year received, and the credit reform program account.

Revolving Funds – Includes the credit reform financing account used to record cash flows associated with
the FCC’s spectrum auction loan program.

Deposit Funds – Includes monies being held for spectrum auctions, ITS, and regulatory fees. Deposit
funds are not available for use by the FCC unless they are properly identified or reclassified as FCC
funds. Otherwise, these funds are returned to the depositor or transferred to the Treasury.

Note 4 – Cash and Other Monetary Assets

The following summarizes Cash and Other Monetary Assets as of September 30, 2005 and 2004:

                                             2005                  2004
Cash and Cash Equivalents                  $   57,093            $  289,714
Accrued Interest                                   21                 1,898
Total                                      $   57,114            $ 291,612

USF and NANP contributions and third party deposits made pursuant to spectrum auction activities are
the source of funds for these balances. Third-party deposits, unless refunded, are held until 45 days after
the close of a given auction and then transferred to the FCC’s Treasury account. Interest earned on cash
and other monetary assets is reinvested, with the exception of interest earned on third-party deposits,
which is transferred to the Telecommunications Development Fund (TDF).

In FY 2005 Cash and Other Monetary Assets included $749 in up-front deposits or related accrued
interest being held for spectrum auctions, $48,150 in USF contributions and related accrued interest being
held for distribution, and $8,215 in NANP deposits and related accrued interest.


PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                91
UNAUDITED
                                                                                           UNAUDITED


In FY 2004, Cash and Other Monetary Assets included $82,583 in upfront deposits and related accrued
interest being held for spectrum auctions, $199,784 in USF contributions and related accrued interest
being held for distribution, and $9,245 in NANP deposits and related accrued interest.

Note 5 - Investments

The following summarizes Investments as of September 30, 2005 and 2004:

                                                      Unamortized            Market
                                         Amortization (Premium) Investments, Value
FY 2005                              Cost Method        Discount    Net     Disclosure
Intragovernmental Securities:

    Marketable Securities:
    Treasury Bills               $4,119,760   EI      $       17,094 $ 4,136,854 $4,121,516
    Treasury Notes                   19,996   EI                   4      20,000     19,803
    Accrued Interest                    189   NA                             189        189
    Total                        $4,139,945                          $ 4,157,043 $4,141,508

Other Securities:

    Marketable Securities        $        -   EI          $       -       $      - $         -
    Accrued Interest                      -   NA                                 -           -
    Total                        $        -                                         $        -

FY 2004
Intragovernmental Securities:

    Marketable Securities:
    Treasury Bills               $3,236,836   EI      $ 6,914             $3,243,750 $3,236,860
    Treasury Notes                   19,961                39                 20,000     19,942
    Accrued Interest                    252   NA                                 252        252
    Total                        $3,257,049                               $3,264,002 $3,257,054

Other Securities:

    Marketable Securities        $      317   EI              $   - $          317    $    316
    Accrued Interest                      2   NA                                  2          2
    Total                        $      319                           $        319    $    318

EI – Effective Interest Method
NA – Not Applicable

The portfolio consists primarily of Treasury Bills with maturities not greater than 90 days. All Treasury
securities, regardless of the maturity date, are reported as investments. The FCC generally expects to
hold all investments to maturity; therefore, no adjustments have been made to present market values.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                               92
UNAUDITED
                                                                                                 UNAUDITED


Note 6 - Accounts Receivable, Net

The following summarizes Accounts Receivable, Net as of September 30, 2005 and 2004:

                                         Intragovernmental                 Public               Total
FY 2005
 Gross Accounts Receivable               $         4,996           $        1,369,248       $ 1,374,244
 Allowance for Doubtful Accounts              (        -)          (         695,755)       (   695,755)
Net Accounts Receivable                       $    4,996           $          673,493       $   678,489

Interest on Delinquent AR                    $         -           $          45,856        $       45,856

FY 2004
 Gross Accounts Receivable                   $      7,907          $        1,255,303      $   1,263,210
 Allowance for Doubtful Accounts             (          -)             (      677,535)        ( 677,535)
Net Accounts Receivable                      $      7,907          $          577,768       $    585,675

Interest on Delinquent AR                    $          -          $          45,856        $      45,856

Accounts receivable are recorded net of any related allowance for doubtful accounts. The FCC’s portion
is determined by applying predetermined percentages against the respective date the receivable was
established. The current formula for the FCC’s allowance is 25% for receivables 91-180 days
outstanding, 75% for those 181-365 days outstanding, and 100% for anything greater than 365 days
outstanding. An additional analysis of higher dollar value receivables is also performed on individual
account balances. The USF portion is determined by calculating an estimated general allowance for
doubtful accounts receivable, and reserving 100% for known bankruptcy and inactive accounts. The
general allowance is calculated by multiplying the aged billing amounts by the percentage of the monthly
delinquent accounts receivable over the monthly billing amounts.

A 100% allowance is also made for all Notice of Apparent Liabilities (NAL) receivables and
Commitment Adjustment (COMAD) audit receivables. The NAL receivables represent notifications of a
forfeiture, subject to final determination. While these receivables are included on the Treasury Report on
Receivables at the request of Treasury, the ability to collect these receivables is not determined until a
final judgment is issued. Similarly, the COMAD audit receivables represent preliminary audit findings
that are subject to appeal by the auditee and are not considered final until the appeals period has lapsed or
a final determination has been issued.

                                       FY 2005                                           FY 2004             .

                          Accounts                         Accounts
                         Receivable  Allowance Net       Receivable    Allowance     Net
USF                      $ 843,931 $ (191,390) $652,541    $ 762,723 $ (201,715) $ 561,008
COMAD                        59,981   ( 59,981)        -      31,063   ( 31,063)         -
Regulatory Fees              24,207   ( 13,423)   10,784      25,650   ( 14,231)    11,419
Spectrum Auction            408,969   (402,791)    6,178     401,366   ( 401,320)       46
Forfeitures                  24,798   ( 23,661)    1,137      27,186   ( 24,963)     2,223
Other                        12,358   ( 4,509)     7,849      15,222   ( 4,243)     10,979
Total                    $1,374,244 $ (695,755) $678,489 $ 1,263,210 $ (677,535) $ 585,675




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                         93
UNAUDITED
                                                                                         UNAUDITED


Note 7 – Loans Receivable, Net

Under Section 309(j)(3) of the Act, as amended, Congress directed the FCC to implement a competitive
bidding (auctions) system for licensing spectrum to expand economic opportunity, promote competition,
and facilitate the development and delivery of new and improved telecommunications services to the
public. Section 309(j)(4) of the Act gave the Commission certain instructions for implementing
regulations for this system, including a directive to ensure that small businesses, rural telephone
companies, and women and minority-owned businesses have an opportunity to participate in providing
spectrum-based services. The FCC can use various means to facilitate expanded participation, including
alternative payment schedules, tax certificates, bidding preferences, and other procedures.

To address the mandate, the FCC provided installment financing in connection with its spectrum auction
events, including the C Block Broadband Personal Communications Services (PCS), F Block PCS,
Narrowband PCS, IVDS, MDS, and 900MHz Specialized Mobile Radio (SMR). Under the installment
financing program, winning bidders were generally given five or ten years to repay their net winning bid
amount (less the down payment), with up to five-year, interest-only initial payment periods. Interest rates
varied by the type of borrower. Retention of licenses granted at auction was strictly conditioned on
making full and timely payment of amounts as they become due. The return or repossession of auctioned
licenses, which may have previously been associated with installment payment plans, does not directly or
immediately affect the amount of the outstanding debt recorded in the agency’s financial records.
Outstanding debt adjustments are subject to a separate process.

The FCC’s first auction was conducted in 1994, and starting in 1995 installment payment mechanisms
were used to finance portions of some winning bids. The last active loan will mature in FY 2009. The
FCC’s installment loan portfolio is tracked under ten cohorts.

As required under the FCRA of 1990, as amended, the FCC coordinates with the OMB in developing
estimation guidelines, regulations, and the criteria used in calculating the subsidy estimates and
reestimates.

The most recent subsidy reestimate was completed in August 2005 for actual performance data through
May 31, 2005 and estimated data from June through September, 2005. The reestimate resulted in a net
downward adjustment, including interest on the reestimate, of $44,224 reported in the FY 2005 financial
statements. The decrease is the result of a $180,566 downward reestimate in F-Block, where the resale
of Nextwave licenses was substantially more than the outstanding principal, and an increase of $134,833
in C-Block, where the resale of Nextwave licenses was not sufficient to cover all of the outstanding
principle.

During FY 2005 the FCC wrote off all remaining NextWave loans which accounted for $3,345,913,
$2,092,626, and $17,093 decreases to the gross Loans Receivable, Interest Receivable and Other
Receivable balances, respectively, and a decrease of $5,455,632 to the Allowance for Subsidy Cost. The
write-off of the NextWave loans resulted in a negative subsidy balance. The negative subsidy reflects the
fact that the FCC expects to collect amounts through the re-auction of licenses versus installment
payments and as a result has a higher net loan balance than the gross loan balance.

The FCC re-auctioned multiple C & F block licenses, including those returned by NextWave in Auction
#58 and expects C-block recoveries of $1,863,317, F-Block recoveries of $171,053, and new auction
receipts of $8,860 as a result of this auction. Actual Auction # 58 recoveries received as of September 30,
2005 were $944,815. Other recoveries received through September 30, 2005 totaled $82,436 and payoffs,
installments, and other payments totaled $577,120.


PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                94
UNAUDITED
                                                                                             UNAUDITED


Note 7 – Loans Receivable, Net (continued)

Loans Receivable – Loans receivable are recorded as the principal outstanding, net of allowance for
subsidy. Allowance for subsidy costs represents the difference between the present values of estimated
net cash inflows and outflows of the spectrum auction loans. The allowance for subsidy cost is amortized
using the effective interest method based on the Treasury’s interest rate for the year the loans were
disbursed. The allowance for subsidy also provides for write-offs on defaults and other costs that may
affect cash flows.

Accrued Interest – FCC accrues interest on loans as it is earned. Current FCC policy automatically grants
spectrum auction loans two sequential three-month grace periods for which borrowers are charged late
fees except for the final payment, which has no grace period. In accordance with FCC rules, at the end of
the total six-month grace period loans are considered to be in default and the license is automatically
cancelled. For financial reporting purposes, the FCC discontinues accruing interest on loans beyond the
six-month grace period, since these loans are considered non-performing. Under FCC policy, only
interest on the performing loans is accrued and recorded for financial reporting purposes.

Direct Loans

                        Loans                                                Allowance for    Value of
                        Receivable,        Interest         Other            Subsidy Cost      Assets Related
Loan Program            Gross              Receivable       Receivables     (Present Value) to Direct Loans
Spectrum Auctions:
   FY 2005 Bal.         $ 471,917          $   33,989       $       1,987    $   749,372         $ 1,257,265

    FY 2004 Bal.        $ 4,313,522        $ 2,189,035      $   20,952       $ (3,831,651)       $ 2,691,858

Interest accrued on bankrupt and defaulted loans totaled $33,281 as of September 30, 2005 and
$2,186,907 in FY 2004.

Total Amount of Direct Loans Disbursed

Loan Program                 FY 2005                     FY 2004

Spectrum Auctions       $              -          $             -

No new loans were issued in FY 2005 and 2004.

Subsidy Expense for Direct Loans by Program and Component

1. Subsidy Expense for New Direct Loans Disbursed:

                        Interest
    Loan Program        Differential       Defaults         Fees             Other           Total
    FY 2005             $        -         $      -         $ -              $   -           $     -

    FY 2004             $        -         $      -         $   -            $   -           $      -




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                   95
UNAUDITED
                                                                                            UNAUDITED


Note 7 – Loans Receivable, Net (continued)

Subsidy Expense for Direct Loans by Program and Component

2. Direct Loan Modifications and Reestimates:
                                         Interest Rate          Technical               Total
   Loan Program       Modifications      Reestimates            Reestimates             Reestimates
   Spectrum Auctions

    FY 2005 (Net)       $         -           $    -            $      (24,501)         $     (24,501)

    FY 2004 (Net)       $         -           $    -            $      732,660          $     732,660

3. Total Direct Loan Subsidy Expense:

    FY 2005             $          -
    FY 2004             $          -

Subsidy Rates for Direct Loans by Program and Component

                          Interest
  Loan Program          Differential   Defaults        Fees              Other                Total
  FY 2005                      0%          0%             0%                0%                     0%
  FY 2004                      0%          0%             0%                0%                     0%

Schedule for Reconciling Subsidy Cost Allowance Balances

                                                              2005                      2004
Beginning Balance of the Subsidy Cost Allowance           $ 3,831,651             $    968,023

Subsidy expense for direct loans disbursed:
During the reporting years by component:
        Interest rate differential costs                                 -                     -
        Default costs (net of recoveries)                                -                     -

Adjustments:
       Recoveries                                               1,027,251                      -
       Loans written off                                       (5,470,721)              (77,674)
       Subsidy allowance amortization                            (113,078)            2,208,286
       Other                                                            26                  356
Ending balance before reestimates                                 (724,871)           3,098,991

Subsidy reestimates:
       Technical/default reestimate                                 (24,501)           732,660

Ending balance of the subsidy cost allowance               $ (749,372)            $ 3,831,651

Administrative Expense                                          2005                   2004

    Spectrum Auctions                                      $         24,269       $     32,781


PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                 96
UNAUDITED
                                                                                           UNAUDITED


Note 8 – Seized and Forfeited Property

FCC seizes property from illegally operated radio and other communication operations. The property is
comprised of radio frequency, audio, and other communications equipment. Forfeited property consists
of seized property legally turned over to the FCC. Although seized and forfeited property cannot be sold
due to legal restrictions, and is not recognized for financial purposes, the quantity and value of seized and
forfeited property is reported below. The property is tracked using the lot number assigned when seized.
The following summarizes Seized and Forfeited Property as of September 30, 2005 and 2004:

                                FY 2005                          FY 2004
                           No. of       Dollar            No. of        Dollar
                           Lots         Value             Lots          Value
Seized Property
Beginning Balance            40          $  92               37            $   73
Seized                        2             12               21                20
Forfeited                    (4)           (16)             (18)               (1)
Ending Balance               38          $ 88                40            $   92


                                FY 2005                            FY 2004
                           No. of       Dollar            No. of          Dollar
                           Lots         Value             Lots            Value
Forfeited Property
Beginning Balance            14          $  10              8              $  6
Forfeited                     4             16             24                10
Disposed                     (7)           (16)           (18)               (6)
Ending Balance               11          $ 10              14              $ 10

Note 9 - General Property, Plant and Equipment, Net

The following summarizes General PP&E as of September 30, 2005 and 2004:
                            FY 2005                                 FY 2004       .
                                Accum. Net Book                 Accum Net Book Estimated
Major Classes        Cost       Deprec     Value       Cost     Deprec    Value     Useful Life
Land              $ 1,443 $            - $ 1,443 $ 1,443 $             - $ 1,443       N/A
Buildings             5,493        3,941     1,552       5,493    3,890     1,603      40
Non-Computer
Equipment            37,493       32,356     5,137     36,220 28,413        7,807      7
Computer
Equipment            28,613       18,694     9,919     27,756 16,048       11,708      5
Vehicle Systems       4,380        3,306     1,074       4,485    3,058     1,427      5
Leasehold
Improvements          3,108          570     2,538       3,108      259     2,849      10
ADP Software         45,919       37,420     8,499     39,187 26,799       12,388      3
Software
in Development       21,036            -    21,036     14,030          -   14,030      N/A

Total                $ 147,485     $ 96,287 $ 51,198        $131,722 $ 78,467 $ 53,255

The FY 2005 balance includes $2,094 for equipment being held by FCC component entities. No balance
is available for FY 2004. All asset classes are depreciated on a straight-line basis.

PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                  97
UNAUDITED
                                                                                           UNAUDITED



Note 10 - Liabilities Not Covered by Budgetary Resources

The following summarizes Liabilities Not Covered by Budgetary Resources as of September 30, 2005
and 2004:
                                                                  2005              2004
        Intragovernmental:
             Other:
                FECA Liability                               $      457           $      448

        Other:
                 Unfunded Leave                                          17,052               17,102
                 Accrued Liabilities for Universal Service              418,826              385,989
        Total liabilities not covered by budgetary resources            436,335              403,539
        Total liabilities covered by budgetary resources              2,846,682            4,658,526
        Total Liabilities                                           $ 3,283,017          $ 5,062,065

The Federal Employees Compensation Act (FECA) liability represents the amount of bills received by the
Department of Labor for worker’s compensation. These bills are received one year in advance of when
they are due and are not funded until the subsequent fiscal year.

Unfunded Leave is funded at the time the leave is taken, and is therefore not funded with current year
budgetary resources.

Note 11 - Debt

                                 2004                            2004                        2005
                               Beginning         Net            Ending         Net          Ending
                                Balance        Borrowing        Balance      Borrowing      Balance

Agency Debt:
    Held by the Public          $ 55,848          (55,848)             -             -                -

Other Debt:
    Debt to the Treasury        5,065,438      (1,124,674)       3,940,764   (2,666,966)    1,273,798

Total Debt                     $ 5,121,286 $ (1,180,522)       $ 3,940,764 $(2,666,966) $ 1,273,798


Classification of Debt:
                                                      2005                     2004
     Debt to the Treasury                        $ 1,273,798               $ 3,940,764
     Debt held by the Public                               -                         -
                 Total Debt                      $ 1,273,798               $ 3,940,764

Agency debt represents the remaining liability on an initial voucher of $125,274 issued to settle
successful litigation against the FCC.

The FCC also borrows from the Treasury for costs associated with its spectrum auction loan program.
Borrowings, pertaining to all loan cohorts, are determined by calculating the subsidy estimates and
reestimates in accordance with the FCRA of 1990, as amended.

PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                  98
UNAUDITED
                                                                                            UNAUDITED


Note 12 - Other Liabilities

The following summarizes Other Liabilities as of September 30, 2005 and 2004:

FY 2005                                     Non-Current            Current          Total
Intragovernmental
    Custodial Liability                       $           -    $       222,350 $     222,350
    Accrued Interest on Debt                              -                 -              -
    Other:
        Accrued Payroll                                   -              1,339         1,339
        FECA Liability                                     -               457           457
        Other                                              -               30             30
        Total Other                                        -            1,826         1,826
Total Intragovernmental                       $           -    $       224,176 $     224,176

Deferred Revenue                              $   18,135       $ 1,167,639 $ 1,185,774
Prepaid Contributions                                  -            57,360      57,360
Deposit/Unapplied Liability                            -             5,232       5,232
Accrued Liabilities for Universal Service              -           418,826     418,826
Other:
        Accrued Payroll                                -                 7,009       7,009
        Unfunded Leave                                 -                17,052      17,052
        Other                                          -                19,339      19,339
Total Other                                            -                43,400      43,400
Total Other Public                            $   18,135           $ 1,692,457 $ 1,710,592

FY 2004                                     Non-Current            Current          Total
Intragovernmental
    Custodial Liability                       $           -    $       310,130     $ 310,130
    Accrued Interest on Debt                              -                 -             -
    Other:
        Accrued Payroll                                   -              1,164         1,164
        FECA Liability                                    -               448           448
        Other                                             -                 -              -
        Total Other                                       -             1,612          1,612
Total Intragovermental                        $           -    $       311,742 $     311,742

Deferred Revenue                              $   16,967       $        65,022 $      81,989
Prepaid Contributions                                  -               159,260       159,260
Deposit/Unapplied Liability                            -                83,038        83,038
Accrued Liabilities for Universal Service              -               385,989       385,989
Other:
        Accrued Payroll                                -                 6,316         6,316
        Unfunded Leave                                 -                17,102        17,102
        Other                                          -                19,488        19,488
Total Other                                            -                42,906        42,906
Total Other Public                            $   16,967       $       736,215 $     753,182




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                99
UNAUDITED
                                                                                        UNAUDITED


Note 12 - Other Liabilities (continued)

The Custodial Liability includes both cash collected and receivables being held for transfer to the
Treasury’s General Fund. The FCC collects the following types of custodial revenue: spectrum auction
revenue, fines and forfeitures revenue, penalty revenue on regulatory fees, ITS processing fees, and
interest revenue on auction deposits (held for TDF). Deferred revenue represents regulatory fees,
spectrum auction revenue, or contributor payments that have been received but not earned by the FCC.

Deposit/Unapplied Liability represents upfront deposits made by auction bidders as well as funds
received that are being held until proper application is determined. Prepaid Contributions includes
contribution overpayments that may be refunded and USF contributions paid in advance that will be
drawn down during the year. Accrued Liabilities for Universal Service represent liabilities recorded by
the USF for anticipated subsidies in the High Cost, Low Income, and TRS programs. The obligation for
these subsidies is not recognized until payment files are approved in the subsequent month.

Note 13 - Leases

Operating Leases

The FCC has operating leases for rental of office space and office equipment. The copier lease
arrangements are renewable annually with five possible annual renewal periods. As a Federal agency the
FCC is not liable for any lease terms beyond one year. The FCC anticipates that space levels consistent
with FY 2005 will be required for the next five years and has estimated space and copier payments
consistent with the schedule below. No estimates beyond five years have been provided because of the
cancelable nature of the agreements.

Anticipated lease requirements are as follows:

        Fiscal Year                     Building            Copier               Total
            2006                    $       39,898         $ 1,419              $ 41,317
            2007                            40,780            1,419               42,199
            2008                            41,684            1,419               43,103
            2009                            42,608            1,419               44,027
            2010                            43,348            1,419               44,767
    Total Future Lease Payment          $ 208,318           $ 7,095            $ 215,413

Note 14 - Commitments and Contingencies

The FCC, USAC, and the Department of Justice are investigating several cases related to disbursements
of USF funds from the schools and libraries program, which might result in future proceedings or actions.
The complexity of these actions precludes management from estimating the total amount of recovery that
may result from these actions.

The FCC is a party in various administrative proceedings, legal actions, and claims brought by or against
the agency. In addition, several bankruptcy proceedings are ongoing related to the loan portfolio. In the
opinion of FCC management, the ultimate resolution of proceedings, actions and claims will not
materially affect the FCC’s financial position or results of operations.

The FCC has examined its obligations related to FY 2000 cancelled authority and believes it has no
outstanding commitments requiring future resources.


PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                            100
UNAUDITED
                                                                                   UNAUDITED


Note 15 – Intragovernmental Costs and Exchange Revenue

Intragovernmental costs primarily represent interest expense paid by the FCC on outstanding credit
reform borrowing. Additional amounts are also recognized for goods and services purchased by the FCC
from other Federal agencies. Intragovernmental revenue reported for the Statement of Net Cost will
differ from Intragovernmental revenue reported in the RSI by $91,172 as a result of interest revenue
earned by USF on Treasury bills being reported on the statement of changes in net position.

Program Costs – FY 2005
            Program                 Intragovernmental           Public                 Total
 Broadband                                   $   6,792                17,901                 24,693
 Competition                                    29,987             6,649,264              6,679,251
 Spectrum                                      316,376               187,141                503,517
 Media                                           8,328                22,105                 30,433
 Homeland Security                               9,765                25,680                 35,445
 Modernize the FCC                              13,023                40,311                 53,334
 Total                                         384,271             6,942,402              7,326,673

Program Earned Revenue – FY 2005
            Program              Intragovernmental              Public                 Total
 Broadband                                         -                  26,995                    26,995
 Competition                                       -                 118,231                   118,231
 Spectrum                                   102,729                  387,158                   489,887
 Media                                             -                  31,887                    31,887
 Homeland Security                              990                   35,963                    36,953
 Modernize the FCC                                 -                  54,280                    54,280
 Total                                      103,719                  654,514                   758,233

Program Costs – FY 2004
            Program                 Intragovernmental           Public                 Total
 Broadband                                       5,416                14,800                 20,216
 Competition                                    32,847             5,940,956              5,973,803
 Spectrum                                      396,417             1,319,520              1,715,937
 Media                                           7,870                21,520                 29,390
 Homeland Security                               8,779                25,161                 33,940
 Modernize the FCC                              12,914                39,247                 52,161
 Total                                         464,243             7,361,204              7,825,447

Program Earned Revenue – FY 2004
            Program              Intragovernmental              Public                 Total
 Broadband                                         -                  21,388                    21,388
 Competition                                       -                 125,921                   125,921
 Spectrum                                    52,656                  494,710                   547,366
 Media                                             -                  29,068                    29,068
 Homeland Security                              544                   34,273                    34,817
 Modernize the FCC                                 -                  52,009                    52,009
 Total                                       53,200                  757,369                   810,569




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                          101
UNAUDITED
                                                                                      UNAUDITED



Note 16 - Apportionment Categories of Obligations Incurred

The following summarizes Apportionment Categories of Obligations Incurred as of September 30, 2005
and 2004:

                                           FY 2005                             FY 2004
                                   Budgetary     Non-Budgetary          Budgetary   Non-Budgetary
Direct
     Category A                    $    365,848     $           -       $   362,806 $             -
     Category B                       9,864,270           306,351        16,386,043         345,729
Total Direct                       $ 10,230,118     $     306,351       $16,748,849 $       345,729

Reimbursable
     Category A                    $      1,359     $             -     $    1,981     $          -
     Category B                                -                  -              -                -
Total Reimbursable                 $      1,359     $             -     $    1,981     $          -


Category A – Apportioned by Quarter
Category B – Apportioned by Purpose

Note 17 - Available Borrowing/Contract Authority, End of Period

The FCC receives borrowing authority consistent with the FCRA of 1990, as amended. The borrowing is
authorized through an indefinite permanent authority at interest rates the Treasury sets each year. In
addition, the FCC has permanent indefinite authority for subsidizing the spectrum auction direct loan
program.

All borrowings are from the BPD. In accordance with applicable standards, all funds are borrowed at the
beginning of the period. Therefore, the FCC does not carry over any unused borrowing authority.
Repayments of borrowings are made in accordance with the terms of the FCRA of 1990, as amended.
Financing sources for repayment are collections from borrowers or subsidy. The FCC had no available
borrowing authority at September 30, 2005.

Note 18 - Terms of Borrowing Authority Used

The FCC has three types of financing sources: loan payments made by the public, interest from the
Treasury, and subsidy expenses received from the Treasury. The FCRA of 1990 stipulates that the rate
used for subsidy calculations, borrowings, and interest on uninvested funds must be for a maturity
comparable to the maturity of the direct loans made to the public. The majority of FCC’s direct loans
have a maturity of ten years.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                           102
UNAUDITED
                                                                                         UNAUDITED


Note 19 – Legal Arrangements Affecting Use of Unobligated Balances

The FCC may carry forward regulatory fees received in excess of the legislative level contained in the
FCC’s annual appropriation language for use in the next fiscal year, subject to notification of the
congressional appropriations subcommittees. All other no-year unobligated balances are available
without restriction at the start of the next fiscal year, following apportionment by the OMB.

Note 20 - Explanation of Differences Between the Statement of Budgetary Resources and the
Budget of the U.S. Government

The schedule below presents differences for FY 2004. The Budget of the United States Government with
actual numbers for FY 2005 has not been published. Pursuant to 31 USC § 1105, the Budget of the
United States Government will be released the first Monday in February, and will be available at the
following website: http:/www.whitehouse.gov/omb.

                                                  Combined Statement       President’s
                                                 of Budgetary Resources     Budget
Budgetary Resources ($ in millions):                      2004                2004       Difference

    Budget Authority                                     $ 16,690         $ 16,690       $     -
    Unobligated Balances – Beginning of Period                   5               (5)         (10)     A
    Spending Authority from Offsetting Collections           1,914            1,901          (13)     B
    Adjustments                                             (1,180)         (1,183)           (3)     C
    Total Budgetary Resources                               17,429          17,403           (26)

Status of Budgetary Resources ($ in millions):

    Obligations Incurred                                 $ 17,097         $ 17,030       $   (67)     D
    Unobligated Balances – Available                          250              373           123      E
    Unobligated Balances – Not Available                       82                 -          (82)     F
    Total, Status of Budgetary Resources                    17,429           17,403          (26)

Outlays ($ in millions):

    Obligations Incurred                                 $ 17,097         $ 17,030       $ (67)       D
    Less: Spending Authority from Offsetting
          Collections and Adjustments                     ( 1,914)         ( 1,914)             -
    Obligated Balance, net – Beginning of Period              140              140              -
    Less: Obligated Balance, net – End of Period           (3,022)          (3,022)             -
    Total Outlays                                          12,301           12,234           (67)     D
    Less: Offsetting Receipts                                  21               21             -
    Net Outlays                                          $ 12,280         $ 12,213       $   (67)




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                              103
UNAUDITED
                                                                                          UNAUDITED


Note 20 - Explanation of Differences Between the Statement of Budgetary Resources and the
Budget of the U.S. Government (continued)

A –The financial statements must account for ($10) million in unavailable authority related to prior year
expired accounts. The budget balances only incorporate available authority.

B – The budget reflects the $13 million balance of current and past fiscal year regulatory fees collected in
excess of the congressionally mandated target as a reduction to authority. The CFS reflects this balance
on the unobligated balances – not available line. The presentation change was made during the OMB
Max submission process after issuance of the CFS.

C – The budget does not include recoveries of ($9) million or cancelled and other returned authority of $6
million as part of the adjustments line.

D – The exclusion of upward adjustments from the budget accounts for ($4) million. The adjustments to
USF Undelivered orders in FY 2005 accounts for $63 million (See Note 24).

E – The unapportioned balances for all no-year accounts, totaling $60 million, are reported in the budget
as available but are reported as unavailable in the financial statements until they are re-apportioned the
following year. The adjustments to USF Undelivered orders in FY 2005 accounts for $63 million (See
Note 24).

F – The financial statements include expired unobligated balances of ($9) million, while the budget does
not reflect this amount. The CFS also includes the ($13) million regulatory fee balance and the ($60)
million in unapportioned no-year balances on this line, while the budget reflects these balances elsewhere
(see explanations C & F).

Note 21 - Explanation of the Relationship Between Liabilities Not Covered by Budgetary Resources
on the Balance Sheet and the Change in Components Requiring or Generating Resources in Future
Periods

Two amounts are shown in Note 10 as not covered by budgetary resources: FECA Liability and
Unfunded Leave. The changes in both of these balances between FY 2004 and FY 2005 are reflected as
part of Components Requiring or Generating Resources in Future Periods on the Statement of Financing.
The increase in unfunded leave of $50 is included in the increase in Annual Leave line on the Statement
of Financing, and the increase in FECA Liability of $9 is included as part of the Resources that fund
expenses recognized in prior periods line item.

Note 22 - Description of Transfers that Appear as a Reconciling Item on the Statement of Financing

The FCC collects applications fees to cover the cost of processing license applications. The FCC reports
the revenue associated with these fees as a revenue source on its Statement of Net Cost, but does not
retain the fees. To reflect the transfer of these fees to the Treasury, the FCC recognizes a transfer out on
the Statement of Changes in Net Position. The amount of $25,463 included in the Offsetting Receipts
line on the Statement of Financing is the total transferred for application fees.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                               104
UNAUDITED
                                                                                         UNAUDITED


Note 23 - Dedicated Collections

U.S. telecommunication companies are obligated to pay assessments for Universal Service support and
for Telecommunications Relay Service, established by the FCC. These assessments are accounted for in
the Budget of the U.S. Government as the “Universal Service Fund.” The FCC currently recognizes the
assessments collected under the USF Program as non-exchange revenue on its Statement of Changes in
Net Position, and the related disbursements as program expenses on the Statement of Net Cost.

The following summarizes the significant assets, liabilities, and related costs incurred with managing the
USF Program. See Required Supplementary Information for complete disclosure of all activity related to
the USF Program.

The following summarizes Dedicated Collections as of September 30, 2005 and 2004:

                                                 FY 2005                             FY 2004
Assets

Cash and Other
Monetary Asset                                  $       48,150                   $     199,784
Investments                                          4,139,945                       3,257,368
Accounts Receivable, Net                               652,747                         561,157
PPE, net                                                 1,944                               -
Other                                                   10,447                               -

Liabilities & Net Position

Accounts Payable                                $      67,748                    $      47,413
Unearned Revenue                                       32,503                           30,000
Prepaid Contributions                                  57,329                          159,221
Accrued Liabilities                                   418,826                          385,989
Net Position                                        4,276,826                        3,395,686

Revenues & Expenses

Contributions                                   $   7,354,754                    $ 6,309,741
Interest Revenue                                       93,174                         36,162
Penalty Revenue                                         1,356                          4,366

Provider Related Expenses                       $   6,485,904                    $ 5,779,605
Fund Administration Expenses                           82,239                         66,627
Loss on Disposition of Investments                          -                          4,808

Administrative costs are expenses related to managing and overseeing the USF Program. The USF
Program is charged administrative expenses by the USAC and the NECA for expenses such as salaries
and benefits of the employees dedicated to managing the universal service support mechanisms and the
telecommunications relay services mechanism; rent and utilities for office space used; providing
accounting and other financial reporting related services; and other miscellaneous activities.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                             105
UNAUDITED
                                                                                    UNAUDITED


Note 24 – Adjustments to Beginning Balance of Budgetary Resources

The FCC has adjusted the Unobligated Balance – Beginning of Period balance downward by
$13,983 from $286,554 in the FY 2004 published financial statements to $272,571. The decrease
is the net of an increase in resources of $48,956 related to Treasury reporting and a decrease of
$62,939 for adjustments related to undelivered orders. These adjustments are discussed in more
detail below.

Adjustment for Treasury Reporting

Shortly after the close of FY 2004 the FCC was notified by Treasury that a negative cash balance
was being reflected on Treasury reports for the Universal Service Fund. The negative balance
stemmed from the use of Money Market funds by USF to invest all available cash. While the
funds were available to the USF to fund outstanding checks, on Treasury reports they were
reflected as investments that had been outlayed. The outlay left no available funding in the cash
column of the Treasury report to cover outstanding checks. Based on Treasury interpretation, the
FCC processed a reporting entry to recognize the redemption of $48,956 at the point the checks
were issued instead of the point of presentment.

To reflect the adjustment in the FY 2005 financial statements the FCC increased the FY 2004
Appropriations Received balance from $16,637,922 to $16,686,878. The FCC also increased the
FY 2004 Unobligated, Other Available balance by $48,956 which combined with adjustments
outlined below resulted in a decrease from $261,343 to $247,360.

Adjustment to USF Undelivered Orders

The USF recognized obligations in relation to commitment letters issued for the Rural Healthcare
and Schools and Libraries programs for the first time in FY 2004. The decision to record these
obligations in the financial statements was made late in the fiscal year and afforded limited time
to fully review the process used to generate the $2,900,130 Undelivered Orders balance recorded
by USF for FY 2004. Subsequent review by USF during FY 2005 identified two changes to the
process that would have generated a higher balance if in place at the close of FY 2004. The first
change was the inclusion of database records with a pending or denied status in the determination
of the outstanding balance. Inclusion of these records in FY 2004 would have increased the
Undelivered Orders balance by $28,975. The second change was the recognition that there are
situations that occur regularly that allow a previously expired commitment amount to be re-
established and paid. An analysis of these situations identified an additional increase to the FY
2004 Undelivered Orders balance of $33,964.

The FCC has increased the FY 2004 Undelivered Orders balance by $62,939 for these changes
and has accrued a FY 2005 Undelivered Orders amount of $43,510 to cover expired obligations
related to the FY 2005 balance. Other accounts affected by the FY 2004 adjustments were
Obligations Incurred, Direct which increased from $16,685,910 to $16,748,849, and Unobligated,
Other Available which combined with the Treasury reporting adjustment decreased from
$261,343 to $247,360. The change to obligations incurred also had a corresponding impact to the
Change in Budgetary Resources Obligated for Goods, Services and Benefits Ordered but Not yet
Provided on the Statement of financing which increased from $2,880,985 to $2,943,924.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                     106
UNAUDITED
                                                                                        UNAUDITED


Adjustment to Beginning Balance (FY 2004)

In FY 2003 the FCC reported Money Market funds on the Balance Sheet as cash equivalents and as
available budgetary authority on the Combined Statement of Budgetary Resources (SBR). In FY 2004,
subsequent re-evaluation of OMB Circular A-11 (OMB A-11) Preparation, Submission, and Execution of
the Budget, guidance led the FCC to believe that if the Money Market shares are not purchased in funds
backed wholly by Treasury securities, they should be recorded as outlays and therefore do not represent
available budgetary authority. Accordingly money market funds were reported as outlays in FY 2004. A
beginning balance adjustment of ($2,398,337) was made to the Unobligated Balance: Beginning of Period
in FY 2004 to reflect the impact on opening balances.

The FCC reclassified the presentation of USF’s High Cost, Low Income, and TRS support mechanisms’
accounts payable totaling $385,989 and $340,479, in FYs 2004 and 2003 respectively, from Accounts
Payable to Accrued Liability for Universal Service (Other Liabilities). The FCC also determined, in
consultation with the Treasury and OMB, that the estimated accrued liabilities were not obligations as of
September 30, 2004 and 2003. A beginning balance adjustment of $340,479 was made to the
Unobligated Balance; Beginning of Period in FY 2004 to reflect the impact on opening balances. This
adjustment is part of the total amount of $2,057,858 reported as the Adjustment to Beginning Balance on
the SBR.

Note 25 – Unaudited Statements

During the course of FY 2004 the FCC and USAC began to address issues concerning the recognition of
commitment letters and money market fund purchases that represented a substantial increase to the
obligations of the fund. These issues prevented the FCC from providing full management representation
on the Statement of Budgetary Resources and Statement of Financing in FY 2004. As a result, the FCC’s
auditor did not express an opinion on these statements.

Note 26 – Comparability of the Financial Statements

The FCC has reclassified unapplied collections of $7,815 related to the Credit Reform Finance Account
from Deposit/ Unapplied Liability to Deferred Revenue on the Balance Sheet. The reclassification was
made for consistency with a FY 2005 reporting change requested by Treasury.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                            107
UNAUDITED
                                                           UNAUDITED


This Page Is Intentionally Left Blank




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005           108
UNAUDITED
                                                                                                                  UNAUDITED


UNAUDITED REQUIRED SUPPLEMENTARY INFORMATION
Note: The accompanying notes are an integral part of these statements

UNAUDITED INTRAGOVERNMENTAL ASSETS
As of September 30, 2005
(Dollars in thousands)
                                                   Intra-Governmental Assets




Partner                                        Fund              Accounts
Code    Trading Partner                       Balance            Receivable        Investments        Total

13      Department of Commerce-NTIA                                                                               -

15      Department of Justice                                                  1                                 1

17      Navy                                                               596                                 596

19      Department of State                                                    3                                 3

20      Department of Treasury                  1,522,785                      -      4,139,945        5,662,730

21      Army                                                               595                                 595

24      Office of Personnel Management                                                                            -

47      Genersal Services Administration                                       3                                 3

57      Air Force                                                          142                                 142

69      Department of Transportation                                          32                                32

70      Homeland Security                                                     76                                76

80      NASA                                                                   1                                 1

95      Board of International Broadcasting                                    1                                 1

97      Department of Defense                            -               3,546                                3,546

        Total                                   1,522,785                4,996        4,139,945        5,667,726




                                                 Intra-Governmental Liabilities




                                                                 Borrowings
Partner                                       Accounts             From              Other
Code    Trading Partner                       Payable          Treasury (BPD)       Liabilities       Total

        Funded

20      Department of Treasury                           -           1,273,798                    -    1,273,798

16      Department of Labor                              -                     -            487                487

24      Office of Personnel Management                   -                     -          1,036               1,036

99      General Fund/Other                               -                     -        222,653          222,653

        Total                                            -           1,273,798          224,176        1,497,974




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                                  109
UNAUDITED
                                                                                                 UNAUDITED


UNAUDITED INTRAGOVERNMENTAL EARNED REVENUES AND RELATED
COSTS
As of September 30, 2005
(Dollars in thousands)
                                       Intragovernmental Earned Revenues and Related Costs

Partner
Code    Trading Partner                                           Earned Revenue             Expenses

03      Library of Congress                                       $                 -        $              (18)

04      Government Printing Office                                                  -                     1,988

10      Judiciary System                                                                                      2

12      Department of Agriculture & NFC                                                                    251

13      Department of Commerce                                                     43                      118

14      Department of Interior                                                                            1,933

15      Department Of Justice                                                   153                      15,461

16      Department of Labor                                                                                212

18      United States Postal Service                                                                       136

19      U. S. Department of State                                                                             3

20      Department of Treasury                                              193,621                     269,308

24      Office of Personnel Management                                                                   42,763

45      Equal Employment Opportunity                                                                          2

47      General Services Administration                                                                  42,648

69      Dept. of Transportation - USCG

70      Homeland Security Admin.                                                303                        351

75      Health and Human Services -FOH                                                                      49

95      Board for International Broadcasting                                    221

97      Department of Defense                                                   550                         20

99      U S Treasury General Fund/Payroll Taxes                                                           9,044

        Total                                                               194,891                     384,271

NFC - National Finance Center
USCG - United States Coast Guard
FOH - Federal Occupational Health




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                     110
UNAUDITED
                                                                                         UNAUDITED




DEFERRED MAINTENANCE
As of September 30, 2005
(Dollars in thousands)

To determine the original estimated cost of deferred maintenance in FY 2000, the FCC contracted with
professional building inspectors to inspect its real property holdings, including buildings and structures.
In most cases the inspection reports were comprehensive reviews of the buildings and ground conditions
and included all items that required attention, whether critical to the functionality of the building or a
cosmetic feature. Each year, the FCC updates the report from the previous year for items completed and
newly identified projects. The estimated deferred maintenance for FY 2005 is $1,538.




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                              111
UNAUDITED
                                                                                                                                    UNAUDITED



UNAUDITED CONSOLIDATING BALANCE SHEET
As of September 30, 2005
(Dollars in thousands)
                                                            FCC             USF               NANP               Eliminations             Consolidated
ASSETS
 Intragovernmental
   Fund Balance with Treasury (Note 3)                  $   1,522,785   $         -       $          -       $             -          $       1,522,785
   Investments (Note 5)                                                     4,139,945                -                     -                  4,139,945
   Accounts Receivable (Note 6)                                 4,996               -                -                     -                      4,996
 Total Intragovernmental                                    1,527,781       4,139,945                -                     -                  5,667,726

 Cash and Other Monetary Assets (Note 4)                          749         48,150             8,215                     -                     57,114
 Investments (Note 5)                                             -              -                 -                       -                        -
 Accounts Receivable, net (Note 6)                             98,251        652,747                 84                (77,589)                 673,493
 Loans Receivable, net (Note 7)                             1,257,265            -                 -                       -                  1,257,265
 General Property, Plant, and Equipment, net (Note 9)          49,104          1,944               150                     -                     51,198
  Other                                                           -           10,447               -                       -                     10,447

Total Assets                                            $   2,933,150   $   4,853,233     $      8,449       $         (77,589)       $       7,717,243

LIABILITIES
 Intragovernmental
   Debt (Note 11)                                       $   1,273,798   $             -   $              -   $                  -     $       1,273,798
   Other (Note 12)
    Custodial                                                222,350              -                  -                     -                    222,350
    Other                                                      1,826              -                  -                     -                      1,826
   Total Other                                               224,176              -                  -                     -                    224,176

 Total Intragovernmental                                    1,497,974             -                  -                     -                  1,497,974

 Accounts Payable                                              5,634          67,748             1,069                     -                     74,451
 Other (Note 12)
  Deferred Revenue                                          1,152,629         32,503               642                     -                  1,185,774
  Prepaid Contributions                                           -           57,329                 31                    -                     57,360
  Deposit/Unapplied Liability                                   5,232            -                 -                       -                      5,232
  Accrued Liabilities For Universal Service                       -          418,826               -                       -                    418,826
  Other                                                       120,064            -                 925                 (77,589)                  43,400
 Total Other                                                1,277,925        508,658             1,598                 (77,589)               1,710,592

Total Liabilities                                       $   2,781,533   $    576,406      $      2,667       $         (77,589)       $       3,283,017

 Commitments and Contingencies (Note 14)

NET POSITION
 Unexpended Appropriations                              $     24,617    $         -       $        -         $             -          $          24,617
 Cumulative Results of Operations                            127,000        4,276,827            5,782                     -                  4,409,609

Total Net Position                                           151,617        4,276,827            5,782                     -                  4,434,226

Total Liabilities and Net Position                      $   2,933,150   $   4,853,233     $      8,449       $         (77,589)       $       7,717,243




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                                                             112
UNAUDITED
                                                                                                    UNAUDITED



UNAUDITED CONSOLIDATING STATEMENT OF NET COST
As of September 30, 2005
(Dollars in thousands)
                                                        FCC             USF             NANP           Consolidated
PROGRAM COSTS:
Broadband:
 Gross costs                                        $     24,692    $         -     $          -       $      24,692
 Less: Earned Revenue                                    (26,995)             -                -             (26,995)
 Net Program Costs                                        (2,303)             -                -              (2,303)
Competition:
 Gross costs                                             107,989        6,568,143          3,120           6,679,252
 Less: Earned Revenue                                   (113,870)             -           (4,361)           (118,231)
 Net Program Costs                                        (5,881)       6,568,143         (1,241)          6,561,021

Spectrum:
 Gross costs                                             503,517              -                -             503,517
 Less: Earned Revenue                                   (489,887)             -                -            (489,887)
 Net Program Costs                                        13,630              -                -              13,630
Media:
 Gross costs                                              30,433              -                -              30,433
 Less: Earned Revenue                                    (31,887)             -                -             (31,887)
 Net Program Costs                                        (1,454)             -                -              (1,454)

Homeland Security:
 Gross costs                                              35,445              -                -              35,445
 Less: Earned Revenue                                    (36,953)             -                -             (36,953)
 Net Program Costs                                        (1,508)             -                -              (1,508)
Modernize the FCC:
 Gross costs                                              53,334              -                -              53,334
 Less: Earned Revenue                                    (54,280)             -                -             (54,280)
 Net Program Costs                                          (946)             -                -                (946)

Total Net Program Costs                                    1,538        6,568,143         (1,241)          6,568,440

Cost not Assigned to Programs:
 Telecommunications Development Fund                       1,314              -                -               1,314
  Other Expenses                                            (759)             -                -                (759)

Less: Earned Revenues not Attributed to Programs:
 Telecommunications Development Fund                      (1,314)             -                -              (1,314)

Net Cost of Operations                              $         779   $   6,568,143   $     (1,241)      $   6,567,681




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                        113
UNAUDITED
                                                                                                                                                    UNAUDITED




UNAUDITED CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2005
(Dollars in thousands)

                                                               FCC                                USF                           NANP                        Consolidated
                                                    Cumulative                         Cumulative                     Cumulative                     Cumulative
                                                      Results     Unexpended             Results     Unexpended         Results     Unexpended         Results     Unexpended
                                                   of Operations Appropriations       of Operations Appropriations   of Operations Appropriations   of Operations Appropriations

Beginning Balances                                 $   (1,132,749) $       38,155     $   3,395,686   $       -      $      4,541    $       -      $   2,267,478    $      38,155

Budgetary Financing Sources:
 Appropriations received                                     -           1,260,763              -             -               -              -                -           1,260,763
 Other adjustments (recission, etc) (+/-)                 (1,095)           (1,664)             -             -               -              -             (1,095)           (1,664)
 Appropriations used                                   1,272,637        (1,272,637)             -             -               -              -          1,272,637        (1,272,637)
 Universal Fund Nonexchange Revenue                          -                 -          7,449,284           -               -              -          7,449,284               -

Other Financing Sources:
 Transfers-in/out without reimbursement (+/-)            (25,463)              -                -             -               -              -            (25,463)              -
 Imputed financing from costs absorbed by others          14,449               -                -             -               -              -             14,449               -

Total Financing Sources                                1,260,528          (13,538)        7,449,284           -               -              -          8,709,812          (13,538)

Less: Net Cost of Operations                                 779                          6,568,143                        (1,241)                      6,567,681

Ending Balances                                    $     127,000    $      24,617     $   4,276,827   $       -      $      5,782    $       -      $   4,409,609    $      24,617




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                                                                                       114
UNAUDITED
                                                                                                                                   UNAUDITED



UNAUDITED COMBINING STATEMENT OF BUDGETARY RESOURCES
As of September 30, 2005
(Dollars in thousands)


                                                                 FCC                                 USF                               Combined
                                                                   Non Budgetary                        Non Budgetary                       Non Budgetary
                                                                   Credit Program                      Credit Program                      Credit Program
                                                       Budgetary    Financing Acct         Budgetary    Financing Acct         Budgetary    Financing Acct
Budgetary Resources:

Budget Authority
 Appropriations Received                           $      1,260,763 $          -       $      8,638,673   $        -       $      9,899,436    $         -
 Borrowing Authority                                            -           38,124                  -              -                    -             38,124

Unobligated Balance:
Beginning of Period (Note 24)                               25,211          59,507             247,360                 -           272,571            59,507
  Adjustment to Beginning Balance (Note 24)                    -               -                     -                 -               -                 -
  Adjusted - Beginning of Period                            25,211          59,507             247,360                 -           272,571            59,507
Spending Authority from Offsetting Collections:
  Earned
   Collected                                               416,792       2,981,006                    -                -            416,792        2,981,006
   Receivable from Federal Sources                            (342)            -                      -                -               (342)             -
  Change in Unfilled Customer Orders                                                                  -                -                -
   Advance Received                                             -              -                      -                -                -                -
   Without Advance from Federal Sources                          13            -                      -                -                  13             -
  Anticipated for rest of year, without advances                -              -                      -                -                -                -
 Subtotal                                                 1,702,437      3,078,637            8,886,033                -         10,588,470        3,078,637

Recoveries of Prior Year Obligations                          1,842             -              662,274                 -           664,116                -
Temporarily not available pursuant to Public Law            (12,000)            -                    -                 -           (12,000)               -
Permanently not available                                    (2,742)     (2,705,090)                 -                 -            (2,742)        (2,705,090)

Total Budgetary Resources                          $      1,689,537 $      373,547     $      9,548,307 $          -       $     11,237,844 $        373,547



Status of Budgetary Resources:

Obligations Incurred (Note 16):
 Direct                                            $      1,660,628 $      306,351     $      8,569,490 $          -       $     10,230,118 $        306,351
 Reimbursable                                                 1,359            -                    -              -                  1,359              -
 Subtotal                                                 1,661,987        306,351            8,569,490            -             10,231,477          306,351
Unobligated Balance:
 Apportioned                                                 6,156             382             211,293                 -           217,449               382
 Other Available                                               -               -                     -                 -               -                 -
Unobligated Balance not Available                           21,394          66,814             767,524                 -           788,918            66,814

Total Status of Budgetary Resources                $      1,689,537 $      373,547     $      9,548,307 $          -       $     11,237,844 $        373,547



Relationship of Obligations to Outlays:

Obligated Balance, net, Beginning of Period        $        74,714 $            -      $      3,010,481 $          -       $      3,085,195    $          -
Obligated Balance Transferred, net                             -                -                     -                -                -                 -
Obligated Balance, net, End of Period:                                                                -                -
 Accounts Receivable                                           (15)             -                     -                -                (15)              -
 Unfilled Customer Orders from Federal Sources                 -                -                     -                -                -                 -
 Undelivered Orders                                         48,174              -             3,124,323                -          3,172,497               -
 Accounts Payable                                           24,889              -                67,748                -             92,637               -

Outlays:
 Disbursements                                            1,662,139         306,351           7,725,626                -          9,387,765           306,351
 Collections                                               (416,792)     (2,981,006)                  -                -           (416,792)       (2,981,006)
 Subtotal                                                 1,245,347      (2,674,655)          7,725,626                -          8,970,973        (2,674,655)
Less: Offsetting Receipts                                    25,463               -                   -                -             25,463               -
Net Outlays                                               1,219,884      (2,674,655)          7,725,626                -          8,945,510        (2,674,655)




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                                                               115
UNAUDITED
                                                                                                                                           UNAUDITED



       UNAUDITED CONSOLIDATING STATEMENT OF FINANCING
       As of September 30, 2005
       (Dollars in thousands)
                                                                                    FCC              USF                  NANP                 Consolidated
Resources Used to Finance Activities:

Budgetary Resources Obligated
 Obligations incurred                                                           $     1,968,338       8,569,490       $             -      $        10,537,828
 Less: Spending authority from offsetting collections and recoveries                  3,399,311         662,274                     -                4,061,585
 Obligations net of offsetting collections and recoveries                            (1,430,973)      7,907,216                     -                6,476,243
 Less: Offsetting receipts                                                               25,463               -                     -                   25,463
 Net obligations                                                                     (1,456,436)      7,907,216                     -                6,450,780
Other Resources
 Transfers in/out without reimbursement (+/-)                                             25,463                 -                  -                  25,463
 Imputed financing from costs absorbed by others                                          14,449                 -                  -                  14,449
 Other (+/-)                                                                                 -                   -                  -                     -
 Net other resources used to finance activities                                           39,912                 -                  -                  39,912

Total resources used to finance activities                                           (1,416,524)      7,907,216                     -                6,490,692

Resources Used to Finance Items not Part of the Net Cost of Operations

 Change in budgetary resources obligated for goods, services and benefits
 ordered but not yet provided (+/-)                                                     (3,266)        171,701                      -                  168,435
 Resources that fund expenses recognized in prior periods                            1,269,099               -                      -                1,269,099
 Budgetary offsetting collections and receipts that do not affect net cost of
 operations
   Credit program collections which increase liabilities for loan guarantees
   or allowances for subsidy                                                         (3,016,923)              -                     -               (3,016,923)
   Other                                                                                350,860               -                     -                  350,860
 Resources that finance the acquisition of assets                                        12,121       1,125,687                     -                1,137,808
 Other resources or adjustments to net obligated resources that do not affect
 net cost of operations (+/-)                                                                 -            57,786                   -                  57,786

 Total resources used to finance items not part of the net cost of operations        (1,388,109)      1,355,174                     -                  (32,935)

Total resources used to finance the net cost of operations                                (28,415)    6,552,042                     -                6,523,627

Components of the Net Cost of Operations that will not Require or Generate
Resources in the Current Period:

Components Requiring or Generating Resources in Future Periods:
 Increase in annual leave liability                                                           -                 -                   -                      -
 Upward/Downward reestimates of credit subsidy (+/-)                                      (44,224)              -                   -                  (44,224)
 Increase in exchange revenue receivable from the public                                    2,957               -                   -                    2,957
 Other (+/-)                                                                                  (10)         32,215                   -                   32,205
 Total components of Net Cost of Operations that will require or generate
 resources in future periods                                                              (41,277)         32,215                   -                   (9,062)

Components not Requiring or Generating Resources:
 Depreciation and Amortization                                                            16,376               418                  128                16,922
 Other (+/-)                                                                              54,095           (16,532)              (1,369)               36,194
 Total components of Net Cost of Operations that will not require or generate
 resources                                                                                70,471           (16,114)              (1,241)               53,116

Total components of Net Cost of Operations that will not require or generate
resources in the current period                                                           29,194           16,101                (1,241)               44,054

Net Cost of Operations                                                          $            779      6,568,143       $          (1,241)   $         6,567,681




       PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                                                                   116
       UNAUDITED
                                                                                                        UNAUDITED



UNAUDITED REQUIRED SUPPLEMENTARY INFORMATION – STATEMENT OF
BUDGETARY RESOURCES
For the Periods Ended September 30, 2005 and 2004
(Dollars in thousands)

FY2005                                               S&E            Credit      Auctions          USF             Total
Budgetary Resources:

Budget authority                                 $       987    $ 1,297,900     $      -      $   8,638,673 $      9,937,560
Unobligated balances - beginning of period            18,004          62,321         4,393          247,360          332,078
Spending authority from offsetting collections       294,345       3,018,124        85,000                -        3,397,469
Adjustments                                          (11,994)     (2,705,091)         (905)         662,274       (2,055,716)
Total budgetary resources                        $   301,342    $ 1,673,254     $   88,488    $   9,548,307 $     11,611,391


Status of Budgetary Resources:

Obligations incurred                             $   282,538    $ 1,601,111     $   84,689    $   8,569,490 $     10,537,828
Unobligated balances - available                         686          5,330            522          211,293          217,831
Unobligated balances - not available                  18,118         66,813          3,277          767,524          855,732
Total, status of budgetary resources             $   301,342    $ 1,673,254     $   88,488    $   9,548,307 $     11,611,391


Relationship of Obligations to Outlays:

Obligated balance, net, beginning of period      $    30,229    $      15,804   $   28,681    $   3,010,481 $      3,085,195
Obligated balance transferred, net                         -                -            -                -                -
Obligated balance, net, end of period                 33,010           10,553       29,485        3,192,071        3,265,119

Outlays:
 Disbursements                                      278,317        1,606,361       83,812         7,725,626        9,694,116
 Collections                                       (294,675)      (3,018,124)     (84,999)                -       (3,397,798)
 Subtotal                                           (16,358)      (1,411,763)      (1,187)        7,725,626        6,296,318
Less: Offsetting Receipts                            25,463                -            -                 -           25,463
Net Outlays                                      $ (41,821)     $ (1,411,763)   $ (1,187)     $   7,725,626     $ 6,270,855




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                                  117
UNAUDITED
                                                                                                        UNAUDITED


UNAUDITED REQUIRED SUPPLEMENTARY INFORMATION – STATEMENT OF
BUDGETARY RESOURCES (continued)
For the Periods Ended September 30, 2005 and 2004
(Dollars in thousands)

FY 2004                                              S&E            Credit      Auctions          USF             Total
Budgetary Resources:

Budget authority                                 $       990    $    640,888    $      -      $ 16,047,791 $      16,689,669
Unobligated balances - beginning of period             4,451          49,988         6,148         (56,185)            4,402
Spending authority from offsetting collections       343,217       1,486,248        85,000               -         1,914,465
Adjustments                                          (51,173)     (1,127,277)       (1,449)              -        (1,179,899)
Total budgetary resources                        $   297,485    $ 1,049,847     $   89,699    $ 15,991,606 $      17,428,637


Status of Budgetary Resources:

Obligations incurred                             $   279,480    $   987,526     $   85,307    $ 15,744,246 $      17,096,559
Unobligated balances - available                         (15)         3,060              1         247,360           250,406
Unobligated balances - not available                  18,020         59,261          4,391               -            81,672
Total, status of budgetary resources             $   297,485    $ 1,049,847     $   89,699    $ 15,991,606 $      17,428,637


Relationship of Obligations to Outlays:

Obligated balance, net, beginning of period      $    35,579    $      17,888   $   30,746    $      56,185 $        140,398
Obligated balance transferred, net                         -                -            -                -                -
Obligated balance, net, end of period                 30,229           15,804       28,680        3,010,482        3,085,195

Outlays:
 Disbursements                                      277,396         989,422        85,586       12,789,949        14,142,353
 Collections                                       (342,527)     (1,486,248)      (85,000)               -        (1,913,775)
 Subtotal                                           (65,131)       (496,826)          586       12,789,949        12,228,578
Less: Offsetting Receipts                            20,159               -             -                -            20,159
Net Outlays                                      $ (85,290)     $ (496,826)     $     586     $ 12,789,949      $ 12,208,419




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                                                                  118
UNAUDITED
Appendix A: Glossary of Acronyms
3G                       Third generation
ADA                      Americans with Disabilities Act
ADSL                     Asymmetric Digital Subscriber Lines
Agency                   Federal Communications Commission
AIS                      Automatic Identification Systems
AMSS                     Aeronautical Mobile Satellite Service
APCO                     Association of Public Safety Officers International. Inc
APOA                     Alternate Processing Options Analysis
ARC                      Appalachian Regional Commission
ASL                      American Sign Language
ATC                      Ancillary Terrestrial Component
AWS                      Advanced Wireless Services
BAS                      Broadcast Auxiliary Service
BEAMS                    Budget Execution and Management System
BIA                      Business Impact Analysis
Big LEO                  Low-Earth Orbit Mobile-Satellite systems
BOCS                     Bell Operating Companies
BPD                      Bureau of Public Debt
BPL                      Broadband Power Lines
BRS                      Broadband Radio Service
C&A                      Certification and Accreditation
CA                       Communications Assistant
CALEA                    Communications Assistance for Law Enforcement Act
CDBS                     Consolidated Database System
CDMA                     Code Division Multiple Access
CEPT                     European Conference of Postal and Telecommunications Administrations
CFS                      Commission’s Financial Statements
CITEL                    Inter-American Telecommunication Commission
CLE                      Continuing Legal Education
CLEC                     Competitive Local Exchange Carrier
CMRS                     Commercial Mobile Radio Services
COMAD                    Commitment Adjustment



PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                            173
Commission               Federal Communications Commission
COOP                     Continuity of Operations Plan
COTS                     Commercial off-the-shelf
CPI                      Consumer Price Index
CPIC                     Capital Planning and Investment Control
CPI-U                    Consumer Price Index for all Urban Consumers
CSEA                     Commercial Spectrum Enhancement Act
CSP                      Computer Security Program
CSRS                     Civil Service Retirement System
DAB                      Digital Audio Broadcasting
DBS                      Direct Broadcast Satellite
DCIA                     Debt Collection Improvement Act
DRP                      Disaster Recovery Plan
DSL                      Digital Subscriber Lines
DSRC                     Dedicated Short-Range Communications
DTV                      Digital Television
E911                     Enhanced 911
EAS                      Emergency Alert System
EBS                      Educational Broadband Service
EI                       Effective interest method
ERP                      Enterprise Resource Planning
ESMR                     Enhanced Specialized Mobile Radio Service
ESV                      Earth Station on Vessel
EV-DO                    Evolution-Data Only
FACA                     Federal Advisory Committee Act
FACTS 1                  Federal Agency Centralized Trial Balance System
FAR                      Federal Acquisition Regulations
FBI                      Federal Bureau of Investigation
FCC                      Federal Communications Commission
FCCU                     FCC University
FCRA                     Federal Credit Reform Act of 1990
FECA                     Federal Employee Compensation Act
Federal                  Federal Government
FEDGAAP                  Generally Accepted Accounting Principles for Federal Government Agencies




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                        174
FERS                     Federal Employee Retirement System
FFMIA                    Federal Financial Management Improvement Act
FFS                      Federal Financial System
FISMA                    Federal Information Security Management Act
FMFIA                    Federal Managers Financial Integrity Act
FOH                      Federal Occupational Health
FRN                      FCC’s required registration numbers
FTE                      Full-time equivalents
FTTC                     Fiber-to-the-curb
FTTH                     Fiber-to-the-home
FY                       Fiscal Year
GAAP                     Generally accepted accounting principles
GAO                      Government Accountability Office
GET                      Government Emergency Telephone services
GFRS                     Government wide report system
GHz                      Gigahertz
GOVGAAP                  Generally Accepted Accounting Principles for Government Agencies
GPRA                     Government Performance and Results Act of 1993
HD                       High Definition
IB                       International Bureau
IBFS                     International Bureau Electronic Filing System
IBOC                     In-Band On-Channel
ICASS                    International Cooperative Administrative Support Services
IEEE                     Institute of Electrical and Electronic Engineers
IMPACT                   Improving Management of Policy Activities through Collaborative
                         Technologies
IP                       Internet Protocol
IPIA                     Improper Payments Information Act
ISP                      International Settlements Priority
ISP                      Internet Services Provider
IT                       Information Technology
IT DRP                   Information Technology Disaster Recovery Plan
ITFS                     Instructional Television Fixed Service
ITS                      Intelligent Transportation System
ITS                      International Telecommunications Settlement


PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                             175
ITSP                     Interstate Telecommunications Service Providers
ITU                      International Telecommunications Union
ITU-R                    International Telecommunication Union Radiocommunication
IVDS                     Interactive Video and Data Service
IVR                      Interactive Voice Response
IWG                      Informal Working Group
JFMIP                    Joint Financial Management Improvement Program
JSA                      Joint Services Agreement
Kbps                     Kilobits per second
Leap                     Leap Wireless International, Inc.
LEC                      Local Exchange Carriers
LMDS                     Local Multichannel Distribution Service
LNP                      Local Number Portability
LPFM                     Low Power FM
LPTV                     Low Power Television
MDS                      Multichannel Distribution Service
MHz                      Megahertz
MMDS                     Multichannel Multipoint Distribution System
MSRC                     Media Security and Reliability Council
MVPD                     Multichannel Video Programming Distribution
NA                       Not applicable
NAL                      Notice of Apparent Liability
NANP                     North American Numbering Plan
NANPA                    North American Numbering Plan Administrator
NCS                      National Communications System
NECA                     National Exchange Carriers Association
NENA                     National Emergency Number Association
NEPA                     National Environmental Policy Act
NextWave                 NextWave Communications, Inc.
NFC                      National Finance Center
NOI                      Notice of Inquiry
NPRM                     Notice of Proposed Rulemaking
NRIC                     Network Reliability Interoperability Council
NS/EP                    National Security / Emergency Preparedness




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                      176
NTIA                     National Telecommunications and Information Administration
OECD                     Organization for Economic Development and Cooperation
OET                      Office of Engineering and Technology
OFDM                     Orthogonal Frequency Division Multiplexing
OGC                      Office of General Counsel
OHS                      Office of Homeland Security
OIG                      Office of Inspector General
OMB                      Office of Management and Budget
OMD                      Office of the Managing Director
OPM                      Office of Personnel Management
PA                       Pooling Administrator
PAR                      Performance and Accountability Report
PART                     Program Assessment and Rating Tool
PCS                      Personal Communications Service
PDA                      Personal Digital Assistants
PDP                      Personal Development Plan
PERM                     Performance Evaluation and Records Management
PLMR                     Private Land Mobile Radio
PP&E                     Property, Plant and Equipment
PSAP                     Public Safety Answering Points
PSIP                     Program and System Information Protocol
QPRR                     Quarterly Performance and Results Review
RAMIS                    Revenue Accounting and Management Information System
Report                   Performance and Accountability Report
RF                       Radio Frequency
RFID                     Radio Frequency Identification
RUS                      Rural Utilities Service
S&E                      Salaries & Expenses
SCP                      Special Coordination Procedure
SFFAS                    Statement of Federal Financial Accounting Standards
SGL                      Standard General Ledger
SHVERA                   Satellite Home Viewer Extension and Reauthorization Act of 2004
SMR                      Specialized Mobile Radio
SPTF                     Spectrum Policy Task Force




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                         177
SSP                          System Security Plan
ST&E                         Security Test and Evaluation
STA                          Special Temporary Authority
TCB                          Telecommunication Certification Bodies
TDF                          Telecommunications Development Fund
TDM                          Time Division Multiplexing
TELRIC                       Total Element Long-Run Incremental Cost
TFM                          Treasury Financial Manual
TG 1/8                       Task Group
The Act                      The Communications Act of 1934, as amended
The Telecommunications Act   The Telecommunications Act of 1996
Treasury                     U.S. Department of the Treasury
TRS                          Telecommunications Relay Service (Fund)
TSP                          Telecommunications Service Priority
TV                           Television
U.S.                         United States
U.S.C.                       United States Code
UCC                          Uniform Commercial Code
UNE                          Unbundled Network Element
USAC                         Universal Service Administrative Company
USCG                         United States Coast Guard
USDA                         United States Department of Agriculture
USF                          Universal Service Fund
UWB                          Ultra-wideband
VERA                         Voluntary Early Retirement Authority
VNRs                         Video news releases
VoIP                         Voice-over Internet Protocol
VRS                          Video Relay Service
W-CDMA                       Wideband Code Division Multiple Access
Wi-Fi                        Wireless Fidelity
WISP                         Wireless Internet Services Provider
WLAN                         Wireless Local Area Network
WPAS                         Wireless priority access service
WRC-07                       World Radiocommunication Conference 2007




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005                  178
WTO                      World Trade Organization
WTSA                     Telecommunications Standardization Assembly




PERFORMANCE AND ACCOUNTABILITY REPORT – FISCAL YEAR 2005               179
This page intentionally left blank
       SECTION VI

ACRONYMS & ABBREVIATIONS
This page intentionally left blank
SECTION VI     ACRONYMS & ABBREVIATIONS



   ABC         Assistant Bureau Chief for Management
   AP          Accounts payable
   BEAMS       Budget Execution and Management System
   CFO Act     Chief Financial Officers Act of 1990
   CFO         Chief Financial Officer
   CFR         Code of Federal Regulations
   COOP        Continuity of operations plan
   CSO         Computer Security Officer
   CSP         Computer Security Program
   DCIA        Debt Collection Improvement Act of 1996
   DRP         Disaster recovery plan
   EDP         Electronic data processing
   EHRI        Enterprise human resource integration
   ELS         Earnings and leave statement
   FACTS II    Federal Agencies’ Centralized Trial Balance System II
   FAR         Federal Acquisitions Regulations
   FCC         Federal Communications Commission
   FFMIA       Federal Financial Management Improvement Act of 1996
   FFS         Federal Financial System
   FMFIA       Federal Managers’ Financial Integrity Act of 1982
   FOC         Financial Operations Center
   FSOG        Financial Systems Operations Group
   FY          Fiscal year
   GAAP        Generally accepted accounting principles
   GAO         General Accounting Office or Government Accountability Office
   GAS         Government Auditing Standards
   GMRA        Government Management Reform Act of 1994
   HRM         Human Resources Management
   IC Report   Independent Auditor’s Report on Internal Control over Financial Reporting
   IG          Inspector General
   IT          Information technology
   ITC         Information Technology Center
   ITS         International Telecommunication Services
   JFMIP       Joint Financial Management Improvement Program
   LES         Leave and earnings statement
   NANP        North American Numbering Plan
   NECA        National Exchange Carrier Association
   NFC         National Finance Center
   NIST        National Institute of Standards and Technology
   OCM         Office of the Chairman
   OGC         Office of General Counsel
   OIG         Office of Inspector General




05-AUD-04-03   REPORT ON THE FEDERAL COMMUNICATIONS                       Page 1
               COMMISSION’S FY 2005 FINANCIAL STATEMENTS
SECTION VI     ACRONYMS & ABBREVIATIONS



   OMB         Office of Management and Budget
   OMD         Office of the Managing Director
   OPF         Official Personnel Folder
   OPM         Office of Personnel Management
   PAR         Performance and Accountability Report
   PMA         President’s Management Agenda
   PSM         Personnel Security Manual
   RAMIS       Revenue Accounting and Management Information System
   SAS         Statement of Auditing Standards
   SFFAS       Statement of Federal Financial Accounting Standards
   T&A         Time and attendance
   TFM         Treasury Financial Manual
   TROR        Treasury Report on Receivables
   TRS         Telecommunications Relay Service Fund
   USAC        Universal Service Administrative Company
   USF         Universal Service Fund
   USSGL       United States Standard General Ledger
   WTB         Wireless Telecommunications Bureau




05-AUD-04-03   REPORT ON THE FEDERAL COMMUNICATIONS                   Page 2
               COMMISSION’S FY 2005 FINANCIAL STATEMENTS
